<html>
<title> - HEARING ON THE IMPLEMENTATION OF THE FOSTERING CONNECTIONS TO SUCCESS AND INCREASING ADOPTIONS ACT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                    HEARING ON THE IMPLEMENTATION OF 
                  THE FOSTERING CONNECTIONS TO SUCCESS 
                      AND INCREASING ADOPTIONS ACT 

=======================================================================

                                HEARING

                               before the

                  SUBCOMMITTEE ON INCOME SECURITY AND
                             FAMILY SUPPORT

                                 of the

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2009

                               __________

                           Serial No. 111-30

                               __________

         Printed for the use of the Committee on Ways and Means

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-733 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 



























                      COMMITTEE ON WAYS AND MEANS
            INCOME SECURITY AND FAMILY SUPPORT SUBCOMMITTEE

                  JIM MCDERMOTT, Washington, Chairman

FORTNEY PETE STARK, California       JOHN LINDER, Georgia, Ranking 
ARTUR DAVIS, Alabama                 Member
JOHN LEWIS, Georgia                  CHARLES W. BOUSTANY, JR., 
SHELLEY BERKLEY, Nevada              Louisiana
CHRIS VAN HOLLEN, Maryland           DEAN HELLER, Nevada
KENDRICK B. MEEK, Florida            PETER J. ROSKAM, Illinois
SANDER M. LEVIN, Michigan            PATRICK J. TIBERI, Ohio
DANNY K. DAVIS, Illinois

             Janice Mays, Chief Counsel and Staff Director

                   Jon Traub, Minority Staff Director

Pursuant to clause 2(e)(4) of Rule XI of the Rules of the House, public 
hearing records of the Committee on Ways and Means are also published 
in electronic form. The printed hearing record remains the official 
version. Because electronic submissions are used to prepare both 
printed and electronic versions of the hearing record, the process of 
converting between various electronic formats may introduce 
unintentional errors or omissions. Such occurrences are inherent in the 
current publication process and should diminish as the process is 
further refined.



















                            C O N T E N T S

                               __________

                                                                   Page

McDermott Announces Hearing on the Implementation of the 
  Fostering Connections to Success and Increasing Adoptions Act..     2

                               WITNESSES

The Honorable Brenda Donald, Office of the Secretary, Maryland 
  Department of Human Resources, Baltimore, Maryland.............    16
Erwin McEwen, Director, Illinois Department of Children and 
  Family Services, Chicago, Illinois.............................    26
Jacqueline Johnson Pata, Executive Director, National Congress of 
  American Indians (NCAI)........................................    36
Margaret ``Greta'' Anderson, Former Foster Care Youth and College 
  Student, Au Claire, Wisconsin..................................    42
Linda Spears, Vice President, Policy and Public Affairs, Child 
  Welfare League of America, Arlington, Virginia.................    46
Kathleen McNaught, J.D., Assistant Director, Center on Children 
  and the Law, American Bar Association..........................    55

                       SUBMISSIONS FOR THE RECORD

American Academy of Pediatrics, Statement........................    76
Amy Lemley, Statement............................................    79
Beverly Tran, Statement..........................................    80
Center for Law and Social Policy (CLASP), Statement..............    84
Children's Defense Fund, Statement...............................    89
Donna M. Butts, Statement........................................    96
Frank J. Mecca, Statement........................................    98
Jane Burstain, Ph.D., Statement..................................   100
Jodie Lee Klaassen, Statement....................................   101
John R. Vaughn, Statement........................................   102


                    HEARING ON THE IMPLEMENTATION OF
                  THE FOSTERING CONNECTIONS TO SUCCESS
                      AND INCREASING ADOPTIONS ACT

                              ----------                              


                      TUESDAY, SEPTEMBER 15, 2009

             U.S. House of Representatives,
                       Committee on Ways and Means,
                            Subcommittee on Income Security
                                        and Family Support,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 1:00 p.m., in 
Room B-318, Rayburn House Office Building, the Honorable Jim 
McDermott [chairman of the subcommittee] presiding.
    [The advisory announcing the hearing follows:]

ADVISORY

FROM THE 
COMMITTEE
 ON WAYS 
AND 
MEANS

                    SUBCOMMITTEE ON INCOME SECURITY
                           AND FAMILY SUPPORT

                                                CONTACT: (202) 225-1721
FOR IMMEDIATE RELEASE
September 08, 2009
ISFS-4

                   McDermott Announces Hearing on the

             Implementation of the Fostering Connections to

                  Success and Increasing Adoptions Act

    Congressman Jim McDermott (D-WA), Chairman of the Subcommittee on 
Income Security and Family Support of the Committee on Ways and Means, 
today announced that the Subcommittee will hold a hearing to review the 
implementation of the Fostering Connections to Success and Increasing 
Adoptions Act of 2008 (P.L. 110-351). The hearing will take place on 
Tuesday, September 15, 2009, at 1:00 p.m. in B-318 Rayburn House Office 
Building. In view of the limited time available to hear witnesses, oral 
testimony at this hearing will be from invited witnesses only. However, 
any individual or organization not scheduled to appear may submit a 
written statement for consideration by the Subcommittee and for 
inclusion in the record of the hearing.
      

BACKGROUND:

      
    Last September, Congress passed the bipartisan Fostering 
Connections to Success and Increasing Adoptions Act to provide for the 
most significant changes in child welfare policy in over a decade. The 
new law includes specific requirements aimed at improving the oversight 
of foster kids' health care needs, educational stability, and 
connection to family members. It provides additional Federal assistance 
to support caseworker training, to directly assist children in tribal 
foster care, and to promote policies that provide support and 
incentives for adopting children out of the foster care system. 
Finally, the law establishes two new important options for States to 
improve outcomes for children in foster care: (1) Federal matching 
payments for States choosing to provide assistance to grandparents and 
other relatives who become legal guardians of foster children; and (2) 
Federal matching payments for States choosing to continue foster care 
assistance up to the age of 21 for youth engaged in school, work, or 
other constructive activities.
      
    In announcing the hearing, Chairman McDermott stated, ``Our action 
last fall to improve the child welfare system represented a bipartisan, 
bicameral commitment to work together to significantly improve the 
lives of our most vulnerable children. But our work is not done. We 
need to both ensure a successful implementation of this new law and 
continue to work to improve other aspects of the system in need of 
reform.''
      

FOCUS OF THE HEARING:

      
    The hearing will focus on the implementation of the Fostering 
Connections to Success and Increasing Adoptions Act of 2008.
      

DETAILS FOR SUBMISSION OF WRITTEN COMMENTS:

      
    Please Note: Any person(s) and/or organization(s) wishing to submit 
for the hearing record must follow the appropriate link on the hearing 
page of the Committee website and complete the informational forms. 
From the Committee homepage, http://waysandmeans.house.gov, select 
``Committee Hearings''. Select the hearing for which you would like to 
submit, and click on the link entitled, ``Click here to provide a 
submission for the record.'' Once you have followed the online 
instructions, complete all informational forms and click ``submit'' on 
the final page. ATTACH your submission as a Word or WordPerfect 
document, in compliance with the formatting requirements listed below, 
by close of business Tuesday, September 29, 2009. Finally, please note 
that due to the change in House mail policy, the U.S. Capitol Police 
will refuse sealed-package deliveries to all House Office Buildings. 
For questions, or if you encounter technical problems, please call 
(202) 225-1721.
      

FORMATTING REQUIREMENTS:

      
    The Committee relies on electronic submissions for printing the 
official hearing record. As always, submissions will be included in the 
record according to the discretion of the Committee. The Committee will 
not alter the content of your submission, but we reserve the right to 
format it according to our guidelines. Any submission provided to the 
Committee by a witness, any supplementary materials submitted for the 
printed record, and any written comments in response to a request for 
written comments must conform to the guidelines listed below. Any 
submission or supplementary item not in compliance with these 
guidelines will not be printed, but will be maintained in the Committee 
files for review and use by the Committee.
      
    1. All submissions and supplementary materials must be provided in 
Word or WordPerfect format and MUST NOT exceed a total of 10 pages, 
including attachments. Witnesses and submitters are advised that the 
Committee relies on electronic submissions for printing the official 
hearing record.
      
    2. Copies of whole documents submitted as exhibit material will not 
be accepted for printing. Instead, exhibit material should be 
referenced and quoted or paraphrased. All exhibit material not meeting 
these specifications will be maintained in the Committee files for 
review and use by the Committee.
      
    3. All submissions must include a list of all clients, persons, 
and/or organizations on whose behalf the witness appears. A 
supplemental sheet must accompany each submission listing the name, 
company, address, telephone, and fax numbers of each witness.
      
    The Committee seeks to make its facilities accessible to persons 
with disabilities. If you are in need of special accommodations, please 
call 202-225-1721 or 202-226-3411 TTD/TTY in advance of the event (four 
business days notice is requested). Questions with regard to special 
accommodation needs in general (including availability of Committee 
materials in alternative formats) may be directed to the Committee as 
noted above.
      
    Note: All Committee advisories and news releases are available on 
the World Wide Web at http://waysandmeans.house.gov.

                                 <F-dash>

    Chairman MCDERMOTT. The meeting will come to order.
    A year ago, Congress passed the ``Fostering Connections to 
Success and Increasing Adoptions Act.'' The basic premise of 
the law is that foster children need the same things to succeed 
that all children need: a safe home, caring family, good 
education, and access to health care. And yet, the foster care 
system too often unnecessarily disrupts connections to family 
and home and school, whether it is expecting foster kids to go 
it alone at age 18 or denying assistance to grandparents who 
become legal guardians or unnecessarily displacing kids from 
their schools or separating them from their siblings. Now, the 
result is to sever and to reduce the links that foster children 
need to successfully navigate their way to adulthood. With the 
Fostering Connections Act, Congress acted on a bipartisan basis 
to address these issues in a positive and proactive way.
    Recently, our Committee has heard that the timing of the 
legislation presents challenges for some of the States. Given 
the recession and the havoc it has played on State budgets--and 
I can testify for my own State, as well--while I understand the 
harsh budget realities faced by nearly every State, I also know 
that children in foster care can't wait for time when reform is 
convenient.
    All of us have a responsibility for foster children, and we 
need to squarely meet that obligation. So I, therefore, thought 
it was good to look forward to hearing from our witnesses about 
the implementation of the law's new options and requirements.
    The Committee is particularly interested in learning how 
States have extended support to grandparents and other 
relatives who wish to act as legal guardians for foster kids. 
We are also interested in hearing how States intend to extend 
foster care services up to the age of 21, as well as extend 
other supports to older youth.
    Furthermore, we would like to know if States have fulfilled 
the new requirements related to providing greater oversight of 
the health care and educational needs of all foster kids, 
placing siblings together whenever possible, and notifying 
relatives within 30 days of a child's removal from their 
biological home.
    Additionally, we are interested in learning about the 
experience of those tribal governments who are planning to 
operate their own tribal welfare system, as well as those that 
are considering such a move. And, finally, we are looking 
forward to hearing about the impact of the law on promoting and 
increasing the number of kids who are adopted out of the foster 
care system.
    This act was a landmark piece of legislation. It included a 
number of policy changes and reforms without adding one penny 
to the Federal deficit. The legislation represents the Congress 
at its very, very best. It shows what can be achieved when both 
sides come together to work in good faith to address a problem.
    There are certainly other challenges in the foster care 
system that demand more of this vision and energy and 
commitment. And I look forward to hearing from all our 
witnesses today.
    And now I yield to my colleague, Mr. Linder, for any 
opening remarks he may wish to give.
    Mr. LINDER. Thank you, Mr. Chairman.
    Today's hearing reviews the implementation of the Fostering 
Connections law approved last fall. That law made important 
changes we all hope will benefit young people in foster care. 
Changes included stepped-up efforts to place children with 
relatives instead of strangers and improved incentives for 
adopting children out of foster care.
    I am especially interested in provisions designed to 
improve the school stability and performance of foster youth, 
among others. We need to do a better job of ensuring foster 
youth stay connected with their school. Research and common 
sense suggest that would help more graduate on time instead of 
dropping out, as too often happens. We welcome the testimony of 
Kathleen McNaught of the American Bar Association on that 
score, both on implementation of the law and on challenges that 
remain to making that vision a reality.
    While it is certainly worth reviewing these issues, I am 
struck by what we are not considering today. For example, the 
Subcommittee has jurisdiction over the special extended 
unemployment benefits program created in June of 2008, which 
already has been extended and expanded twice. The Federal 
Government has paid or promised a total of $73 billion in 
special and extended benefits to date. Proponents suggest that 
this would stimulate the economy and create jobs, yet 
unemployment has risen to 9.7 percent, nearly 2 percentage 
points higher than stimulus supporters predicted.
    Further stretching the bounds of logic, last week the 
Administration claimed 1 million jobs had been created with the 
stimulus law. In fact, there have been 3 million jobs 
eliminated since February. This weekend, National Economic 
Council Director Larry Summers said, ``Unemployment will, by 
all forecasts, remain unacceptably high for a number of 
years.''
    Just currently approved spending has drained the State and 
Federal unemployment accounts and will lead to deficits 
totaling more than $100 billion by late 2010 and another $200 
billion by 2012. Further extensions and expansions will add 
massively to that tide of red ink. But what of the promised 
jobs? When will they arrive? And, in the meantime, how high 
will unemployment, spending, borrowing, and, ultimately, taxes 
go? How much will that tax hike hurt job creation?
    Those would be good topics for future hearings, too. It is 
past time for us to review how we can really increase jobs so 
laid-off workers can get paychecks, not unemployment checks.
    We also recently learned that stimulus checks were paid to 
thousands of current prisoners. Was that intended? How much did 
that cost? Is that being fixed? Another excellent oversight 
hearing for us.
    Or how about the fact that New York State recently issued 
$200 back-to-school checks to welfare and food stamp recipients 
using Federal stimulus funds under our jurisdiction? That set 
off a mad scramble for ATM withdrawals and spending on liquor, 
flat screen TVs, and who knows what else--all with Federal 
taxpayer dollars, all for the children, and especially 
stimulative, we were told, because low-income folks were likely 
to spend the money quickly. They did. Yet New York's 
unemployment rate remains high and rising, as does the debt we 
are leaving our children.
    So while I welcome today's hearing, I respectfully suggest 
there are other topics well worth exploring also. Those might 
also provide useful information about ensuring taxpayer dollars 
are well and effectively spent and maybe even about creating 
real jobs. Everyone, including foster youth as they become 
adults, would benefit from that.
    Mr. Chairman, I ask unanimous consent to include in the 
record at this point two articles that detail concerns about 
recent abuses involving stimulus funds.
    The first is an August 27th AP article that notes 3,900 
stimulus checks went to inmates. As the article relates, some 
checks were sent in error. About 2,200 of the inmates who 
received checks got to keep them because, under the law, they 
were eligible, said a spokesman for the Social Security 
Administration.
    The second article from CBS News on September 2nd relates 
how welfare recipients in New York State received $200 back-to-
school payments, which some adults used to purchase flat-screen 
TVs, video game systems, phone cards, and even cigarettes and 
beer--none of which has anything to do with helping school 
children go back to school, but all of which was paid for with 
Federal stimulus dollars.
    Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Without objection.
    [The statement of Mr. McDermott follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman MCDERMOTT. Although, I would point out, those 
subject matters are not before the Committee today. You might 
want to keep them and also submit them again when we do have a 
hearing on issues related to it.
    All Members have 5 working days to submit statements for 
the record.
    And Mr. Camp has submitted a report, which I would like to 
submit for the record. Without objection, they are entered in 
the record.
    [The information follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    

    Chairman MCDERMOTT. Mr. Van Hollen is here to introduce our 
first witness.
    Mr. VAN HOLLEN. Well, first, thank you, Mr. Chairman and 
Mr. Linder, for holding this hearing today, and thank you for 
your work on the Fostering Connections legislation. This is an 
opportunity for us to address the implementation of that 
legislation.
    I welcome all the witnesses, but I want to give a special 
welcome from my State of Maryland to our secretary of human 
resources in Maryland, Brenda Donald. And I want to thank her 
for her leadership in Maryland.
    And prior to serving the State of Maryland, helping with 
foster kids and adoption and protective services, she was the 
deputy Mayor of the District of Columbia, working on these 
issues as well. So she has a lot of experience that has been 
put to very good use in our State. And I know the congressional 
delegation has enjoyed working with her and our Governor.
    And welcome to this Committee. Thank you for being here.
    Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Ms. Donald.

    STATEMENT OF THE HONORABLE BRENDA DONALD, OFFICE OF THE 
 SECRETARY, MARYLAND DEPARTMENT OF HUMAN RESOURCES, BALTIMORE, 
                            MARYLAND

    Ms. DONALD. Thank you very much. I really do appreciate the 
opportunity to be here with you today.
    Chairman MCDERMOTT. Can I stop you for 1 second? Your whole 
statement will be put in the record, so we hope that you will 
stay within 5 minutes.
    Ms. DONALD. Absolutely, sir. I know the ground rules.
    And I do want to compliment you on your ``Save the 
Children'' tie. It is most appropriate for today's hearing.
    Shortly after Governor Martin O'Malley appointed me 
secretary in February of 2007, I launched a comprehensive child 
welfare reform agenda, known as ``Place Matters.'' The premise 
is very simple and certainly quite consistent with the 
Fostering Connections Act, and that is: Nothing matters more to 
a child than a place to call home.
    Since the inception of Place Matters, Maryland has made 
some significant progress. In just 2 years, we have reduced the 
number of children in care from 10,300 to 8,800 and reduced the 
number of children in group homes by 40 percent. Seventy-2 
percent of our children are currently in family settings, and 
we are seeing record numbers of adoptions, guardianships, and 
reunifications.
    I would like to take my few minutes with you this afternoon 
to discuss how we are implementing Fostering Connections in 
Maryland. The act underscores some of what Maryland is already 
doing around subsidized guardianships and supports for older 
youth. It has also spurred activity in areas that Maryland 
knows must be priorities. In this way, the act provides a 
catalyst and a foundation to support further progress.
    Nonetheless, this is comprehensive and complex legislation. 
We have spent many hours strategizing about how to implement 
Fostering Connections. As ahead of the curve as Maryland is in 
some ways, it should not be a surprise that we are not quite 
there yet. It will be a major lift to work successfully with 
our State's health and education systems. In addition, we are 
operating, as you mentioned, in an economic environment that 
leaves little room for new programs or unfunded mandates.
    In terms of the guardianship program, Maryland provided 
subsidized guardianship payments before the act was passed. We 
began with a 5-year Federal demonstration waiver that was 
continued with State funding for about 500 children. Our 
initial projections call for a recoupment of approximately 
$600,000 annually when the Fostering Connections guardianship 
program is fully implemented, and our intention is to reinvest 
those funds to support other child welfare programs.
    In terms of kinship providers, currently Maryland makes 
foster care payments to some 700 relatives providing care to 
about 900 children. Another 1,700 children, also placed with 
relatives, receive a subsidy through child-only TANF dollars. 
If all of these kin were to become licensed, as is encouraged 
under the act, this could have a significant fiscal impact.
    And I should point out also that all of our kin, whether 
they are licensed and receiving room and board payments or TANF 
only, still receive the same services and supports for their 
children, and their children are part of our foster care 
system.
    In terms of older youth, Maryland currently provides a 
robust support system for older youth already up to age 21. 
Now, of course, youth over age 18 are currently not eligible 
for Title IV-E reimbursement, so the services are entirely 
State-funded. When the Fostering Connections provisions become 
effective, they will generate significant additional Federal 
funds for us to reinvest in critical services for children and 
families. Thank you very much.
    Maryland's independent living policy meets virtually all of 
the new requirements, but we still require guidance for a 
number of things: whether we can still make payments directly 
to youth who are in our semi-independent living program; what 
can be considered a supervised independent living setting; what 
types of, quote/unquote, ``medical conditions'' might opt youth 
out of educational or work provisions; and what types of 
ongoing court supervision is required. And we await regulations 
for those critical elements.
    Fostering Connections provides a good foundation for 
supporting educational stability and good outcomes for children 
in foster care, but Maryland will need time to fully realize 
this goal. We work very closely with our State department of 
education, and our policies are consistent with the act. 
However, full implementation requires considerable cooperation 
and collaboration with 24 local education authorities. There 
are a number of unanswered questions. We have to grapple with 
issues of attendance records, transportation, and who is 
responsible for the associated costs.
    In terms of health care, our current health care system 
meets many of the Federal requirements, but we have requested 
an extension on the full implementation of this provision. We 
are working with our State department of health around the 
data-sharing element, and those will require legislation and 
funding for technology upgrades, so we have asked for an 
extension.
    In summary, thank you again for this landmark legislation. 
As I discuss with my colleagues what is missing, front-end 
service is on everyone's list. We cannot emphasize strongly 
enough the benefits of maintaining children safely at home when 
at all possible.
    Another critical need is that all children and families 
found to be in need of public child welfare services we believe 
should be eligible for Federal support. And I know many of the 
panelists are going to talk about the delink issue, and so I 
will leave that to their testimony.
    And thank you for your time, and I am available for any 
questions that you may have.
    [The statement of Ms. Donald follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman MCDERMOTT. Thank you for your testimony.
    I must say that, like you, we are eager for the Senate to 
confirm some appointments for the Department of Health and 
Human Services on some of these program questions you will be 
able to get answers from the Federal Government.
    Mr. Davis of Illinois is here.
    Mr. Davis, would you like to introduce your guest, Mr. 
McEwen?
    Mr. DAVIS of Illinois. Thank you very much, Mr. Chairman. 
And it is indeed my pleasure to introduce Mr. Erwin McEwen, the 
director of the Illinois Department of Children and Family 
Services.
    Mr. Chairman, Illinois is a national leader in developing 
and demonstrating the effectiveness of pioneering child welfare 
reforms and the ``Fostering Connections to Success and 
Increasing Adoptions Act,'' which enacts many of Illinois's 
successful reforms.
    Mr. McEwen, or ``Mac'' as we know him in Illinois, is 
responsible for much of the vision and dedication to such 
reforms in Illinois. He is a remarkable leader in improving 
child welfare, and I am confident that his experience will help 
our Subcommittee understand how States are implementing the 
Fostering Connections law.
    Mr. McEwen has an impressive academic and professional 
background. He started his social work career 15 years prior to 
earning his master's degree in social service administration at 
the University of Chicago. He has worked throughout the 
Illinois social service community, understanding the child 
welfare system from the ground up.
    Many State advisory commissions and councils have benefited 
from his expertise. Indeed, Mr. McEwen has served as a Member 
of the Illinois Statewide Foster Parent Advisory Council, the 
Illinois Child Care Association Board of Directors, the Child 
Welfare Advisory Committee on Performance-Based Contracting, 
and the African-American Family Commission's Monitoring and 
Oversight Committee.
    Mr. Chairman, I have a very active child welfare advisory 
Committee in my congressional district that is chaired by one 
of the most dynamic and energetic women in America, a woman 
named Annetta Wilson. And they are in constant contact with Mr. 
McEwen and his staff on a regular and ongoing basis. And I look 
forward to his comments today and welcome him.
    Thank you very much.
    Chairman MCDERMOTT. You are welcome.
    We are holding this hearing today because we know the State 
directors are all here in Washington, so we could get some live 
ones right up here today.
    And we welcome you, Mr. McEwen.

  STATEMENT OF ERWIN MCEWEN, DIRECTOR, ILLINOIS DEPARTMENT OF 
        CHILDREN AND FAMILY SERVICES, CHICAGO, ILLINOIS

    Mr. MCEWEN. Thank you, Chairman McDermott, Ranking Member 
Linder, and a big thanks to Congressman Davis from Illinois, 
who is a great supporter of our department in Illinois in 
helping us get the job done.
    My name is Erwin McEwen. I am the director of the Illinois 
Department of Children and Family Services. We call it one of 
the most reformed child welfare systems in the Nation. We have 
been working really hard since the implementation of the 
``Adoptions and Safe Family Act'' in 1997, when we had about 
53,000 children in care. Now in Illinois we have about 16,000 
children in care. And so we have really been working on trying 
to find ways to reduce the number of kids in care and better 
provide services to families. And this legislation is a big 
help to us in accomplishing that.
    Even though we have our deficit challenges and budget 
problems in Illinois, just like a lot of other States, it is 
not going to prevent us from implementing this legislation and 
some of the important parts of it.
    One of the ones I really want to talk about is supporting 
youth, the improvement of being able to provide services to 
youth between 18 and 21. In Illinois, we participated in a 
three-State study with Chapin Hall, a longitudinal study that 
looked at children in care who age out of care between the ages 
of 18 and 21. That study is now in its fourth phase, I think, 
and I think we are looking at kids 26 years old.
    But what we know from that research is that kids do better 
when they have the support of the State; that a lot of kids in 
care, they graduate high school in later years, 19 and 20, as 
opposed to 18 in the general population, and having the benefit 
and the support of the State is critical. And so we really, 
really look favorably upon that part of the legislation and 
wish you could implement it today rather than wait until 
October the 1st of 2010.
    In Illinois, we have carried kids in care to 21 for a long 
time. It is optional up to 19. And we recently just passed--
Governor Quinn signed into law, our legislators passed, 
``Foster Child Successful Transition Into Adulthood.'' What 
this legislation does is it allows kids who make the choice of 
leaving the system at 18 and 19 years old and then find out how 
difficult it is to go it alone to come back into care and 
receive the support of the State up to 21. And we just passed 
that legislation in anticipation of that October the 1st date 
when we will be able to get some help from the Federal 
Government to also support these kids.
    The idea is that education is extremely important, allowing 
kids to finish school and go on to college. We have got about a 
thousand kids in our Youth in College program in Illinois, of 
that 16,000 kids. It is important for foster children to have 
that opportunity for education.
    In looking at education, we have also implemented our 
``SchoolMinder'' rotational intake. What that does is we try to 
identify the closest foster home to the child's home of origin 
so that they don't have to change schools and so that, if they 
can maintain the same school placement as when they came into 
care, it helps them have better educational outcomes, because 
we know that changing in school placements creates a great deal 
of problems for kids and it sets them back even further than 
they may already be set back.
    We have met some challenges in implementing that program, 
but, using that same technology, we are now able to pinpoint 
where we need to do foster care recruitment so that we can try 
to increase the number of available foster homes and keep those 
kids close to their homes of origin. And this is, again, going 
to help us achieve those goals in education that we are looking 
at.
    And we just also recently passed the ``DCFS Service Plans 
Improvement and Foster Permanency Changes Act.'' And, in this 
act, we allowed the courts to reinstate parental rights on 
children who turn 13 or older in the system. And I know this 
may raise some eyebrows, but that same study that we did, it 
also showed that kids who turn 13 and 14 years old in the 
foster care system have a 98 percent chance of aging out of 
care and not going to permanency.
    And so what we were trying to do was create ways of working 
more closely with parents. It doesn't always lead to 
reunification, but we know when kids exit care they return to 
their parents' home. And so, how can we work with parents who 
may be able to now care for these teenagers when they were 
unable to care for kids? And how do we help the kids to learn 
to how to navigate and work with their families and not be 
reinjured or reharmed in returning to home on their own? And so 
we look forward to working in that area, as well.
    The other area that we looked at is supporting relative 
care. We think it is important. We just have one concern about 
the legislation. In looking at the legislation and 
understanding that you grandfathered in our kids who are in our 
subsidized guardianship category, who are in already through 
our demonstration project, we had concerns about other 
relatives who might not be licensed or unable to become 
licensed or not willing to engage in that process and not being 
able to claim those kids as well. Because we believe that that 
is great placement for those kids. A lot of the child and 
family services reviews have determined that those are good 
placements for these children. And we would like to have the 
support of the Federal Government in those placements.
    I see I am out of time. The last thing I wanted to talk 
about was the delinking issue, but I am sure some of our other 
panelists will address that issue as well.
    [The statement of Mr. McEwen follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman MCDERMOTT. Thank you very much.
    Our next witness is Jackie Johnson Pata, who is the 
executive director for the National Congress of American 
Indians.
    Jackie.

   STATEMENT OF JACQUELINE JOHNSON PATA, EXECUTIVE DIRECTOR, 
             NATIONAL CONGRESS OF AMERICAN INDIANS

    Ms. PATA. Thank you very much.
    On behalf of our country's tribal nations, NCIA, National 
Congress of American Indians, is pleased to present our 
testimony on the implementation of the Fostering Connections 
Act.
    And I wanted to let you know that our testimony has been 
drafted in concert with the National Indian Child Welfare 
Association and the Association for American Indian Affairs, 
who we have been collaborating with on the implementation 
issues. And, of course, we look forward to working with this 
Subcommittee as the act is implemented, with consultation with 
tribal nations.
    Of course, we have looked forward to this for a couple of 
decades, of trying to get tribal inclusion and access to Title 
IV-E, and so we were very excited around the inclusion. And I 
am going to talk a little bit about what some of our 
observations are about tribal nations, activities regarding the 
act, and also some challenges that we foresee in the 
implementation.
    To date, we have 73 tribes who have signaled that they are 
interested in implementing the program and signed a letter of 
intent to the Children's Bureau. We have 15 tribal entities who 
have applied for the development grant that support the Title 
IV-E readiness activities for up to 2 years. And given the 
number of tribes that have participated in other kinds of 
similar Federal programs, like the TANF implementation one, 
that was eligible, this shows a very healthy response from 
Indian country and a great interest in moving forward to 
participate in these programs that we think are very critical 
to our communities.
    We also have some challenges with these opportunities. But 
in the opportunities it creates, we have seen a lot of things 
happening as far as improved discussions with States as tribes 
and States work on collaborating how the implementation will be 
and who will take responsibility in the coordination. And so, 
we see an opportunity for improved cooperation and cooperative 
agreements.
    We also see tribes engaging more in broad child welfare 
reform within their own communities, really talking about where 
we are with the seventh generation and how we are addressing 
our tribal children's needs.
    And we are looking at additional tribal requests for 
technical assistance in implementing the program, particularly 
culturally relevant technical assistance that can help us adapt 
to our community structures. And then we have been having 
forums at the national level with strategies on implementation 
and trying to share the information and best practices.
    Some of the tribes, a couple of the tribes, see this as an 
opportunity for totally revamping and really making some 
meaningful system changes. Currently, the Navajo Nation, the 
largest nation in this country, and my own tribe, the Tlingit 
and Haida tribes of Alaska, are two examples who are seeking 
this as an opportunity for total revamping or really re-
evaluating our systems.
    And even though, you know, one of the greatest challenges, 
of course, that all tribes are really having to take time to 
assess is the in-kind contributions. And I think that, you 
know, we will talk a little bit about that, but the match 
requirement and the challenges that gives for tribes, 
particularly without really knowing some of the nuances of how 
those regulations will be developed, so what will be an 
eligible match or not.
    And given the current, as you heard from the State 
directors, the current economic conditions of the country 
affect tribal nations the same way. We are trying to get the 
additional matches that are necessary for us to implement these 
kinds of programs.
    We are looking for opportunities that this act helps our 
communities. We know that we will have to deal with tribal 
court and code reform. We will have to deal, as I said before, 
with culturally relevant appropriate technical assistance at 
the local level, but clearly developing for the first time the 
kinds of data and accounting systems that are necessary for our 
coordination, either with our State parties or for reporting 
requirements to HHS. And so, we have been doing a lot of work, 
our organization, with other organizations, looking at existing 
systems in tribes that receive Federal assistance and how that 
data reporting works and how we can look at streamlining those 
data systems to make them work in our tribal communities.
    But we also know that it is going to be important for HHS 
and the Children's Bureau to be very responsive to the unique 
needs in tribal communities, and so we are looking forward to 
developing forums of ongoing dialog as we talk about program 
implementation and policy development. We want to be able to 
make sure that we utilize the expertise in Indian country and 
that their voice is heard within the Department as they develop 
their policy regulations and that we adequately understand the 
agency's requirements and expectations.
    But when we get into some of the implementation challenges, 
of course we were glad that the Committee and Congress made 
sure that tribal consortias were eligible to apply--that is a 
good forum for us--protecting tribal children's eligibility for 
services when they switch from States to tribal or to direct 
funding, tribal direct funding.
    But we also know that, as I said earlier, the sufficient 
non-Federal sources to meet the match requirement is probably 
going to be one of the biggest barriers for tribes as we deal 
with the implementation. I remember when my own tribe was one 
of the first ones to take on the TANF programs, and we 
struggled, as a tribe, being able to meet the match. We are 
Alaska tribes with very few resources for our own programs, our 
own citizens' programs that we need to do.
    And, also, securing the development of compliant automated 
data systems.
    And then, also, the unique tribal service delivery issues 
with the multi-State needs of Navajo Nation, for example. It is 
over three States, and so that nation will have to address the 
requirements of three States. Or perhaps maybe we will be able 
to work out some flexibility with HHS or re-address or re-
evaluate some flexibility to be able to make sure that they 
could have a program that is consistent throughout their nation 
but still meet the requirements that the States will also need. 
So there will be some conversations that we need to deal with 
that.
    And then, of course, securing the development grants for 
timely--to be able to assist in the program readiness. Right 
now, with 15 tribes already indicating that they would like to 
apply for those funds, that means only a third of those tribes 
will be eligible to receive the development funds, which means 
that we will have to wait another 2-year cycle before the next 
third could be eligible. And so we are looking at a very slow 
implementation for tribes unless we are able to deal with the 
resources.
    And then, as I said earlier, once again, going back to the 
in-kind match, being able to make sure that when HHS develops 
the regulations, that we are able to broaden the use of those 
match requirements in the regulations.
    But I would like to thank you very much for making sure 
that tribes were included in this legislation. It was a 
landmark for us. We think it is really going to change the way 
that we deal with the welfare of our Indian children. Thank 
you.
    [The prepared statement of Ms. Pata follows:]
  Statement of Jacqueline Johnson Pata, Executive Director, National 
                  Congress of American Indians (NCAI)
    On behalf of our country's tribal nations, the National Congress of 
American Indians (NCAI) is pleased to present testimony on 
Implementation of the Fostering Connections to Success and Increasing 
Adoptions Act. The recommendations that we are making are supported by 
the National Indian Child Welfare Association and the Association of 
American Indian Affairs, with whom we collaborate on this and other 
child welfare matters. We look forward to working with this 
Subcommittee to ensure that the critical programs and initiatives 
authorized and supported by this body are implemented with 
effectiveness in consultation with tribal governments.
    This Act authorizes tribes, for the first time, to receive 
administer the Title IV-E federal programs for foster care and adoption 
assistance. While tribal governments are not eligible to receive 
reimbursement from Title IV-E under this law until October 1, 2009, 
there has been increasing interest from tribal governments to prepare 
for implementation of this important new funding and service 
opportunities for their children, families and communities. The work of 
the Ways and Means Committee along with this Subcommittee was crucial 
to the enactment of this new law and the many benefits we see beginning 
to take shape. In particular, we want to recognize the leadership of 
Chairman McDermott, former Ranking Member Weller, Representative 
Pomeroy, and Representative Camp. Through their support, the Fostering 
Connections to Success and Increasing Adoptions Act authorizes tribes 
to directly administer the Title IV-E Foster Care and Adoption 
Assistance programs.
    NCAI has facilitated numerous tribal discussions regarding 
implementation of the Act. This testimony reflects our observations on 
tribal activities regarding the Act and some of the challenges to 
tribal participation in the Title IV-E program. Not since the 1978 
enactment of the Indian Child Welfare Act has there been a federal law 
with such potential for positively transforming tribal child welfare 
services for American Indian and Alaska Native children.
    As the number of tribal governments participating in the Title IV-E 
program increases, we anticipate that the number of our tribal children 
achieving permanency will also grow significantly.
Implementation Achievements
    While at this early stage in the process, there are not any tribes 
directly administering the IV-E program, there are good indications of 
interest and progress being made towards tribes successfully applying 
to directly administer the Title IV-E program. As of the date of this 
hearing, approximately 73 tribal entities have signaled their interest 
in submitting a plan to operate the Title IV-E program through letters 
of intent provided to the Children's Bureau. These tribal entities 
include singular tribal governments, tribal organizations, and tribal 
consortia. They represent tribal entities from seven out of the ten 
federal regions in the United States. In addition, 15 tribal entities 
have submitted grant applications for the development grants authorized 
under the law that provide tribes with funding to support their Title 
IV-E readiness activities for up to two years. Given the number of 
tribes that applied to operate similar federal assistance programs 
after they have become available for the first time, including 
Temporary Assistance for Needy Families and Child Support Enforcement, 
these numbers represent a healthy tribal interest and movement towards 
participating in the Title IV-E program.
    Other areas where there are indicators of progress in implementing 
the new law include:

        <bullet>  Increased discussion with states on collaboration 
        regarding Title IV-E;
        <bullet>  More tribes engaging in broad child welfare reform 
        within their communities;
        <bullet>  Additional tribal requests for technical assistance 
        on implementing the Title IV-E program; and
        <bullet>  Forums and workgroups being formed to facilitate 
        discussion of implementation issues and development of tribal 
        strategies for addressing these issues.

    Since enactment last October, states and tribes have been engaged 
in discussions regarding the opportunities present in the new law, the 
role of each government in supporting greater access to IV-E services 
to tribal children, and new strategies for increasing tribal support to 
operate the program directly. In several states there have been 
discussions about states continuing--and even increasing--tribal access 
to state Title IV-E resources, including funding to meet non-federal 
match requirements and data collection systems. Some tribes are 
considering contracting with state or county agencies to perform 
certain specific IV-E functions with the tribe as the lead applicant, 
such as eligibility determinations, and others are looking at mutually 
beneficial training activities authorized under the law. Another 
important area of collaboration is information sharing between tribes 
and states to help tribal children maintain their eligibility for 
health and other services provided under other federal or state 
programs. Memorandums of Understanding and intergovernmental agreements 
are being discussed and will likely be available for broader 
dissemination in the future.
    One of the barriers for tribal governments engaging in large-scale 
child welfare reform has been the absence of a solid funding base. With 
the opportunity to access Title IV-E funding many tribes can now 
consider meaningful systems change. Two tribal nations that are engaged 
in child welfare reform and have expressed an interest in applying for 
Title IV-E directly are the Navajo Nation and the Tlingit and Haida 
Indian Tribes of Alaska. Both tribes are working with the National 
Indian Child Welfare Association through the Administration for 
Children and Families' Western and Pacific Implementation Center 
(www.wpic.org), which is part of the Children's Bureau technical 
assistance network. These tribes were selected for participation from 
among a number of applicants, including states, counties and tribes. 
They will be required to evaluate their entire child welfare system, 
including current and proposed funding sources like Title IV-E, and 
plan and implement system changes to improve outcomes for their tribal 
children and families. The systems reforms they are planning now will 
help them become better prepared to operate the IV-E program directly 
and potentially become a model for other tribes. Without the potential 
access to Title IV-E, it is unlikely that these tribes could have 
undertaken these extensive efforts.
    A number of national organizations, both Indian and non-Indian, 
have come together since last October to provide forums for discussion 
of key implementation issues, such as strategies for culturally-
appropriate technical assistance, tribal court and code reform, and 
resources for developing tribal IV-E data systems. The organizations 
include National Congress of American Indians, National Indian Child 
Welfare Association, Association on American Indian Affairs, Casey 
Family Programs and Child Welfare League of America. Together they have 
provided over 20 technical assistance events for tribes both regionally 
and locally, developed a number of critical written resource materials 
for tribes, and have often consulted with state and federal agencies on 
Title IV-E implementation matters. These collaborations have been 
provided without federal support and are continuing today.
    Several regional Indian organizations, including the All Indian 
Pueblo Council in New Mexico and the Indian Child and Family Resource 
Center in Montana, have been providing technical assistance and helping 
tribes assess their readiness to operate the Title IV-E program. In 
addition, we have witnessed a number of states holding forums to 
discuss implementation issues and offer technical assistance to tribes 
when requested.
    Tribes have also had good access to the Children's Bureau through 
regional forums and conference calls regarding the new law and program 
requirements of Title IV-E. The Children's Bureau, like many of the 
technical assistance providers, has a steep learning curve in preparing 
for implementation of the law, but has provided quick responses to 
issues that have been raised by tribes and Indian organizations. The 
Children's Bureau has a key role in helping tribes with implementing 
the IV-E programs. This role includes being responsive to unique tribal 
needs, utilizing the expertise and knowledge in Indian Country, and 
adequately explaining their agency's requirements and expectations.
Implementation Challenges
    Congress anticipated several of the challenges that tribes might 
have in trying to implement the IV-E program and included specific 
provisions to address those issues, such as making tribal consortia 
eligible to apply, protecting tribal children's eligibility for 
services when tribes switch from an agreement to direct funding, and 
establishing tribal-specific technical assistance. However, some 
additional challenges for tribes are starting to appear. The top 
challenges currently are:

        <bullet>  Identifying sufficient non-federal match sources to 
        meet IV-E requirements;
        <bullet>  Securing the development of a Title IV-E compliant 
        automated data system;
        <bullet>  Managing unique tribal service delivery issues that 
        were not contemplated in the IV-E program; and
        <bullet>  Securing a development grant in a timely manner to 
        assist program readiness.

    Match Requirements. A key challenge for tribal governments who are 
considering operation of the Title IV-E program is meeting the non-
federal match requirements. Even with the allowances for the use of 
third party in-kind sources and expanded cash match sources many tribes 
are finding it difficult to identify sufficient match sources. This is 
not a measure of tribal commitment to the operation of foster care 
services or lack of capacity to effectively run the IV-E program, but 
rather a reflection of the economic realities that many tribes face. 
With unemployment rates in many tribal communities above 20% and 
poverty rates well above the national average, many tribes' ability to 
generate unrestricted general revenue is extremely limited. This is 
especially for true for those tribes that are in more geographically 
isolated rural areas where economic and job development opportunities 
are scarce. As has been the case with the TANF program, tribes that 
have been able to take advantage of this program are usually those 
tribes that either have enough of an economic base to match federal 
payments or have been able to secure matching funds from states. While 
there are benefits for states to provide funding to help tribes 
participate in federal programs and serve their community members, a 
number of states with tribes in them do not provide this support.
    The Fostering Connections Act provides some use of in-kind funds 
for tribes to use as a non-federal match, and gives DHHS until October 
2011 to implement final regulations. In light of the difficulty for 
tribes to identify sufficient match funds, we urge that the final in-
kind regulations be as broad as possible so as to eliminate any 
unnecessary limitations that are hindering the Act's effective 
application. We appreciate that Congress provided this flexibility with 
regard to the final tribal in-kind regulations and urge you to monitor 
this issue.
    Data Systems. Title IV-E requires tribes and states to collect and 
submit required data via an automated data system. State experiences 
with this task indicate that development of this data system can be 
both very expensive and time consuming. One larger tribe recently told 
us that even with a $300,000 development grant they could easily spend 
all of the development grant, and more, getting a comprehensive system 
in place, and that it would take the full two years or more to develop 
and successfully test the system. As tribes consider whether to apply 
for and accept development grant funding, the ability to create a 
viable data system looms very large. Tribes are exploring their 
options, and organizations like the National Congress of American 
Indians and National Indian Child Welfare Association are trying to 
assist tribes through the creation of written materials and development 
of open source data system software that any tribe could use without 
expense. In addition, the National Congress of American Indians is 
developing a report and guidance on data system issues for tribes 
examining the option of operating the IV-E program. The Children's 
Bureau has indicated that they will soon be issuing data system 
protocols for tribes that will clarify some of the questions, including 
whether tribes could collect and report data using simplified 
electronic spreadsheet software. Nonetheless, many tribes are 
interested in developing a more comprehensive system similar to the 
State Automated Child Welfare Information System (SACWIS) that provides 
more coordinated information collection across all child welfare 
service areas and is available for greater federal reimbursement under 
IV-E.
    Unique Tribal Service Delivery Issue. Tribal service delivery and 
jurisdictional realities are very different than those for states, 
which creates unique challenges in meeting IV-E requirements and 
managing the program as effectively and efficiently as possible. As an 
example, several tribes have tribal lands in more than one state. 
Because Fostering Connections requires that individual tribal 
children's eligibility is based upon the state from which they were 
removed, tribes with reservation lands in more than one state will have 
to manage differing eligibility standards for their children, making 
program administration complicated and inefficient. These types of 
challenges could be relatively easily addressed if the Children's 
Bureau had the flexibility to issue waivers to address these types of 
non-safety issues.
    Development Grants. Title IV-E is an admittedly complex and 
administratively time-consuming program to operate--even for states. 
Tribes have been working diligently to evaluate their readiness and 
construct plans for getting their programs and communities ready to 
operate this important program. For most tribes, this means securing a 
development grant authorized under the Fostering Connections Act to 
assist them in many of the readiness activities needed to successfully 
apply for and operate the program. However, the Children's Bureau 
estimates that only five tribal development grants a year will be 
available. With 15 applicants this year, even under the best 
circumstances a third of these will have to wait an additional two 
years before beginning their readiness activities and another two years 
before they will likely be able to submit an application for approval. 
For the children that need these services now, the wait to get these 
services and protections is critical barrier.
Conclusion
    The opportunities for tribal governments under the Fostering 
Connections to Success and Increasing Adoptions Act have the potential 
to transform child welfare services for tribal children and families in 
several significant ways. Creating access to new funding to support 
permanency services, helping provide support for new data systems, 
training of care providers and agency staff, and helping tribal 
governments fulfill their governmental responsibility to serve their 
communities are some of the most important. As we have seen in other 
federal programs, tribal governments are ready to apply their expertise 
and knowledge of their community to develop the most effective programs 
for their children. We thank you for the opportunity to share our 
observations regarding the progress tribes are making in implementing 
the Title IV-E program, and we appreciate this Subcommittee's support 
and leadership in these crucial matters.

                                 <F-dash>

    Chairman MCDERMOTT. I did not point out that the committee 
is joined by one of the Members of the Full Committee, Earl 
Pomeroy from North Dakota, who is one of those who was very 
often bending my ear on this issue.
    Ms. PATA. Yes. And in my written testimony, we definitely 
mention that, Earl Pomeroy, and certainly Congressman Camp and 
yourself, who have been very, very instrumental in helping us 
be included. Thank you.
    Chairman MCDERMOTT. Thank you for your testimony.
    Our next witness is Margaret Anderson.
    I understand you are called ``Greta.''
    Ms. ANDERSON. Yes.
    Chairman MCDERMOTT. So we will welcome your testimony.
    She is a former foster youth and college student in 
Wisconsin----
    Ms. ANDERSON. Correct.
    Chairman MCDERMOTT [continuing]. And is going to tell us 
how it actually works on the ground.
    So, Greta, you are on.

 STATEMENT OF MARGARET ``GRETA'' ANDERSON, FORMER FOSTER CARE 
        YOUTH AND COLLEGE STUDENT, EAU CLAIRE, WISCONSIN

    Ms. ANDERSON. Okay.
    Chairman McDermott, Ranking Member Linder, and Members of 
the Subcommittee, I am honored to be given the opportunity to 
share my story with such impactful and inspiring people today. 
So, really, thank you for having me.
    Among the 14 Members of Congress on this Subcommittee, you 
have nearly 40 children--that is a lot--and a few 
grandchildren, too, from what I hear.
    Chairman MCDERMOTT. You have been looking on our Web sites.
    Ms. ANDERSON. That is right.
    But, in reality, as citizens and as elected officials, you 
also act as Mom and Dad for the half-million children and young 
adults in foster care, and I am one of them.
    My name is Greta Anderson. I am 21 years old and was a 
foster youth in Wisconsin. I am proud to say that I am 
currently a junior at the University of Wisconsin-Stout, but my 
educational outlook wasn't always so rosy.
    Much of my high school education was attained in hospitals. 
I attended nine different schools during my high school career, 
and six of them were in hospital-like treatment facilities. A 
school in a treatment facility meant a room designated for us 
to do homework catch-up in, not a classroom where I would be 
attaining the same knowledge as my peers. Consequently, to 
graduate with my class, I took summer school every summer, as 
well as attending night classes 3 days a week on top of a part-
time job my senior year.
    With this scattered educational experience, the most I 
could do was to concentrate on finishing high school. When I 
applied for college, I did so on a whim. I thought my high 
school career had been too messy to ever be considered college 
material until a school counselor told me that I should write a 
strong essay, fill out an extenuating circumstances form, and 
apply anyway.
    I took the ACT in June 2006, and, after seeing that I did 
well enough to get accepted, I applied for college in July. I 
received a scholarship from Wisconsin's Department of Children 
and Family Services in August and officially decided to start 
school that September. I had no idea how I would finance the 
following years of my education; I just knew that if this was 
my ticket out I wanted to give it my best shot.
    When I was placed into guardianship with a relative at age 
16, many of the problems that had initially led to my removal 
from my family were better, but they weren't gone. I felt 
gypped. I didn't get the help youth who aged out of the foster 
care system got, but I also lacked the financial support from 
my biological family, meaning I was left to support myself.
    At a Wisconsin Youth Advisory Council meeting in October of 
last year, my State independent living coordinator did a 
presentation called, ``Exciting New Legislation.'' When I 
learned how the Fostering Connections Act would impact all 
youth in care after the age of 16, I was ecstatic. I remember 
turning to the girl next to me and excitedly saying, ``This is 
going to change my life.''
    When the ``Fostering Connections to Success and Increasing 
Adoptions'' legislation was passed, it made it possible for 
young people across the country who find permanence through 
guardianship to retain their eligibility for services through 
their independent living program, including support for higher 
education.
    This year was the first time my estimated family 
contribution on my FAFSA coincided with the actual financial 
contribution my family is able to make: $0. Access to Chaffee 
funding and services make it possible for me to concentrate on 
my studies and not be faced with choosing to drop out to 
support myself with minimum-wage jobs. Doors have opened 
because now I am eligible for many more potential grant and 
loan opportunities.
    My first year of college was the first time I had been 
allowed to focus on something bigger than merely surviving, 
and, although I liked it, it was an adjustment. I didn't know 
how not to worry about my family, and although I had emotional 
intelligence, I lacked a strong foundation in logic-based 
classes, such as math and science. College was the first chance 
I had to receive a normal education, not one interrupted by 
placement changes, meetings with social workers, and court 
dates.
    The college experience is one every foster youth deserves. 
Had I not received the additional financial support made 
possible by the Fostering Connections Act, it would have been 
very easy for me to wallow in self-pity about the educational 
opportunities that were not available to me. This semester is 
the first where I will not be taking out the maximum amount in 
student loans for living expenses. And when I graduate from 
college, I will be in a stronger position to tackle adulthood.
    Over this past summer, I have had the opportunity to intern 
as a FosterClub All-Star. I led conferences aimed at youth 
empowerment, showing them there is life after foster care and 
that it can be more and better than they ever dreamed. To be 
able to tell foster youth that there are opportunities out 
there gives kids without a lot of hope something to hold on to.
    I have met so many of my brothers and sisters of the system 
who are hungry for a better future, and you are opening that 
door for them. In one of our workshops, FosterClub asks foster 
youth who plans to go to college and they raise their hand. We 
always get an overwhelming response. Usually at least 90 
percent say ``yes.'' It is hopeful to know that foster youth do 
indeed aspire to pursue their educational dreams.
    But we all know that the statistics don't reflect those 
dreams being reality for most foster youth. Foster care and 
circumstances that lead to it place obstacles in our path that 
don't always exist for our peers. The fact that even 3 percent 
of foster youth are going to college is a testament to foster 
kids' resiliency. I feel like the question that we need to be 
asking is not, ``Why youth are failing?'' but, more important, 
``Why do some foster youth succeed? What resources are they 
using? And how can we help even more foster youth succeed?''
    For the past 2 years, I have traveled to my State capitol 
with the Youth Advisory Council to advocate for extending 
foster care until 21 in Wisconsin. When I spoke to legislators 
prior to the passing of the Fostering Connections Act, I was 
often told, ``Yes, we agree, but where is the money coming 
from?'' For the first time last year, I was able to tell them 
that the Federal Government would support State legislators' 
decision with funding, and they were much more receptive.
    It has been shown through research, which was mentioned 
earlier, that youth in States where foster care goes until 21 
are succeeding at much higher rates. And because of this 
legislation, many States are going to be better prepared to 
offer their youth that chance at success.
    This year marks the 10th anniversary of the ``Foster Care 
Independence Act,'' which established the Chaffee program and 
created new opportunities for youth aging out of foster care to 
achieve their goals and dreams. The Fostering Connections Act 
builds on the legacy of Chaffee to expand opportunities to more 
foster youth and allows States to truly foster our potential as 
a parent would.
    Thank you for supporting me and my 513,000 brothers and 
sisters of the system.
    [The prepared statement of Ms. Anderson follows:]
Statement of Margaret ``Greta'' Anderson, Former Foster Care Youth and 
                 College Student, Au Claire, Wisconsin
    Chairman McDermott, Ranking Member Weller, and Members of the 
subcommittee, I am honored to be given the opportunity to share my 
story with such impactful and inspiring people today.
    Among the fourteen Members of Congress on this subcommittee, you 
have nearly 40 children, and probably a few grandchildren, too. In 
reality, as citizens and as elected official, you also act as mom and 
dad for the half million children and young adults in foster care. I am 
one of them.
    My name is Greta Anderson. I am 21 years old and was a foster youth 
in Wisconsin. I am proud to say that I am currently a junior at the 
University of Wisconsin--Stout, but my educational outlook wasn't 
always so rosy.
    Much of my high school education was attained in hospitals. I 
attended 9 different schools during my high school career and six of 
them were in hospital-like treatment facilities. A school in a 
treatment facility meant a room designated for us to do homework catch-
up in, not a classroom where I would be attaining the same knowledge as 
my peers. Consequently, to graduate with my class, I took summer school 
every summer as well as attending night classes three days a week on 
top of a part-time job my senior year.
    With this scattered educational experience, the most I could do was 
to concentrate on finishing high school. When I applied for college, I 
did it on a whim. I thought my high school career was too messy to ever 
be considered college material until a school counselor told me that I 
should write a strong essay, fill out an extenuating circumstances 
form, and apply anyway. I took the ACT in June 2006, and after seeing 
that I did well enough to get accepted, I applied for college in July. 
I received a scholarship from Wisconsin's Department of Children and 
Family Services in August and officially decided to start school that 
September. I had no idea how I would finance the following years of my 
education; I just knew that if this was my ticket out, I wanted to give 
it my best shot.
    When I was placed into guardianship with a relative at age 16, many 
of the problems that had initially lead to my removal from my family 
were better, but not gone. I felt gypped; I didn't get the help youth 
who aged out of the foster care system got, but I also lacked the 
support from my biological family, meaning I was left to support 
myself.
    At a Wisconsin Youth Advisory Council meeting in October of last 
year, my state Independent Living Coordinator did a presentation 
called, ``Exciting New Legislation!'' When I learned how The Fostering 
Connections Act would impact all youth in care after the age of 
sixteen, I was ecstatic. I remember turning to the girl next to me and 
excitedly saying, ``this is going to change my life . . .''
    When the Fostering Connections to Success and Increased Adoptions 
legislation was passed, it made it possible for young people across the 
country who find permanence through guardianship to retain their 
eligibility for services through their Independent Living Program, 
including support for higher education. This year was the first time my 
Estimated Family Contribution on my FAFSA coincided with the actual 
financial contribution my family is able to make--zero dollars. Access 
to Chaffee funding and services make it possible for me to concentrate 
on my studies and not be faced with choosing to drop out to support 
myself with a minimum wage jobs. Doors have opened because now I am 
eligible for many more potential grant and loan prospects.
    My first year of college was the first time I had been allowed to 
focus on something bigger than merely surviving, and although I liked 
it, it was an adjustment. I didn't know how not to worry about my 
family, and although I had emotional intelligence, I lacked a strong 
foundation in logic-based classes such as math and science. College was 
the first chance I had to receive a ``normal'' education, not one 
interrupted by placement changes, meetings with social workers and 
court dates.
    The college experience is one every foster youth deserves. Had I 
not received the additional financial support made possible by the 
Fostering Connections Act, it would have been very easy for me to 
wallow in self-pity about the educational opportunities that were not 
available to me. This semester is the first where I will not be taking 
out the maximum amount in student loans for living expenses,, when I 
graduate from college, I will be in a stronger position to tackle 
adulthood.
    Over this past summer, I had the opportunity to intern as a 
FosterClub All-Star. I led conferences aimed at youth empowerment, 
showing them that there is life after foster care and it can be more 
and better than they ever dreamed. To be able to tell foster youth that 
there are opportunities out there gives kids without a lot of hope, 
something to hold on to. I've met so many of my brothers and sisters of 
the system who are hungry for a better future, and you are opening that 
door for them. In one of our workshops, FosterClub asks foster youth 
who plan to go to college raise their hand. We always get an 
overwhelming response--usually at least 90% say ``YES.'' It is hopeful 
to know that foster youth do indeed aspire to pursue their educational 
dreams.
    But we all know that the statistics don't reflect those dreams 
becoming reality for most foster youth. Foster care and the 
circumstances that lead to it place obstacles in our path that don't 
exist for our peers. The fact that even 3% of foster youth are going to 
college is a testament to foster kids' resiliency. I feel like the 
question we need to be asking is not why youth are failing, but, more 
important, why do some foster youth succeed? What resources are they 
using? How can we help even more foster youth succeed?
    For the past two years I have traveled to my state capitol with the 
Youth Advisory Council to advocate for extending foster care until 21 
in Wisconsin. When I spoke to legislators prior to the passing of The 
Fostering Connections Act, I was often told, ``Yes, we agree. But where 
is the money coming from?'' For the first time last year I was able to 
tell them that the Federal Government would support state legislators' 
decision with funding, and they were much more receptive. It has been 
shown through research that youth in states where foster care goes 
until 21 are succeeding at higher rates, and because of this 
legislation many states are going to be better prepared to offer their 
youth that chance at success.
    This year marks the tenth anniversary of the Foster Care 
Independence Act, which established the Chafee Program and created new 
opportunities for youth aging out of foster care to achieve their goals 
and dreams. The Fostering Connections Act builds on the legacy of 
Chafee to expand opportunities to more foster youth, and allows states 
to truly ``foster'' our potential as a parent would. Thank you for 
supporting me and my 513,000 brothers and sisters in foster care.

Greta Anderson
Wisconsin

                                 <F-dash>

    Chairman MCDERMOTT. Thank you very much for your testimony.
    Ms. ANDERSON. Thank you.
    Chairman MCDERMOTT. Ms. Linda Spears is the vice president 
for policy and public affairs for the Child Welfare League of 
America.
    Ms. Spears.

 STATEMENT OF LINDA SPEARS, VICE PRESIDENT, POLICY AND PUBLIC 
 AFFAIRS, CHILD WELFARE LEAGUE OF AMERICA, ARLINGTON, VIRGINIA

    Ms. SPEARS. Thank you, Chairman McDermott.
    I have to start by thanking Greta for her wonderful words 
that bring this to reality so that we all understand the 
concrete nature of the benefits that this program can bring to 
young people.
    I also want to thank the chairman, Ranking Member Linder, 
and Members of the subcommittee for their stellar work in this 
regard and for having this hearing today and inviting us to 
testify.
    As you all know, this legislation was passed in 2008 to 
bring some of these agenda items to the fore. I will not go 
through a detailed review of each and every piece of the bill, 
but I do want to highlight for you some of the momentous 
concerns that we have and some of the progress that we think is 
being made on the legislation.
    As you know, provisions of the bill call for improvements 
in services to youth in transition, like this young lady 
sitting next to me; improvements in kinship care and 
guardianship; educational awareness and educational 
programming; health care and adoptive services. As you know, 
each of these pieces is phased and will take some time to 
implement, and many States are struggling with implementation.
    As of October 1st, the legislation will take one important 
step, and that is that it will replace--I am going to start 
where others didn't, which is to start with the delink, so we 
talk about it.
    As of beginning October 1, the legislation will take one 
small but important step in beginning to replace the outdated 
eligibility requirements that now exist in Title IV-E by 
phasing out the eligibility link between special-needs adoptive 
children and the nonexistent Aid to Families with Dependent 
Children program.
    We are looking forward to the completion of this work 
because we believe that this should be extended beyond this to 
also cover eligibility for children in kinship care and in 
foster care eligibility in the same way. CWLA appreciates the 
recent action of a Member of this Subcommittee, Congressman 
John Lewis, for his recent introduction of H.R. 3329, which 
addresses this challenge, and we look forward to working with 
him and this Subcommittee on this further.
    Positive developments that I want to talk about in regards 
to implementation: This legislation is historic in its reach 
and its nature. The new policies come, however, at a time, as 
we have already mentioned, that is filled with challenges, as 
the Nation faces a severe recession. And States are having to 
enact cuts in not only court child welfare services, but across 
a spectrum of programs that affect children and families.
    States in recent years have relied on a range of Federal 
funds to address child welfare service system needs. Two of 
these are TANF and the Social Services Block Grant, which have 
respectively provided 19 and 12 percent of the total Federal 
funds used for child welfare. These two block grants have also 
been under demand as States look to address the concerns 
created by their straining State budgets. As a result, many 
States have not been able to adopt the full provisions that 
have been required under the new law.
    An additional challenge that we are facing in 
implementation is the challenge of transition from one 
administration to the other, as has already been referenced. 
Recent history tells us that these transitions take longer and 
longer after each changeover. The end result of Fostering 
Connections has been delay in guidance that is needed by the 
States to do the implementation work that they need. As 
Secretary Donald talked about, many of the requirements and 
guidance that she would like to have she is still waiting for.
    CWLA believes that such an expansive and important reform 
requires an aggressive promotion and training by HHS in regard 
to what States can and should do in implementing the law. We 
find that, as we talk with our Members, public and private, 
across the country, that they are eager to learn about the new 
law and how the policy changes that it encourages can be 
implemented based on best practice models. But we feel that 
nothing carries the leadership weight of the HHS in providing 
some guidance and clarity around these issues.
    It is encouraging to see that some of the policy changes 
are beginning to take place despite barriers that may be in 
their way. As of last week, the Children's Bureau indicated 
that seven States, plus the District of Columbia, have filed 
plan amendments to extend Title IV-E funding to kinship 
subsidized guardianship. These States are Connecticut, Maine, 
Missouri, Oregon, Pennsylvania, and Rhode Island, whose request 
has been approved, along with Tennessee.
    In addition, through our informal surveys and our 
conversations with other partner organizations like American 
Public Human Services Association and our discussion with our 
Members, we know that Illinois, Michigan, Oklahoma, 
Massachusetts, Alaska, and New Mexico are among the States who 
have expressed interest and are pursuing consideration for how 
they can move forward on the kinship option. We expect more 
States to take direct action on this as the debate settles and 
as guidance is provided in greater detail.
    Initial guidance in regard to States taking the kinship 
option would suggest that current kin families covered by the 
State funds and other Federal funds, such as TANF, may not be 
eligible for future Federal funding under the new kinship 
option, even if the child is IV-E eligible and met all the 
other conditions set out in the law when he or she was placed.
    We urge Congress to work with the Administration to address 
the possibility that some of these current kinship families 
would, in fact, be eligible for Federal funding after the State 
has taken the guardianship option. Clarification of this and 
other possible issues will help States to asses their options 
and to implement the new provisions.
    Some guidance may also be needed with regard to how to 
structure guardianship assistance payment and the process for 
establishing and adjusting such agreements, as well as the 
relative consultation process.
    Since many States use TANF through child-only grants, we 
hope that by taking the IV-E option that the decisionmaking 
around the use of this program will not be limited to whether 
or not there is only a financial advantage in TANF or IV-E but 
whether or not the program choice meets the best interests of 
the family and the child.
    An additional provision that has taken effect addresses the 
educational stability and requires that, as part of casework 
plans, that when it is in the student's best interest he or she 
remain in the same school, even if that child resides in 
another school district's boundaries.
    Recently, States like Pennsylvania and Missouri have taken 
new steps to address the education needs and rights of children 
in foster care.
    Missouri's Department of Elementary and Secondary Education 
sent out instructions to school administrators based on the new 
legislation and a State bill called State Bill 291, the Foster 
Care Education Bill of Rights, which requires schools to 
designate an educational liaison for children in foster care. 
The child has rights outlined in the Federal act to remain in 
or near his home school, and it outlines options to address the 
cost of transportation for these children.
    In Pennsylvania, as a result of the new law, the State 
issued new guidance in January that, among other issues, 
addresses the previous prohibitions on children living outside 
school district lines from continuing to attend the same 
school. In this guidance, the State urges local education 
agencies to develop policies and agreements to address these 
issues.
    While we are supportive of the requirement, to be truly 
effective, equal responsibility needs to be placed on school 
and local education, as well as child welfare. Amending the 
``Elementary and Secondary Education Act'' will highlight for 
educators how important it is that the needs of this population 
be addressed. We also urge that, once the leadership is 
confirmed in both the Department of Education and Health and 
Human Services, that they issue joint guidance to the States to 
make sure that these provisions are carried out.
    We also are looking at the transition planning, et cetera. 
We feel it is vital that we make sure that transition planning 
requirements continue to be monitored. We believe that many 
States have in place the frameworks available to them to do 
this because of the requirements under Chaffee and prior law. 
We want to make sure that we are able to monitor that and to 
make sure that that happens appropriately.
    A final element that I will want to talk about just a half 
a second--I know I am exceeding my time, sir--is the health 
planning requirements that were also put into place under the 
bill. These new requirements build on what was already in law 
to strengthen health access and health services for kids, 
making sure that kids in care are screened and that the 
services they need are delivered, and includes better tracking 
and monitoring of the use of medication.
    Studies indicate that between half and a third of children 
in foster care exhibit behavior and social competency problems 
that warrant mental health care. We are not really sure how 
well and how much increased coordination and planning between 
State child welfare and Medicaid agencies has yet taken place. 
But a recent letter by the American Academy of Pediatrics 
states that, based on their work with individual chapters, it 
does not appear that the new requirements of the law are being 
fully met.
    We urge that when HHS issues its new pre-print, which is 
the form that they submit the 5-year plan on, that we be more 
specific in its direction to States regarding the requirements 
around planning and consultation that can take place. This will 
help ensure that the services in the law, including screening, 
monitoring of care, and medication tracking and medical records 
tracking, are carried out.
    And, finally, I just want to make mention of two things. 
One is that we know that the needs of this bill have taken us 
very, very far, but there are still areas that we need to 
address, and that is the prevention of child abuse and neglect. 
We encourage the support and continued work on home visitation 
and other prevention programs that are out, so that we can 
begin to learn, know, and do more that is outcome-based to 
prevent child abuse and neglect as we move forward.
    [The prepared statement of Ms. Spears follows:]
  Statement of Linda Spears, Vice President, Policy & Public Affairs, 
          Child Welfare League of America, Arlington, Virginia
    The Child Welfare League of America (CWLA) is a ninety year-old 
non-profit organization representing hundreds of state and local child 
welfare organizations including both public and private, and faith-
based agencies. CWLA members provide a range of child welfare services 
from prevention to placement services including adoptions, foster care, 
kinship placements, and services provided in a residential setting. 
CWLA's vision is that every child will grow up in a safe, loving, and 
stable family and that we will lead the nation in building public will 
to realize this vision.
    Chairman McDermott, Ranking Member Linder and Members of the 
Subcommittee on Income Security and Family Support, CWLA thanks you for 
inviting us to testify today about the important legislation passed by 
this Subcommittee last year, legislation that resulted in a significant 
new law on child welfare.
Historic Legislation
    Last fall, Congress enacted and President Bush signed the Fostering 
Connections to Success and Increasing Adoptions Act of 2008 (Fostering 
Connections to Success, P.L. 110-351). CWLA believes this legislation 
is the most significant federal child welfare legislation enacted in at 
least a decade--if not since the creation of Title IV-E foster care and 
adoption assistance in 1980.
    Chairman McDermott, CWLA thanks you for your leadership last year 
and for your continuing interest and dedication to addressing the needs 
of abused and neglected children and all families that come into 
contact with our nation's child welfare system. Members of this 
subcommittee, and key leaders including former Congressman Jerry 
Weller, the Senate Finance Committee and the staff of this subcommittee 
working across house and party lines can be proud of your efforts and 
accomplishments in passing P.L. 110-351. This law, when fully phased in 
and implemented at the state and local level, will have a significant 
and positive impact on outcomes for children and families facing 
crisis. It takes a major step forward in kinship care. It will increase 
special-needs adoptions across the country. The new law begins the 
critical task of focusing on the overrepresentation of some minority 
populations in child welfare by providing federal funding to some 
kinship families and by allowing direct access to tribal governments--
and, by extension, to children in Indian country. Under the law youth 
aging out of foster care will be better served. It also holds the 
promise of improving education and health care for children in care and 
offers the promise of moving this nation, at least in some small way, 
toward a sounder workforce development policy in the area of child 
welfare.
Background on Important Policy Changes
    After many years of debate, some experimentation by states and a 
patchwork of financing, Congress has now given states the option to use 
federal Title IV-E funds for kinship guardianship payments for children 
raised by relative caregivers. Children eligible under this provision 
must also be eligible for federal foster care maintenance payments, 
must reside with the relative for at least six consecutive months in 
foster care, and it must be determined that reunification is not 
possible and adoption is not appropriate. It also clarifies that under 
current guidance, states may waive non-safety licensing standards (as 
determined by the state) on a case-by-case basis in order to eliminate 
barriers to placing children with relatives. State agencies must 
exercise due diligence to identify and provide notice to all adult 
relatives of a child within 30 days after the child is removed from the 
custody of the parent(s).
    A second significant policy area that is addressed in several ways 
is youth transitioning from foster care to independence.   A year from 
now, states will have the option to extend care to youth age 19, 20, or 
21 with continued federal support to increase their opportunities for 
success as they transition to adulthood. Importantly, the law also 
attempts to strengthen the current transition planning requirements by 
requiring states to engage youth more directly in planning and 
addressing their needs after they leave foster care. By requiring child 
welfare agencies and caseworkers to help youth develop a transition 
plan during the 90-day period immediately before a youth exits from 
care and directly addressing specific issues such as continued access 
to health care, job training, education, housing and other vital 
services, we can--if properly implemented--assure better outcomes for 
the more than 26,154 \1\ youth who currently ``age-out'' of foster 
care.
---------------------------------------------------------------------------
    \1\ Children who age out of foster care are captured by the AFCARS 
emancipation data element. Children who exit care to emancipation are 
those who reach the age of majority according to state law by virtue of 
age, marriage, etc. CWLA, Special AFCARS tabulation.
---------------------------------------------------------------------------
    One of the most momentous parts of the new law will begin to take 
effect in a few weeks, on October 1, when tribal governments and 
consortia will be allowed to apply directly to HHS to operate their own 
Title IV-E foster care, special needs adoption, and kinship care 
programs. These provisions were debated and sponsored in Congress for 
many years and CWLA is pleased they are included in the final law. 
Along with the kinship care provisions, this can be an important tool 
to help address the challenge of overrepresentation of certain 
populations in our nation's child welfare system. These changes also 
begin to address a long-time inequity in access and funding that tribal 
communities have faced for many years.
    Also significantly the legislation takes one small but important 
step in beginning to replace the outdated eligibility requirements that 
now exist in Title IV-E by phasing out the eligibility link between 
special needs adoption children and the non-existent Aide to Families 
with Dependent Children (AFDC) program. This provision which also takes 
effect October 1, means that all children sixteen and older, children 
in care for five years or siblings of another eligible special needs 
child will no longer have their federal funding and commitment linked 
to whether or not that child was removed from a family that would have 
been eligible for AFDC as it existed on July 16, 1996. We look forward 
to seeing Congress completing its work in this area by also de-linking 
kinship and foster care eligibility in the same way. CWLA appreciates 
the recent action of a Member of this Subcommittee, Congressman John 
Lewis (D-GA) for his recent introduction of H.R. 3329 \2\ which 
addresses this challenge and we look forward to working with him and 
the subcommittee on this. As part of the adoption improvements included 
in the Fostering Connections to Success Act, Congress also extended and 
increased the incentive program to encourage more adoptions of older 
children waiting to be adopted.
---------------------------------------------------------------------------
    \2\ H.R. 3329, ``Look-Back Elimination Act of 2009, introduced July 
24, 2009. Sponsor Congressman John Lewis (D-GA).
---------------------------------------------------------------------------
    Finally, Congress enacted changes that took effect last October 
when the bill was signed into law, in the areas of workforce 
development, strengthening education and improving health care. These 
provisions, when fully implemented and practiced, will strengthen the 
child welfare workforce and improve both the health and education 
outcomes for children in care.
    Through Fostering Connections to Success, the availability of 
federal training dollars to cover training of staff not only in public 
agencies but in private child welfare agencies and for court personnel, 
attorneys, guardian ad litems, and court appointed special advocates 
can, and we believe will, be an important tool in developing the child 
welfare workforce.
    The health care planning requirement that state child welfare 
agencies work with the state Medicaid agencies and other healthcare 
experts to create a plan for the ongoing oversight and coordination of 
health care services for children in foster care can serve as a tool to 
address the frequently unmet health and mental health needs of children 
in care. If implemented effectively, we will see better health 
screenings; better identification of needs; greater medical information 
sharing; greater oversight and tracking of medication and increased 
continuity of care.
    Education outcomes and opportunities for children in foster care 
will be significantly enhanced due to provisions in the new law, and 
with an assist from the education community. We know this was a key 
concern for Members of this subcommittee and CWLA appreciates that 
leadership. There is good reason for this concern. While national data 
is sparse several individual studies and surveys show that half of 
youth emancipating from foster care will not have received a high 
school diploma.\3\
---------------------------------------------------------------------------
    \3\ In a national survey, 54% of former foster youth had completed 
high school. Cook, R. (1991). A national evaluation of Title IV-E 
foster care independent living programs for youth. Rockville, MD: 
Westat Inc. At 12-18 months after leaving foster care, 55% of former 
foster youth in Wisconsin had completed high school. Courtney, M., & 
Piliavin, I. (1998). Foster youth transitions to adulthood: Outcomes 12 
to 18 months after leaving out-of-home care. Madison: University of 
Wisconsin.
---------------------------------------------------------------------------
    As of last October new requirements in the law are in effect and 
state child welfare agencies are to coordinate with local education 
agencies to ensure that children are able to remain in the school they 
are enrolled in at the time of placement into foster care, unless that 
would not be in the child's best interest. In that case, the state must 
ensure transfer and immediate enrollment in the new school. In 
addition, the act provides increased federal support to assist with 
school-related transportation costs. Finally, the state plan must 
ensure that every child receiving IV-E assistance is enrolled as a 
full-time student or has completed high school.
Positive Developments In the First Months, Further Action Required
    Before the enactment of Fostering Connections to Success, various 
state surveys found a range of approaches to supporting these families. 
A recent survey by Child Trends determined that 49 states allow kin to 
pursue a legal guardianship for children in state custody while 
receiving some financial support. That same survey indicated that forty 
of these states required that reunification had to be ruled out first 
before support was extended and twenty-eight states reported that 
adoption also had to be ruled out.\4\
---------------------------------------------------------------------------
    \4\ Allen, T., K.; DeVooght,K., & Geen, R. (2008). Findings from 
the 2007 Casey Kinship Foster Care Policy Survey. Washington, DC: Child 
Trends.
---------------------------------------------------------------------------
    Although the enactment of the Foster Connections to Success Act is 
historic in its reach, it comes at a particularly challenging time. The 
nation is facing one of the most severe if not the most severe 
recession since the great depression of the 1930s. As a result, states 
have been enacting budget cuts that have impacted not just the core 
child welfare services but a cross section of programs that affect 
families by providing key human services. Just when families face 
increased stress due to layoffs, and reduced wages and incomes, 
community and societal efforts to cushion the blow are being curtailed.
    States have, in recent years, relied on a range of federal funds to 
address their child welfare systems. Two of these sources are TANF 
(Temporary Assistance for Needy Families) and SSBG (Social Services 
Block Grant) which have respectively provided nineteen percent and 
twelve percent of total federal funds \5\ used for child welfare as of 
2006. These two block grants have also been in demand to fund other 
increasing human service needs in this time of strained state budgets. 
As a result, many states have not yet been able to adopt the options 
provided to them through the new law.
---------------------------------------------------------------------------
    \5\ DeVooght, K.; Allen, T.; & Geen, R. (2008). Federal, State, and 
Local Spending to Address Child Abuse and Neglect in SFY 2006. 
Washington, DC: Child Trends.
---------------------------------------------------------------------------
    An additional challenge is the transition from one Administration 
to the next. Recent history suggests that these transitions take longer 
and longer after each changeover. The end result for Fostering 
Connections to Success has been a delay in guidance that is much needed 
by the states. CWLA believes that such an expansive and important 
reform requires an aggressive promotion and training by HHS in regard 
to what states can and should do in implementing the new law. CWLA, 
along with many child welfare and children's organization, is working 
to educate its membership. We find our member agencies, both public and 
private, eager to learn about the new law and how the policy changes 
encouraged by the new law can be implemented following a best practice 
model, but we feel nothing carries as much force as the leadership of 
the agencies and the Department vested with the oversight of the new 
law.
    At the same time it's encouraging to see that some policy changes 
are beginning to take place. As of last week, the Children's Bureau 
indicated that seven states plus the District of Columbia had actually 
filed plan amendments to extend Title IV-E funding to kinship/
subsidized guardianships. Those states are Connecticut, Maine, 
Missouri, Oregon, Pennsylvania, Rhode Island (which has been approved), 
and Tennessee. In addition, through informal surveys by organizations 
such as our colleagues from APHSA and through some of our own informal 
discussions, the states of Illinois, Michigan, Oklahoma, Massachusetts, 
Alaska and New Mexico have indicated some interest or preparation in 
moving forward with the kinship option. We would expect more states to 
take action both as budget debates settle and as guidance is provided 
in greater detail.
    Initial guidance in regard to states taking the kinship care option 
would suggest that current kin families covered through the use of 
state funds and other federal funds such as TANF may not be eligible 
for future federal funding under the new kinship option even if the 
child had been Title IV-E eligible and met all the other conditions set 
out in the law when he or she was placed in care.\6\
---------------------------------------------------------------------------
    \6\ Title IV-E Plans, Kinship Guardianship Assistance Training, 
Fostering Connections to Success and Increasing Adoption Act of 2008. 
ACYF-CB-PI-08-007. http://www.cwla.org/advocacy/
adoptionhr6893acfinstructions.pdf.
---------------------------------------------------------------------------
    We urge Congress to work with the new Administration to address the 
possibility that some of these current kin families would in fact be 
eligible for federal funding after a state has taken the guardianship 
option. Clarification of this and possible other issues may speed up 
the ability of states to assess their options and to implement this 
kinship provision. Some guidance may also be needed in regard to how to 
structure guardianship assistance payments and the process for 
establishing and adjusting such agreements and the relative 
consultation process. Since many states have used TANF funds through 
the child-only grant to fund kinship programs, we would hope taking the 
Title IV-E option would not be based solely on the financial advantages 
or disadvantages of choosing TANF over Title IV-E but would be based on 
what is in the best interest of these families and children.
    An additional provision that has taken effect is Section 204 of the 
Fostering Connections to Success Act which addresses educational 
stability. The law now requires that as part of the casework plans, 
when it is in the child's best interest, he or she remain in the same 
school even if that child resides in another school's district 
boundaries. As part of this new requirement, states are now allowed to 
draw-down the higher matching Title IV-E maintenance funds instead of 
administrative funds to help address the transportation costs of 
transporting a child to his or her old school. The new provisions also 
require that when the child must move and cannot remain in the same 
school district, that he or she be enrolled immediately in a new school 
with his or her records. This is an important new requirement in the 
law that we believe will take a continued effort by states to fully 
implement. It is unclear how well these new provisions have been 
implemented. Several states have indicated that they do meet the 
education needs of children in care. Other states have indicated to us 
that it can sometimes be a challenge to get the local school districts 
to focus on this population when schools are challenged on so many 
other fronts. In recent months, other states have taken some action to 
address state laws that may be present barriers that restrict where a 
child attends school.
    In recent weeks states such as Pennsylvania and Missouri have taken 
new steps to address the education needs and rights of children in 
foster care. On September 9, 2009 the Missouri Department of Elementary 
and Secondary Education sent out instructions to school administrators 
based on new enacted state legislation, Senate Bill 291. This new 
``Foster Care Education Bill of Rights'' requires school districts to 
designate an education liaison for children in foster care, the child 
has the rights outlined in the new federal act to remain in his or her 
new school district, and outlined options to address the cost of 
transportation funding for these children.\7\ In Pennsylvania, also as 
a result of new laws, the state issued new guidance in January 2009 
that among other issues addresses previous prohibitions on children 
living outside school district lines from continuing to attend their 
same school. In this guidance the state urges local school education 
agencies to develop policies and agreements to address the movement of 
children in foster care and their need to remain in the same school 
districts when it is in their best interest.\8\
---------------------------------------------------------------------------
    \7\ Foster Care Education Bill of Rights. September 9, 2009. 
Memorandum to School Administrators, Missouri Department of Elementary 
and Secondary Education.
    \8\ Enrolment of Students. January 22, 2009. Basic Education 
Circulars, Pennsylvania Department of Education. Online at: http://
www.pde.state.pa.us/k12/cwp/view.asp?A=11&Q=84241.
---------------------------------------------------------------------------
    At this point, despite some progress, both administrative and 
congressional action are needed. As we have seen, the new law now 
places the burden on child welfare agencies. While we are supportive of 
such a requirement, to be truly effective an equal responsibility needs 
to be placed on state and local education agencies. Amending the 
Elementary and Secondary Education Act (No Child Left Behind Act), will 
highlight for educators how important it is that the needs of this 
population are addressed.
    Second, we would urge that once the leadership has been confirmed 
by the Senate that both the Education Department and the Department of 
Health and Human Services issue joint guidance to both the state child 
welfare and education departments to make sure the education provisions 
of the new law are carried out. Again, we hear examples that some local 
education agencies when approached by child welfare agencies to address 
these new requirements are unaware of the new provisions. As our 
colleagues from the American Bar Association have indicated, the issues 
surrounding immediate enrollment, the transfer of records in a timely 
fashion, and the provision of needed transportation services to some 
foster children are complex issues but they must be addressed if we are 
to assure the education success of foster children. CWLA will be 
working with our child welfare partners, others and hopefully Members 
of Congress to address needed changes in the education reauthorization 
to close this gap.
    Transition planning is another important provision that was 
included in the Fostering Connections Act. As of last October, states 
were required to have new planning requirements for young people 
preparing to leave foster care. The new law requires caseworkers to 
actively engage young people no less than ninety days before he or she 
leaves care in developing a plan that is both personalized and at that 
young person's direction. The plan must include specific options with 
regard to several important services such as access to health care, 
housing options, work force supports and educational opportunities. 
This is in addition to requirements around transition planning already 
in the law. CWLA feels it is vital that we make sure that these 
additional transition and planning requirements be carried out the way 
the law specifies, including the requirement that the young people be 
actively involved and direct the planning. This will take some time to 
both implement and measure. Ultimately if this provision is carried out 
the way the Subcommittee envisions--and we hope it is--it will mean we 
have to make sure caseworkers are trained and adequately staffed so 
that they will be properly working with these young people to address 
their varied needs.
    A final element that took effect last October and will be important 
to see that it is effectively implemented are the requirements that we 
know the Chairman has had a great deal of interest in--the new health 
planning requirements. Similar to the transition planning, these new 
requirements build on what is already in law to strengthen health 
access and health services to children in care. It is vital that 
children in care be screened and that the services they need be 
delivered. This includes better tracking and use of medication. As your 
Subcommittee learned from earlier hearings, this is not always done.
    As CWLA has stated before, studies indicate that between one-half 
and three-fourths of children entering foster care exhibit behavior or 
social competency problems that warrant mental health care.\9\ We are 
not sure how much increased and coordinated planning between state 
child welfare agencies and Medicaid agencies have taken place. A recent 
letter by the American Academy of Pediatrics (AAP) states that based on 
work with their individual AAP chapters, it does not appear that the 
new requirements of the law are being met. We would concur with many of 
the recommendations and suggestions in that letter regarding the kind 
of consultation between not just the two state agencies but also a host 
of key stakeholders including health care providers and other parties 
that effect children in child welfare.\10\
---------------------------------------------------------------------------
    \9\ Landsverk, J.A., Burns, B.A., Stambaugh, L.F., & Rolls Reutz, 
J.A. (2006). Mental Health Care for Children and Adolescents: A Review 
of the Literature. Retrived online October 22, 2007. Seattle: Casey 
Family Programs.
    \10\ American Academy of Pediatrics. August 20, 2009. Letter to 
Honorable David Hansell, Acting Assistant Secretary for Children and 
Families.
---------------------------------------------------------------------------
    We urge HHS when they issue their new pre-print, which is the form 
that states may use to submit their five year state plan, to be more 
specific in its direction to states to assure that all the requirements 
around planning and consultation take place. This will ensure that the 
services outlined in the new law such as screening, monitoring of and 
provision of care, the tracking and use of medication and the tracking 
of a child's medical records are in fact being carried out and are in 
place in all fifty states.\11\
---------------------------------------------------------------------------
    \11\ Title IV-E Pre-Print. (2008). OMB Request for Public Comment: 
State Plan for Foster care and Adoption Assistance--Title IV-E. OMB 
No.: 0980-0141 http://www.cwla.org/advocacy/
adoptionhr6893acfpreprint.pdf.
---------------------------------------------------------------------------
Fiscal Year 2010
    Two aspects of the law take place in a few weeks when the new 
fiscal year starts. On October 1, tribal governments and consortia will 
be able to apply to HHS to run their own Title IV-E foster care, 
kinship care and special needs adoption assistance programs drawing 
federal funds directly. Our understanding is that several tribes have 
expressed an initial interest in applying to run their own Title IV-E 
programs. This new law represents a historic opportunity to extend 
support and funding to Native American populations who for too long 
have not had equal access to federal funding and support. This lack of 
access to services and support has been a contributing factor to the 
overrepresentation of Indian children in the child welfare system in 
some parts of the country. As positive as this development is, it too 
will take time to be implemented properly. As we stated in our comments 
to HHS last May, the opportunities presented in this new law can and 
should encourage collaboration between three key partners: tribal 
governments, state child welfare agencies and the Federal Government, 
in particular the Department of Health and Human Services (HHS). As 
this new law is implemented and as more tribal governments take the 
option to establish Title IV-E Foster Care, Adoption Assistance and 
Kinship Guardianship programs, we urge the Department to invest the 
time and resources necessary to assist in the successful implementation 
of these new plans. Indications are that HHS recognizes this challenge.
    A tribal government willing to take on the operation of a Title IV-
E program must also address issues around data collection and 
requirements for raising local matching funds. While this may take 
time, we feel that positive initial steps have been taken with the 
increased dialogue and discussion within tribal communities as well as 
between state and tribal governments.
    The second change in law that takes place on October 1 is the 
gradual de-link from the AFDC eligibility requirements for special 
needs adoptions. At the start of the fiscal year, all special needs 
adoptive children sixteen and older, or children who have been in care 
for five or more consecutive years, and their siblings, placed into an 
adoptive family where one of these children is Title IV-E eligible will 
all become eligible for Title IV-E funding. No longer will the 
eligibility for federal support be limited to children removed from a 
family that would have been eligible for AFDC in 1996. An important 
part of this phase-out is the requirement that Congress inserted that 
if a state experiences a savings because federal funds are extended to 
special needs placements not previously covered, those saving have to 
be reinvested into other child welfare services. We recognize the 
challenges this presents in the economic environment states now face 
but we believe that effective execution of this requirement can set up 
an important avenue to re-invest state dollars into prevention services 
as a result of the Federal Government taking over a fairer share of 
adoption funding.
    We urge the new Administration to outline how this spending will be 
tracked so that funds now currently within the child welfare system 
will remain in other areas of need such as prevention services and 
post-adoption services.
Hopes for the Future
    Although it has been nearly a year since enactment of this law, in 
terms of implementation, we are just beginning. We feel confident that 
as state budgets settle, as the new Administration fills out its policy 
positions and they get Senate approval, and as organizations such as 
ours continue our efforts at explaining the opportunities and the best 
practice approaches, more states will implement changes that will move 
more children toward permanency and that will ultimately improve 
outcomes for children and youth in the child welfare system. We believe 
that as Tribal governments explore and learn about the potential to 
draw down direct funding and as a dialogue between the Federal 
Government, the states and tribes expand their initiatives, new 
partnerships can be built and more children living in Indian country 
will be better served.
    There are provisions of the new law that require regulation and 
further guidance. We hope through guidance from Congress and by 
soliciting information and views from the field including the views of 
state and local agencies, the public, faith-based and non-profit 
communities and by always including the feedback and concerns of 
children and families most effected by these programs, we can implement 
all of these provisions in a way that will improve outcomes for 
children and families. We urge the subcommittee to continue this 
oversight and we hope you will be vigilant for any way that the law can 
be strengthened and improved in the coming months.
Next Steps
    We urge the subcommittee, as the Fostering Connections to Success 
Act is implemented and phased in, to continue to take the next steps 
that the Chairman has talked about in recent months--as have the 
leaders of the Senate Finance Committee--about examining ways to 
provide greater focus and federal support for programs that can prevent 
child abuse and neglect from taking place. CWLA is very pleased that 
bipartisan legislation introduced by the Chairman, Congressman Danny 
Davis (D-IL) and Congressman Todd Platts (R-PA), which will expand 
support for proven home visiting programs, is continuing to move 
forward in Congress. It is an important tool that can reduce the 
incidents of abuse and neglect. We also hope that the next phase of 
reform will allow states to invest Title IV-E funds into prevention 
services that can demonstrate their effectiveness. There are several 
proposals in development that merit consideration. Last Congress, for 
example, the Chairman introduced HR 5466 \12\ which included a 
provision to use Title IV-E funds for programs that can reduce 
placements in foster care, and strengthen post reunification and post 
adoption services. We have been a part of a coalition of advocacy 
groups, the Partnership to Protect Children and Strengthen 
Families,\13\ which has offered another example for reinvesting Title 
IV-E funds. We also feel that the 2010 budget which includes some 
limited funding for demonstration projects that seek to reduce long 
term foster care can assist in the development of reforms that can 
begin to help reduce both the number of children entering foster care 
and the length of stay for those children who do have to be placed in 
care.
---------------------------------------------------------------------------
    \12\ H.R. 5466, ``Invest in KIDS Act'', introduced February 14, 
2008. Sponsor Congressman Jim McDermott (D-WA).
    \13\ Partnership to Protect Children and Strengthen Families Act 
(2007) http://www.cwla.org/advocacy/nurturingfamilies.pdf.
---------------------------------------------------------------------------
    The subcommittee will also be dealing with the reauthorization of 
TANF. As we indicated earlier, TANF contributes nearly one-fifth of 
federal child welfare funding. In regard to the financial role TANF 
plays, many states have used the TANF block grant to invest in 
innovative ways to provide child welfare services that can help prevent 
placement into out-of-home care. We need to protect these types of 
investments and perhaps gather a better understanding of how these 
investments are made and how they supplement the system. The 
subcommittee will also have to examine the link between Title IV-E 
kinship care and the use of child only placements to make sure children 
in child welfare receiving kin support through these grants are being 
adequately served. We need to take a careful look at this because we do 
not want a situation where a family is forced into child welfare just 
to access services. At the same time we do not want families already 
connected to the child welfare system to be denied services through 
Title IV-E. As we indicate earlier in this statement, it is important 
that the choice of the Title IV-E kinship option be based on what is in 
the best interest of the child.
    There are obvious overlaps between TANF and child welfare. Some, 
even within the human service advocacy community, fail to recognize 
that many of these are the same vulnerable families and we need to 
examine whether or not there is adequate coordination between child 
welfare and TANF agencies.
    Finally, CWLA feels that the reestablishment of a White House 
Conference on Children and Youth, similar to the Aging Conference, 
would be an important tool to help communities and states deal with 
many of these challenges from creating effective community-based 
prevention strategies to tackling the implementation of the Fostering 
Connections to Success Act. Ultimately the Federal Government can 
provide vital support and leadership--but we will truly improve 
outcomes for this nation's most vulnerable children and families only 
if these new laws and programs are carried out down to the casework 
level. This is CWLA's mission and we believe, our collective 
responsibility.

                                 <F-dash>

    Chairman MCDERMOTT. Help us pass health care.
    Ms. SPEARS. We will do what we can.
    Chairman MCDERMOTT. Thank you for your testimony.
    Ms. SPEARS. You are quite welcome. Thank you.
    Chairman MCDERMOTT. Our next witness is Ms. Kathleen 
McNaught, who is the assistant director of the American Bar 
Association's Center on Children and the Law.
    Ms. McNaught.

 STATEMENT OF KATHLEEN M. MCNAUGHT, ASSISTANT DIRECTOR, CENTER 
       ON CHILDREN AND THE LAW, AMERICAN BAR ASSOCIATION

    Ms. MCNAUGHT. Good afternoon, Chairman McDermott, Ranking 
Member Linder, and Members of the Subcommittee.
    My name is Kathleen McNaught. I am the assistant director 
for child welfare at the American Bar Association's Center on 
Children and the Law, as well as the project director for the 
Legal Center for Foster Care and Education, a national 
technical assistance resource and information clearinghouse on 
legal and policy matters affecting the education of children in 
the foster care system.
    I am pleased to appear today at the request of Carolyn 
Lamm, president of the American Bar Association. The ABA has 
long been committed to improving the educational outcomes of 
children in care. And in August of 2009, the ABA House of 
Delegates unanimously passed an education policy urging Federal 
and State legislators to pass laws and for child welfare and 
education agencies to implement and enforce policies that help 
advance a child's right to remain in school, complete school, 
and obtain a high-quality education.
    Thank you for this opportunity to share the views of the 
ABA on foster care and education policy.
    Thanks in no small part to the strong leadership and 
dedication of Chairman McDermott, the Fostering Connections Act 
contains key educational provisions that are essential to 
breaking the cycle of poor educational outcomes for children in 
foster care. The act requires the child welfare agency to 
coordinate with local education agencies to ensure that 
children remain in their same school even when their living 
placements change. If it is not in the child's best interest to 
remain, the agencies must coordinate to ensure immediate and 
appropriate enrollment in a new school.
    Critically, the act also clarifies that Federal child 
welfare funds can be used by States for reasonable travel costs 
to allow children in foster care eligible for IV-E 
reimbursement to stay in the same school.
    The Fostering Connections Act has brought much-needed 
attention at both the Federal and the State levels to the poor 
educational outcomes of children in care and this critical need 
for collaboration between child welfare and education agencies 
to improve these outcomes.
    As we have heard from my fellow panelists, many States and 
local child welfare agencies are now mobilizing to implement 
these education provisions in their States. Some have organized 
State or local interagency work groups and developed 
interagency agreements to address educational stability. Some 
States have adopted or are in the process of adopting 
legislation, regulations, or guidance to identify the 
responsibilities of each agency in implementing these 
provisions of the act.
    Advocates who represent children and those who are working 
at the systems level are becoming better informed about the 
law's requirements and have started to advocate for educational 
stability and immediate school access. As a result, some 
students in foster care are already experiencing improved 
stability and continuity in school.
    While much more work needs to be done, the past 10 months 
have included positive steps forward to changing both policy 
and practice to align with these new mandates. However, despite 
these significant efforts in the States, there are four main 
barriers to full and effective implementation of the 
educational provisions of the Fostering Connections Act.
    Number one, there is a need to create reciprocal mandates 
in education law, requiring education agencies to coordinate 
and collaborate with child welfare agencies to ensure the 
stability and continuity of students in care.
    Number two, there is a strong need to provide further 
clarification that the mandate to ensure school stability 
includes a mandate to provide arrange and fund transportation 
when necessary.
    Number three, there is a need to provide additional 
support, guidance, and resources to States on how to best work 
together and collaborate across agencies and how to set clear 
lines of responsibility for each agency. It would be important 
to see Federal-level collaboration between the U.S. Department 
of Health and Human Services and Department of Education to 
serve as a model for States.
    Some of the collaboration issues States are currently 
struggling with include: determining which agency will make the 
best-interest determination for the child to remain in their 
school; what factors to consider when you are making that 
determination; how to identify and involve all necessary 
individuals, including youth, in these decisions; how to create 
and fund clearly identified points of contact in both the child 
welfare and education agencies at the State and local level, 
desperately needed support to ensure stability and resolve 
disputes; and how to ensure a child's right to transportation 
to remain in that school; and how to coordinate to provide, 
arrange, and pay for that transportation.
    Finally, barrier number four to successful implementation: 
There is a need to improve the collection of data that can 
track education outcomes and improvements for children in care. 
Even in the States that have already made some great strides to 
improve educational stability, there is minimal data to 
document these advances.
    States must collect this critical data and receive support 
and guidance to track improvements for children in care. 
Tracking data such as attendance, the number of school changes, 
enrollment delays, is necessary to document the implementation 
of these education provisions, but they also must link them to 
the improvements and track improvements in educational outcomes 
for children in care. Without effective information and data 
sharing across child welfare and education agencies, it is 
impossible to capture this critical information.
    In closing, I would like again to thank the Subcommittee 
for the opportunity to present the views of the American Bar 
Association. This is an exciting moment and a real opportunity 
to improve the education and the lives of many children in our 
Nation's foster care system.
    I would be happy to answer any questions. Thanks.
    [The statement of Ms. McNaught follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman MCDERMOTT. Thank you very much.
    Thank the whole panel for your testimony.
    I just have a question that struck me as I listened across 
the whole question of education, because it is sort of woven 
through everybody's experience, and the decision to keep the 
child in the school that they were going to or trying to place 
them close to home.
    What kind of problems has that created when you have the 
youngster, when they can still go back, walk if they want to, 
back to where they were taken out by the State? It is just sort 
of Murphy's law of unintended consequences. I wonder what the 
response is or what experience you have in that.
    Ms. Donald.
    Ms. DONALD. Certainly, Mr. Chairman. I think that is a 
great question; and, of course, every decision we make always 
has to be what is in the best interest of the child. But our 
experience is that if you can keep a child placed first in 
their own home community that then you reinforce ties to 
family, school, church, and other activities that are less 
likely to disrupt a child's life.
    When we first bring a child into foster care, the goal for 
that child always is reunification initially, unless there are 
extreme safety issues. That is what is required under ASFA and 
we are working very diligently within the first 12 months to 
try to reestablish that linkage with the family and to keep 
that child connected, at the same time, we are supporting the 
family, doing supportive services, enrolling the parents in 
substance abuse and mental health services, if that is 
necessary.
    Certainly if there are safety issues, extreme abuse or any 
fears of danger of a bad environment for that child to be 
around, then of course we would make a different decision. But 
the vast majority of our children in the beginning we want to 
keep them close to their home communities and try to avoid the 
total disruption of their lives.
    Mr. MCEWEN. I would add to that that, prior to us 
implementing the school monitoring the rotational intake, we 
worked with foster parents. So we did surveys to try to 
determine what foster parents were willing to work with 
biological parents and to what extent were they willing to work 
with biological parents. Would they attend school meetings with 
biological parents and would they attend medical appointments 
with biological parents, up to and including would they 
supervise visitation with the biological parent in their home?
    And so knowing that a significant number of foster parents 
expressed interest in working with biological parents helped us 
to make that decision to move in that direction. And so it 
certainly sets up some mediation situations in some instances. 
But a lot of times when folks are from the same community, they 
have knowledge of each other, they may not know each other 
directly but they do have knowledge of each other, that kind of 
mitigates a lot of these problems and situations from coming 
up.
    The other thing, as Secretary Donald stated, too, is that a 
lot of times we consider kids' connections to siblings, but 
their best friend and the person who they talk to the most and 
sought consultation sat at the desk next to them, maybe didn't 
sleep in the bed next to them. So maintaining those connection 
with friends and the social connections are particularly 
important for kids. And so it has worked out to benefit a lot 
of kids.
    And making a decision to not place that kid closer to the 
school is the one that workers have to make. So the foregone 
decision is to first try to keep them in the school, and then 
prove out or weed out why you can't keep that kid in the school 
is the approach that we have been taking, and so we have seen 
it happen.
    The problem is we have used up a lot of those foster homes 
in the first couple of years of their program that were closest 
to the kids, to the area where our larger number of kids were 
coming from. So now it is about recruitment and sustaining that 
available pool of foster parents who make the decision to work 
with both the kid and the biological parents.
    Chairman MCDERMOTT. Greta, can you tell us from your own 
experience with your education, you sort of alluded to some of 
it, but why were the decisions or what were the decisions made 
and how did it effect you?
    Ms. ANDERSON. Sure. When I entered the foster care system, 
I was taken and they hadn't really fully thought out where they 
would put me, so I went to a residential lockdown facility 
despite--sort of criminalized, despite not having done anything 
except coming from a messy family. After that, I entered a 
group home and entered the foster care system; and my foster 
family was in a different school district than the one I was 
originally from. So I have definitely experienced kind of 
displacement with my education.
    As far as would it have been helpful for me to remain at my 
home school and also maintain those connection with peers, of 
course, definitely. Would it have made me seek out 
relationships with my biological family more than I did after 
being transferred out of that school district? I think that if 
a child is determined to see their biological family, they are 
going to find a way to do that. But I don't think I ever 
considered that my school is the way to go about doing so. 
Yeah.
    Chairman MCDERMOTT. Thank you.
    Mr. Linder will inquire.
    Mr. LINDER. Thank you, Mr. Chairman.
    Our colleague, Dave Camp from Michigan, has a long-time 
interest in these issues and presented a question I would like 
to present to Ms. Donald and Mr. McEwen.
    The law said that States must notify the adult relatives of 
children entering foster care of their option to participate in 
the care and placement of the child. And a new demonstration 
grant program will encourage establishment and support of 
intensive family finding efforts to locate biological kin and 
then to work to reestablish relationships and to explore 
permanent family placements. Can either of you tell us how the 
implementation process for these two notice of relative 
provisions is going in your States?
    Ms. DONALD. Thank you for that question.
    We have a number of strategies to notify relatives, because 
that is also part of our Place Matters philosophy. We want to 
keep children with their families if we can safely do so or 
seek out relatives for their care if we cannot. And so, first, 
we have implemented our family center practice which requires 
family team meetings prior to our removal of a child if at all 
possible. And that is a process in which we identify from the 
birth parents any other known relatives. We have some outreach 
efforts to try and bring as many people to the table as 
possible.
    We also do the formal family finding program in a couple of 
our jurisdictions, and we have applied for one of the grants so 
that we can extend that statewide. And that would be very 
useful, both in terms of initial identification of relatives, 
but also in helping older youth to connect with family as they 
transition through the foster care system.
    And the other thing is I have the advantage of also 
overseeing our child support operations for the State. And 
through our child support we have parent locator services, so 
we are creating agreements with our child support folks. They 
are experts in doing that and have search engines and 
databases, so we will be linking with them to ensure that we 
fully utilize those resources.
    Mr. MCEWEN. In Illinois, we have historically taken the 
approach of placing children in relative foster care first. 
Right now, about 35 percent of our kids in care are currently 
placed with relatives; and so we do seek out those relatives 
and follow up with the legislation.
    The challenge that we find is getting paternal relatives 
involved earlier on in the process, as identifying those 
resources for the children. A lot of times the maternal 
relatives are readily available; and so that is one of the 
challenges we have taken on, is trying to identify those 
paternal relatives who represent another set of resources for 
the children.
    The biggest struggle around working with our relative care 
givers is that a lot of times they are treated like a 
perpetrator or they are treated like somebody who was involved 
in the abuse and neglect situation while going through the 
placement process, and they weren't. So, as a result, a lot of 
them don't want to go through the licensing process in advance, 
feeling like it is going to make them more advanced or more 
entrenched in the system. And so that creates a challenge for 
us, and that is why it is a real important issue that a lot of 
the kids who are candidates for 4-year eligibility because they 
are not placed in a licensed relative's home we don't receive 
the reimbursement for them. And that is the biggest challenge 
that we have.
    Right now, in Illinois, I think we have about 3,000 kids 
who we believe would be candidates who would be eligible but 
there are no licensed relative homes. So we are trying to take 
a big push in licensing those relatives. We have about 1,200 
new applications to work with relatives to work around 
licensing. Because one of the things that it does is it creates 
a higher reimbursement rate for the board rate to those 
relatives. And a lot of these are poor families. And so that 
higher reimbursement really allows another additional set of 
resources to the relative care givers, and so we look at it as 
a great challenge to try to work with relatives.
    Ms. DONALD. I just wanted to add one quick thing to the 
issue of notification that has been raised by our Attorney 
General's office, is that, again, we need guidance from our 
friends at HHS as to what constitutes due diligence and what we 
can use to document notification. We have our own ways of doing 
this, but clearly we want to do it in a way that meets the 
requirements of the Act, and so we need that guidance, and I 
wanted to put that on record.
    Mr. LINDER. Everyone is talking about the importance of 
education for the future of these kids and staying in school 
and familiar with, if possible. Do you have any recommendations 
for other Federal programs that would benefit from increased 
emphasis on improving educational outcomes? Welfare benefits, 
food stamps, housing, and other mean-tested benefits? Have you 
given any thought to that?
    Ms. MCNAUGHT. I have not. Our focus has been on the 
educational component. I would be happy to follow up with you 
on that.
    Mr. LINDER. Would you?
    Ms. MCNAUGHT. Yes.
    Mr. LINDER. In terms of requiring education for the 
recipients of the programs, we will send you a letter and ask 
you for follow up.
    Ms. MCNAUGHT. Absolutely.
    Chairman MCDERMOTT. Mr. Davis will inquire.
    Mr. DAVIS of Illinois. Thank you very much, Mr. Chairman.
    Mr. McEwen, I am very interested in young children who are 
coming out of correctional facilities, teenagers who have been 
released, served whatever time they had to serve. I know that 
there is a program in Illinois to try and deal with this 
effort. How successful would you say that has been in 
recruiting foster parents homes for these young people?
    Mr. MCEWEN. That is our adolescent foster care program. We 
have a number of kids in care who were incarcerated or served 
time in juvenile detention facilities. We had a substantial 
number of them who were there beyond a release date, about 100. 
We have gotten that down to five. Through research, we 
identified that a lot of the recommendations were to send these 
kids back to residential treatment; and 80 percent of the kids 
who went into juvenile detention exited from residential 
treatment. So it was not really making a lot of sense to keep 
that cycle of residential treatment to juvenile detention back 
to residential treatment, and we started an adolescent foster 
care program.
    It is really being up front and honest with the foster 
parents to say, these are the challenges of these children, and 
this is the support that we are looking for. And we use the 
professional foster parent model to try to place no more than 
two kids in that home and have a full-time parent who doesn't 
work outside the home but focuses on the children.
    Today, I think we have about 140 some kids in that program. 
We contract for 250 beds, so that will let you know how 
difficult it is to grow this program. But we have about 140 
some kids in that adolescent foster care program, a number of 
whom have been incarcerated as youths; and we have got about a 
98 percent stability rate in that program. The average age is 
15.10 months--15 years, 10 months.
    So we think it is a successful approach. A lot of 
recidivism is not occurring with the kids who are in this 
program. A lot are graduating from high school and moving on. I 
think the average length of stay right now is about 2 years in 
that program. And so kids are doing well, and these kids do 
adjust and do better in foster homes.
    And I think the important part is to have that conversation 
up front in the recruitment process, to say this is what we are 
recruiting you for; this is the resource and the job we are 
asking you to do. And you find people really committed to 
trying to work with that population.
    And then we have a special recruitment effort through the 
church, who were formerly One Church One Child. They are now 
One Family One Child, who are leading that recruitment effort 
of trying to find parents to take in these children.
    Mr. DAVIS of Illinois. Thank you very much.
    Chairman MCDERMOTT. Mr. Roskam will inquire.
    Mr. ROSKAM. Thank you, Mr. Chairman.
    Greta, thank you for telling your story. You are a very 
gifted and very able communicator. It was very, very clear; and 
I just want to let you know I really appreciate that.
    You said sort of in some of the closing comments in your 
testimony that we should focus on what it is that is helping 
students to succeed rather than kind of focusing in on the 
obstacles of failure. I am paraphrasing that. Could you give us 
a sense of perspective? In other words, if, Greta, you were 
going to have a conversation with an 8th grader or a 6th 
greater in the system, knowing what you know now, and you have 
been through this journey yourself, and you are where you are 
and you reflect back, what are the words of encouragement that 
you would be giving to them other than hang in there and 
persevere? But what did you mean when you put that in your 
testimony? I guess that is my real question.
    Ms. ANDERSON. Okay. Yeah, I actually had the opportunity to 
do that this summer through my internship. I got to meet youth, 
and I looked at them and I was like, you were me at 14. And the 
weight of that and the responsibility of that was definitely 
amazing.
    When I met those youth, the thing that I guess I was able 
to push most was just hang in there, get through this 
circumstance. Because if you do, what is waiting for you at the 
end, like, you wouldn't even believe.
    And I think through opportunities such as the one that this 
Act is creating it gives them that hope that, okay, so my 
situation right now may not be perfect, but afterward there 
will be more waiting for me. And I wish someone had told me 
that at 14: Just hang in there. Just stick it out. It may stink 
for the next couple of years, but once you get through it is 
going to be worth it. So yeah.
    Mr. ROSKAM. So the confidence of knowing that there is 
something concrete at the other end----
    Ms. ANDERSON. Exactly.
    Mr. ROSKAM [continuing]. Gives you sort of the buoyancy in 
a way to persevere in a real difficult season.
    Ms. ANDERSON. And your experience doesn't have to be 
something that just happened to you, that you don't go through 
things like this in vain. The fact that I get to speak before 
all of you today and actually make an impact with my story 
rather than wallow in it is pretty amazing. So letting them 
know that it can give a voice and change things for other youth 
coming after them is really important, I think.
    Mr. ROSKAM. Director and Madam Secretary, you both 
emphasized in your testimony the need to keep children within a 
school system; and I wholeheartedly agree with you. Can you 
give a sense of the depth and the capacity that we have on 
that? You alluded to it, Director, in terms of recruiting 
pretty quickly through households within a particular high-need 
area, but could you put that in a larger context for us to 
realize is this sort of a goal? Are we on the verge of 
achieving that or are we a long way off?
    Mr. MCEWEN. This is one of the biggest challenges for 
foster care systems. I have a youth advisory board, and I talk 
to them on a regular basis. Any number of these children will 
tell you that they have been to three and four elementary 
schools, four and five high schools. So that is a really big 
challenge facing the system.
    I do believe, though, that through technology we have the 
ability to try to collocate the resources near where the child 
is coming from. And so how do we get the resources to the 
communities that have more of the children exiting out of that 
particular community is what we have done in Illinois. And so 
we had a group of homes that we had recruited, and now it is 
going back in and doing that recruitment.
    A big help in doing recruitment is being able to tell a 
foster parent that the kid is going to come from the school 
down the street and the kid is going to come from the same 
school your kid comes from. So a lot of them may think I might 
know this kid, and that is a motivation for some people who may 
not have fostered at all, the notion of fostering within the 
community context.
    The other thing is to try to start it earlier. We have been 
using Strengthening Families programs in Illinois, and it 
starts with day care centers. And what you are really doing is 
working with day care providers to identify family stressors, 
something as simple as a kid's change in eating habit, a kid's 
change in hygiene, a parent's change in hygiene when they are 
bringing the kid to school. Those are some oversimplified 
examples. But identifying those stressors and starting to work 
with families before they are coming into child welfare, and 
understanding early learning is the beginning of education with 
what we know about 0 to 3 and 3 to 5, and those sort of things. 
That is also a vehicle can be used to stabilize the educational 
outcomes from all kids but particularly stabilizing the 
education outcomes from foster kids.
    Mr. ROSKAM. Madam Secretary.
    Ms. DONALD. Sure. I would echo the last comments of 
Director McEwen. What we want to do is try to invest as much on 
the front end and try to identify families who are struggling 
and children in need to keep them from coming out of the foster 
care system. Of course, as everybody knows, those are resources 
that are so hard to get; and we have to have a child in foster 
care before we can claim any Federal resources.
    The other part of your question I think went to--the 
biggest challenge is really having the right placement for 
children in the right place. In the State of Maryland, we are 
going through over the last 2 years what I call right-sizing 
our placement resources. We have in some jurisdictions 50 
percent or more of our children outside of their home county, 
not just their school district but in a whole other 
jurisdiction. And that has been because that is where the 
placement resource have been. And we had hadn't mapped them 
before, and we had not really looked at it strategically, and 
all of that is what we are doing now.
    We are now in an enviable position where we do have enough 
foster families, we have had aggressive recruitment efforts and 
retention efforts over the last 2 years, we are revamping our 
group homes and making it harder for children to go into group 
homes. But having more resources for them to stay in families 
and then the outreach and support now with the Fostering 
Connection Act for more assistance for kinship care all will 
help to stabilize children in their home communities.
    And just one more thing on the educational piece. We have a 
great deal of cooperation with our State Department of 
Education. But school districts are local; and it just all 
depends on the jurisdiction, quite frankly. It will be for us, 
we only have 24 jurisdictions but still really negotiating 
jurisdiction by jurisdiction to make sure we are meeting the 
requirements of the Act and that the records are being 
transferred, the kids are being enrolled and that we work out 
the transportation issues.
    Mr. ROSKAM. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you.
    Mr. Pomeroy will inquire.
    Mr. POMEROY. Mr. Chairman, thank you and thank you for 
letting me participate in this Committee hearing. I find it 
absolutely fascinating. There is extraordinary work being done. 
And, Greta, you are absolutely an amazing advocate by giving a 
very articulate voice to the hundreds of thousands that are 
very well served by the wonderful eloquence that you bring to 
this issue.
    Ms. ANDERSON. Thank you for having me here.
    Mr. POMEROY. It is a privilege to get to hear you.
    The issue, it is very interesting, because it has come up 
not in the context of Native American foster issues but in the 
context of you describing school-based, community based issues 
within an urban setting. Well, in a setting where you have a 
rural reservation in a remote region and no ability of the 
tribe to run their own program, you have State systems that may 
be taking not just away from school--and I really applaud the 
innovations you have brought to try to keep within the 
community. It would certainly have application also to the 
situation we are dealing with, that Native American community, 
pulling people out of their community, their school, indeed 
their culture. We believe we can do much better than this.
    One of the things that I so applaud the chairman on is the 
legislation that he cobbled together from many different 
specific pieces of legislation was including the legislation 
that corrected, of all things, a drafting error. We did the 
research on the legislative history, and it appeared to be a 
drafting error that prevented tribes from running under Title 
4(e), the Social Security system, their own programs.
    Sometimes it would be like North Dakota, pretty 
constructive State tribal contracts and working arrangements, 
but not always. And that meant this community placement was 
really thwarted, tribes trying to run this without resources. 
It was a mess.
    It has now been fixed, and we are bringing these programs 
online, but we are early in the process.
    I would just like to ask, Ms. Pata, your comments in terms 
of how you think this is going to work. In the end, this State 
tribal cooperation is extremely important. I would not want the 
tribes to run their own system to in any way erode that 
statement and tribal cooperation at dealing with this critical 
issue so important to our young people. What are your thoughts?
    Ms. PATA. Well, I think, first of all, what I like about 
the legislation is it gives the opportunity for tribes to get 
direct funding from the Federal Government or to continue to 
work through the States. And I think the one question for us is 
this good-faith effort of the States in the cooperation with 
their tribal agreements. I mean, what is good faith really 
going to mean? I think that really depends.
    One thing that HHS did before in the implementation of TANF 
where the tribes had the same kinds of options to collaborate 
with their States or to go work directly is that they 
encouraged the State tribal relationships. I think one of the 
things that we are seeing out of this opportunity of this Act 
is a greater ability of tribes to really make that assessment 
of do we have the resources, the financial resources, to meet 
all the demands, the data requirements and infrastructure or is 
it better for us right now to be working closely with our 
States in the implementation and have that mentorship, even 
though the goal may ultimately be for our tribe to take it on. 
So it is going to be the process that allows for us to flexibly 
to grow within the program.
    I think that is good, particularly given the fact that only 
five--maybe five tribes are going to be able to get those early 
dollars for development grants. And so I think that is going to 
be important to us.
    That is why I think the whole collaboration with trying to 
create incentives that allow for the collaboration of States 
and tribes together is going to be really, really important. 
Even if the tribe becomes--receives direct funding, they are 
still going to have to deal with the coordination of data, the 
transfer of information. Some of our schools, are tribal 
schools. Some are State schools.
    So we have a lot of collaboration that is going to happen, 
no matter what; and I think that will be real important for the 
implementation. But we do need to deal with the challenges that 
we have.
    I think some of the State requirements are different than 
the tribal requirements, particularly when we are shifting a 
child from a home off reservation or on reservation or whether 
child services will provide some of the standards, for tribal 
homes are not the same, whether or not we have their own 
bedroom and those kinds of requirements you know very much from 
your own reservations in your community. So we need to deal 
with those uniquenesses.
    Thank you for the question.
    Mr. POMEROY. Good luck.
    You mentioned David Camp. I also want to mention David 
Camp. He has been a real leader in the Ways and Means Committee 
on these issues for a long time and was very helpful in the 
particular bill that we are talking about today.
    Ms. PATA. Yes, thanks.
    Mr. POMEROY. Thank you, Mr. Chairman.
    Chairman MCDERMOTT. We have a second Member of the Full 
Committee that has showed up. It is an indicator of the 
interest of the Committee on what happens in this Subcommittee 
on this issue.
    Joe Crowley, you want to inquire?
    Mr. CROWLEY. Thank you. Thank you, Mr. Chairman.
    I want to thank the chairman and the Ranking Member for 
allowing myself and Mr. Pomeroy as well to participate, not 
being, as you said before, Members of the Subcommittee, but 
wanted to be here today because of the importance of this issue 
to me and I think, as the chairman mentioned, to not only the 
full committee but the House as well.
    I want to thank in particular the work of the chairman for 
his good work in effect being this legislation last year into 
effect.
    I want to thank also those of you here today to testify. I 
wasn't here for your testimony, but just responding in the 
brief moments I heard you got to respond to the query of my 
colleague, the passion you bring to this and the community you 
represent, the foster community, was noted by me in the short 
time that I was here; and I want to thank you for that. All of 
you--my colleague and I were talking about you are all a bunch 
of heroes here at this table for the work that you do, unsung 
heroes in many respects for the work that you do with some of 
the most challenging lives in America today; and we want to 
thank you for that.
    One of the goals of the Fostering Connections to Success 
and Increasing Adoptions Act was to increase the stability of 
children in foster care, and I applaud the provisions of the 
bill to achieve that goal. With foster children going through 
so many changes throughout their lifetime within the system, I 
believe we must do all we can to provide a stable, trustworthy 
environment for those children; and one way to do that is by 
encouraging something I have been very involved in, is long-
term relationships through mentoring. A mentor can provide a 
constant presence in a foster child's life as they go through 
different homes and schools and even through the time when the 
child ages out of the system and starts their own adult life.
    Particularly, I would like to ask Mr. McEwen and Dr. 
Donald, how many States increased mentoring for foster children 
as a result of the law or are States planning to do so that you 
know of?
    Mr. MCEWEN. We haven't as of yet really developed new 
mentoring relationships and programs for our kids. And I 
applaud your support of mentoring.
    I also have a caution in my experience that you have got 
some really great mentoring programs and then you have some 
others where people just sign up and want to hold a child's 
hand and babysit and not necessarily give that kind of 
stability. And so I would be more than willing to have further 
conversations with you about intent and experience in mentoring 
programs and how we can ensure that young people have what I 
believe is what I hear you saying and what those us of us in 
the field know: We want to be sure they that have a lifelong 
connection to someone, a caring adult.
    We are building that in. We have a ready by 21 initiative. 
It is not just for kids in foster care but all youth who are 
involved in State systems, including the juvenile justice 
system, our education system, but primarily youth and foster 
care; and that would be an important component. We really need 
to make sure that we are investing in the right kinds of 
mentoring programs and services.
    Mr. CROWLEY. Mr. McEwen.
    Mr. MCEWEN. We are very interested in mentoring programs 
and trying to utilize mentoring programs. Unfortunately, the 
recruitment of mentors is a great challenge. Because the 
community at large, a lot of the communities that our kids come 
out of, they have a great need for mentors as well and kids 
that are still at home with their birth parent and their 
families. And so we find ourselves oftentimes with short 
resources to really work on developing the mentoring programs 
in that way.
    A lot of times when we have gone through the budget cycles 
and critical cycles, we focus on the mental health service and 
those what I would call hard-treatment-type services, and it 
doesn't give mentoring the attention that it needs. Because to 
recruit mentoring specifically for child welfare is a challenge 
and because mentors are being recruited heavily in a lot of 
communities that are faced with challenges of educational 
outcomes and gang violence and youth problems, that sort of 
thing. So I think resources directed toward mentoring in foster 
care is important.
    Mr. CROWLEY. Thank you.
    I would just bring to your attention the Los Angeles 
mentoring model which I think is one that has demonstrated 
success that ought to maybe be a model for other States outside 
of California to implement as well.
    I would just, maybe for my colleague's sake, just mention 
that I have been working on legislation to provide for 
increasing the level of mentors throughout the United States by 
offering loan forgiveness in some way through college to get 
those folks of adult college years to mentor to younger 
individuals. I think that could be very successful, again 
providing it is not just a short-term hit for the student. They 
get a college loan reduction or forgiveness and then, when they 
are done, they don't see that child through aging out or even 
beyond. So I don't know how we can work through all those 
things, but thank you, Mr. Chairman.
    Chairman MCDERMOTT. Thank you.
    We want to thank all of you.
    I have one last question that I realize has been nagging at 
me ever since you said it. Why is it that when you were taken 
out of your home the first time they put you in a lockup? What 
was the circumstance in the situation that made them do that--
was it no foster home available?
    Ms. ANDERSON. I was taken as an emergency placement. So I 
think initially when I was taken they were unsure. Actually, my 
case is really complicated. I am still not 100 percent sure on 
everything that happened. But it was an emergency placement, 
and I think initially there was no emergency foster homes 
available for a teen, and I entered a juvenile facility.
    Chairman MCDERMOTT. And you wound up at the juvenile 
detention center?
    Ms. ANDERSON. Correct.
    Chairman MCDERMOTT. I want to thank all of you for coming 
and giving your testimony. We will be back on this issue. There 
are still some issues that are not resolved.
    Thank you. Meeting is adjourned.
    [Whereupon, at 2:32 p.m., the Subcommittee was adjourned.]
    [Submissions for the record follow:]
              Statement of American Academy of Pediatrics
    The American Academy of Pediatrics (AAP), a non-profit professional 
organization of 60,000 primary care pediatricians, pediatric medical 
sub-specialists, and pediatric surgical specialists dedicated to the 
health, safety, and well-being of infants, children, adolescents, and 
young adults, appreciates this opportunity to offer testimony for the 
record of the Ways and Means Subcommittee on Income Security and Family 
Support hearing on implementation of the Fostering Connections to 
Success and Improving Adoptions Act of 2009 (P.L. 110-351).
    The AAP was proud to work closely with this Subcommittee and 
Congress in crafting Section 205, Health Oversight and Coordination 
Plans, which is designed to bring new attention to the health needs of 
children in foster care. Despite the overwhelming evidence of need, 
studies consistently demonstrate that many health care needs for 
children in the foster care system go unmet. Stark evidence that 
children are not receiving timely services has come from a range of 
studies, from the 1995 General Accounting Office (GAO) report 
demonstrating that 1/3 of children had health care needs that remained 
unaddressed while in out-of-home care, to the 2004 analysis of the 
National Survey of Child & Adolescent Well-Being documenting that only 
a quarter of the children with behavioral problems in out-of-home care 
received mental health services within a one-year follow-up period.\1\
---------------------------------------------------------------------------
    \1\ Burns BJ, Phillips SD, Wagner RH, et al. Mental health need and 
access to mental health services by youths involved with child welfare: 
a national survey. Journal of the American Academy of Child and 
Adolescent Psychiatry. 2004;43(8):960-970.
---------------------------------------------------------------------------
    The new Fostering Connections law requires state child welfare and 
Medicaid agencies to examine the delivery of health care services to 
children in foster care in order to identify opportunities for 
improvement. On June 3, the Administration for Children and Families 
issued a Program Instruction (ACYF-CB-PI-09-06) that directed each 
state to include a health oversight and coordination plan as part of 
its Child and Family Services Plans for Fiscal Years 2010-2014.
    The Program Instruction provided little guidance to states beyond 
what was set out explicitly in the Fostering Connections statute. The 
AAP would therefore recommend that ACF consider the following issues 
when evaluating each state's Health Oversight and Coordination Plan 
(HOCP) for completeness and sufficiency.
Consultation
    Congress directed state child welfare and Medicaid agencies to 
develop the HOCP in consultation with ``pediatricians, other experts in 
health care, and experts in and recipients of child welfare services . 
. .'' Given the complexity of the health needs of children in foster 
care, a model consultation process should involve an interdisciplinary 
Foster Care Health Coordination Team, which would ideally include:

        <bullet>  health care providers
                <bullet>  pediatricians
                <bullet>  other physicians
                <bullet>  mental health care providers
                <bullet>  dental care providers
                <bullet>  developmental and behavioral health 
                professionals
        <bullet>  child welfare administrative professionals
        <bullet>  child welfare caseworkers
        <bullet>  judges and other judiciary branch officials
        <bullet>  representatives of biological, kinship care, and 
        foster families
        <bullet>  foster care youth or alumni
        <bullet>  education system officials
        <bullet>  county, legal aid attorneys
        <bullet>  guardians ad litem
        <bullet>  any others the Secretary deems appropriate (e.g. 
        CASA, child care providers, juvenile justice providers, 
        parenting experts, etc.)

    In order to make the consultation process more manageable, the AAP 
suggests that states consider strategies that streamline the process. 
For example, plan development could be led by a Foster Care Health 
Leadership Team comprised of child welfare administrator with the 
authority to make decisions regarding financing and care, a 
pediatrician, and a mental health care provider.
Plan Adequacy
    Section 205 directs that the HOCP should consist of ``a coordinated 
strategy to identify and respond to the health care needs of children 
in foster care placements, including mental health and dental health 
needs.'' At present, none of the states has a seamlessly coordinated 
health strategy for the children under its care. While a number of 
states may address some of the plan components required by Fostering 
Connections, no state has been able to achieve the goal of providing 
all the components to all children. As a result, the AAP urges ACF to 
engage in a thorough examination of each state's submission under the 
Child and Family Services Plans to ensure that it meets both the letter 
and the spirit of the law, i.e. that it represents a fresh review of 
opportunities to improve the health and well-being of children in 
foster care, and an exploration of new approaches to these issues.
Plan Components
    Fostering Connections requires that state plans address six 
discrete issues, which we would like to address in turn.
    Schedule of Screenings. The HOCP must contain a ``schedule for 
initial and follow-up health screenings that meet reasonable standards 
of medical practice.'' Standards for health screenings are issued by 
the AAP and the Child Welfare League of America, among other 
organizations. For children in foster care, the AAP recommends:

        1.  A medical/developmental/mental health screening within 72 
        hours of entering the child welfare system.
        2.  A comprehensive assessment, including review of physical, 
        mental, developmental, and dental health, within approximately 
        30 days after entering the child welfare system.
        3.  Additional visits as appropriate during the first 60-90 
        days of entering the child welfare system to assess the child 
        in the process of transition, monitor the adjustment to care, 
        identify evolving needs, and continue information-gathering.
        4.  Preventive health care in accord with an enhanced schedule 
        of well-child visits, immunizations, and related care developed 
        by authoritative professional organizations to meet the special 
        needs of children in child welfare system.

    While many states already have these standards on the books, the 
reality is that relatively few children in foster care receive medical 
care in accord with the standards. The Health Oversight and 
Coordination Plan should examine barriers to this standard of care and 
set out concrete steps for improving compliance.
    Monitoring and Treatment. The law requires the HOCP to address 
``how health needs identified through screenings will be monitored and 
treated.'' The AAP recommends that health needs identified during the 
screening, comprehensive assessment, and other visits should be 
monitored, treated and addressed in accordance with Early and Periodic 
Screening, Diagnosis and Treatment (EPSDT) requirements by health care 
providers, caseworkers, and the judicial system in the setting of a 
medical home. The HOCP should specify steps for ensuring that the 
individuals involved in a child's care each know exactly what their 
responsibilities are and how to fulfill them (e.g. a social worker is 
responsible for ensuring that appropriate medical exams or screenings 
are scheduled and appointments kept; a judge is responsible for 
ensuring that the child is receiving regular medical care). In too many 
cases, the lack of clear duties and lines of responsibilities results 
in situations where no one takes a leadership role in the child's 
health care. Given the complex, long-term health needs of many children 
in foster care, concerted efforts must be made toward coordination.
    Medical records. Virtually every pediatrician has encountered a 
child in foster care who arrives in their practice with no medical 
records or history. Fostering Connections requires that the states 
develop a plan to address how ``medical information for children in 
care will be updated and appropriately shared, which may include the 
development and implementation of an electronic health record.'' The 
AAP is aware that some states, such as Texas, are already exploring 
electronic health records for children in foster care. Because the need 
for consistent, complete medical records is so critical among children 
in foster care, every state should be incentivized to examine ways to 
improve the collection, maintenance and sharing of such information. In 
addition, a strong state-federal partnership on this issue will ensure 
interface among such records as a child may move across the country and 
is cared for by another pediatrician in a different state.
    In addition, there is a great need for better guidelines in states 
regarding who has access to a foster child's health information and 
under what circumstances. Health information may be needed not only by 
physicians and other health care providers, but also by social workers, 
foster parents, judges, educators, and others. The inability to share 
such information appropriately can lead to potentially devastating gaps 
in care for children. State plans should address provision of 
appropriately detailed medical information to a foster family upon 
placement or placement change; to the biological family upon 
reunification; to a prospective adoptive family who is seriously 
considering adoption of a particular child; to the adoptive family upon 
adoption; and to the youth upon aging out of the system.
    Continuity of Care. The law directs state plans to include ``steps 
to ensure continuity of health care services, which may include the 
establishment of a medical home for every child in care.'' The 
``medical home'' refers to a system of patient-centered care in which 
one physician is responsible for coordinating the entire universe of 
care for the child. This includes coordinating care plans that may be 
developed by other physicians, monitoring the number and potential 
interaction of prescriptions, and ensuring that the caregiver is 
equipped to care for the child appropriately. The medical home is a 
critically important concept for children in foster care, given that 
nearly half of all children in foster care have chronic medical 
problems,<SUP>2, 3, 4, 5</SUP> and up to 80% have serious emotional 
problems.<SUP>6, 7, 8, 9, 10, 11, 12, 13</SUP> These health care 
challenges require concerted, coordinated efforts on the part of not 
only health care providers, but the entire child welfare system, to 
improve the health and well-being of the child. State plans should seek 
to establish a medical home for every child in foster care in order to 
maintain that continuity through placement changes.
---------------------------------------------------------------------------
    \2\ U.S. General Accounting Office. Foster care: health needs of 
many young children are unknown and unmet. Washington, DC: (GAO/HEHS-
95-114); 1995.
    \3\ Takayama JI, Wolfe E, Coulter KP. Relationship between reason 
for placement and medical findings among children in foster care. 
Pediatrics. 1998;101(2):201-207.
    \4\ Halfon N, Mendonca A, Berkowitz G. Health status of children in 
foster care. The experience of the Center for the Vulnerable Child. 
Archives of Pediatrics & Adolescent Medicine. 1995;149(4):386-392.
    \5\ Simms MD. The foster care clinic: a community program to 
identify treatment needs of children in foster care. Journal of 
Developmental & Behavioral Pediatrics. 1989;10(3):121-128.
    \6\ Halfon N, Mendonca A, Berkowitz G. Health status of children in 
foster care. The experience of the Center for the Vulnerable Child. 
Archives of Pediatrics & Adolescent Medicine. 1995;149(4):386-392.
    \7\ Landsverk JA, Garland AF, Leslie LK. Mental health services for 
children reported to child protective services. Vol 2. Thousand Oaks: 
Sage Publications; 2002.
    \8\ Glisson C. The effects of services coordination teams on 
outcomes for children in state custody. Adminstration in Social Work. 
1994;18:1-23.
    \9\ Trupin EW, Tarico VS, Low BP, Jemelka R, McClellan J. Children 
on child protective service caseloads: Prevalence and nature of serious 
emotional disturbance. Child Abuse & Neglect. 1993;17(3):345-355.
    \10\ Clausen JM, Landsverk J, Ganger W, Chadwick D, Litrownik A. 
Mental health problems of children in foster care. Journal of Child & 
Family Studies. 1998;7(3):283-296.
    \11\ Urquiza AJ, Wirtz SJ, Peterson MS, Singer VA. Screening and 
evaluating abused and neglected children entering protective custody. 
Child Welfare. Mar-Apr 1994;73(2):155-171.
    \12\ Garland AF, Hough RL, Landsverk JA, et al. Racial and ethnic 
variations in mental health care utilization among children in foster 
care. Children's Services: Social Policy, Research, & Practice. 
2000;3(3):133-146.
    \13\ Pecora P, Kessler R, Williams J, et al. Improving family 
foster care: findings from the Northwest Foster Care Alumni Study. 
Seattle, WA: Casey Family Programs, available at http://www.casey.org; 
2005.
    \14\ U.S. Government Accountability Office. Child Welfare: 
Improving Social Service Program, Training, and Technical Assistance 
Information Would Help Address Long-standing Service-Level and 
Workforce Challenges. Washington, DC: U.S. GAO; 2006.
---------------------------------------------------------------------------
    Oversight of Prescription Medication. A 2006 report prepared by the 
Government Accountability Office found that 15 states identified the 
overuse of psychotropic medications as one of the leading issues facing 
their child welfare systems in the next few years.\14\ Another key 
study demonstrated that in the Medicaid program, children in foster 
care were much more likely to use three or more psychotropic 
medications than children who qualified through the Supplemental 
Security Income program. Those data have shown alarming interstate 
variation in the prescription patterns of psychotropic medications for 
children across our nation.
    Clearly, medication can be helpful to some children, but with the 
increasing use of these medications among children in general, there 
comes the added responsibility to ensure that children have access to 
an array of treatment strategies, from medication to community-based 
services that may augment or replace the need for medications in many 
circumstances. Furthermore, the failure to coordinate and provide 
continuity in services and the absence of clear guidelines and 
accountability to ensure that treatment decisions are in the child's 
best interest, create a greater risk that medications will be 
prescribed to control children's behaviors in the absence of 
individualized service plans that might offer the best chance for 
success. ACF's Program Instruction ``encourage[d] States to pay 
particular attention to oversight of the use of psychotropic medicines 
in treating the mental health care needs of children.'' The AAP urges 
the agency to require every HOCP to include specific steps for 
monitoring the prescription of medication to children in foster care.
    Consultation Regarding Care. Lastly, the Fostering Connections law 
directs states to indicate in the HOCP ``how the State actively 
consults with and involves physicians or other appropriate medical or 
non-medical professionals in assessing the health and well-being of 
children in foster care and in determining appropriate medical 
treatment for the children.'' This provision is critical to improving 
systems of care for children in the child welfare system. Pediatricians 
and other health care professionals should be partners with child 
welfare workers in improving the health and wellbeing of their charges. 
States should provide a detailed explanation, algorithm, or flowchart 
of what systems are in place to ensure that medical decisions are made 
by the appropriate individuals and the coordination among all parties 
who are responsible, in whole or in part, for the child's health and 
medical care.
Utilization of Plans
    The AAP urges the agency to examine ways in which state Health 
Oversight and Coordination Plans can be used by both the agency and the 
individual states to track and improve care. On the federal level, it 
is our hope that ACF will share the AAP's comments as potential 
guidelines for states embarking upon the development of plans. The 
agency should highlight particularly innovative plans as models for 
other states. We encourage ACF to make clear that these plans are not 
intended to be static documents but dynamic processes that help drive 
continuous quality improvement. States should consider using this 
planning process to help inform their Performance Improvement Plans 
under Child and Family Service Reviews as well as other periodic 
efforts to improve child welfare and foster care systems.
    In closing, the American Academy of Pediatrics stands ready to 
assist Congress and the Administration on Children and Families in 
improving the health and wellbeing of children in foster care. The 
Academy has substantial expertise and specific resources regarding 
health care for children in foster care, including books, checklists 
and guidelines. We hope the Subcommittee and ACF will call upon the AAP 
as a resource both on the federal level and in assisting individual 
states to improve the health of the children in their care.

                                 <F-dash>

            Statement of Amy Lemley, John Burton Foundation
    On behalf of the John Burton Foundation for Children Without Homes, 
please accept this submission for the record to the Hearing on the 
Implementation of the Fostering Connections to Success and Increasing 
Adoptions Act to be held in the Subcommittee on Income Security and 
Family Support on September 15, 2009.
    The John Burton Foundation offers the following two recommendations 
regarding the implementation of PL 110-351:
    Guardianship Assistance Program (GAP) Reimbursement
         Program Instructions CB-PI-08-007 for the Guardianship 
Assistance Program (GAP), issued on December 24, 2008, state that 
states may only claim GAP reimbursement starting the first day of the 
first quarter in which their Title IV-E plan was approved and only for 
cases in which a child exits from IV-E foster care into a kinships 
arrangement.
         This has the effect of excluding the over 14,000 children in 
California's Kinship Guardianship Assistance Program (Kin-GAP) from 
services provided by IV-E kinship care, including Medicaid eligibility, 
along with thousands of other children in established state-funded 
guardianship assistance programs. This was not the intent of the 
legislation and the John Burton Foundation joins with the National 
Governors Association, the National Conference on State Legislatures, 
the National Association of Counties and the American Public Human 
Services Association in calling for the Administration on Children and 
Families to rescind the Program Instructions and issue new instructions 
that allow states to claim current eligible cases retroactive to 
October 7, 2008, as intended by Congress.
    The Definition of ``Supervised Setting'' in FCSIAA Regulations
         The Fostering Connections to Success and Increasing Adoptions 
Act permits, for the first time, reimbursement for ``a supervised 
setting in which the individual lives independently'' for youth between 
the ages of 18 and 21, and requires that regulations be promulgated to 
define this setting. The John Burton Foundation recommends that these 
regulations reflect current best practices for semi-supervised living 
settings, including but not limited to: individual scattered-site 
apartments, clustered supervised apartments, shared homes, boarding 
homes and host homes. Similarly, the regulations should permit states 
the flexibility to individualize these settings and ensure they help 
youth move towards permanency and other well-being goals.
         California has tested this approach in its implementation of 
the Transitional Housing Placement Program (THP-Plus) a state-funded 
program that provides 24 months of affordable housing and supportive 
services to former foster youth, ages 18 to 24. Of the 2,047 youth who 
participated in THP-Plus in Fiscal Year 08-09, 48% lived in individual 
scattered-site apartments, 37% lived in clustered supervised apartments 
and 15% lived in host homes. Offering THP-Plus in a range of settings 
has allowed the diverse developmental needs of youth to be met. THP-
Plus participants compare favorably to the general population of former 
foster youth in a series of measured criteria. THP-Plus has also 
provided older youth with the opportunity to live in age-appropriate 
settings where they can apply and develop their independent living 
skills.
         California currently has pending legislation to extend federal 
support for youth in foster care to age 21. This legislation, Assembly 
Bill 12, includes a range of living settings for young adults, age 18 
to 21. The John Burton Foundation requests that federal regulations 
which define ``supervised setting in which the individual lives 
independently'' mirror the definitions included in AB 12 (attached).

    Thank you very much for your consideration of these issues. If you 
have any questions, please contact me at 415-693-1322.

Sincerely,

Amy Lemley, Policy Director

                                 <F-dash>

                       Statement of Beverly Tran
    My name is Beverly Tran and I rise to this occasion to thank you 
for listening to the voice of the people, for it has been silenced for 
far too long. I share with you my sole concern with the implementation 
of the Fostering Connections to Success and Increasing Adoptions Act of 
2008 (P.L. 110-351), and that is a lack of checks and balances.
Understanding the failure of implementation
    Since 2001, I have been seeking the explanation of parental rights. 
More than just a statutory definition, I sought to understand its 
epistemology beyond the general consensus of social theory.
    Why had there yet to be demonstrated a logically constructed, 
conceptual and operational formula for the determining factor of 
parental rights? My only recourse was to deconstruct the policies of 
child welfare. What I found was the existence of a well-founded 
methodology in determining parental rights, including its clear and 
concise evidentiary standard. The foundation of parental rights had 
been laid many centuries ago in property law, theorized through 
microeconomics.
    The reason child welfare, specifically child protective services, 
foster care and adoption, in its current state, will never meet its end 
goal of functioning in the best interest of the child with the current 
implementation of this Act, is because no one understands what it is 
that is being protected. It is not the child, per say, but the future 
of the child to mature to be a tax-paying contributor to society.
    No one understands that checks and balances of the child welfare 
system do not exist.
Child welfare as a frontier industry
    Child welfare must not be understood as an industry that was 
constructed to maximize the profits of society through the best 
interests of the child, but it must be understood as a profit-
maximizing industry that has schemes to increase its inputs, 
throughputs and outputs to ensure the economic sustainability of the 
public and private contractual arms of the states. Inputs are children 
who enter child welfare; throughputs are foster children; and, outputs 
are those children that exit the system, whether through reunification, 
adoption, maturation or attrition.
    The Fostering Connections Act can be properly implemented, but only 
if this Congress understands that there needs to be a substantial 
change in its current operations by implementing checks and balances.
A lack of market regulation
    Since foster care and adoption statutorily became a fully, publicly 
funded industry in 1974, it has operated strictly with federal funding 
and regulations, only in the form of financial penalties if the market 
shows signs of weakness, as states must meet and exceed the previous 
year's federally mandated benchmark of the number of children under the 
auspices of the state to avoid financial penalties. The market is 
devoid of competition as the government is monopolistic with its 
statutory control and possesses sufficient authority to acquire the 
goods and procure the services, through the removal of the child by and 
through the removal of the legal rights to the grant of custody and 
guardianship.
    Upon further examination, it will be demonstrated that it is the 
right of the state to grant the custody and guardianship, for it is the 
state that is the possessor of parental rights to the acquisition of 
goods.
    Due to the lack of this understanding, federal and state policies 
have been improperly formatted and implemented. We, as a nation have 
witnessed the residual effects of a system devoid of oversight, and 
that is our financial system. Now, we are experiencing the second wave 
of fraud as our national leadership is fast asleep at the helm of the 
ship named health care.
    Child welfare operates in a risk aversive market, as it 
intentionally never included the oversight mechanism of accountability 
and transparency; there are no checks and balances, hence, no incurred 
liabilities from error.
    The mechanical error that I have identified is the systemic 
deficiency of checks and balances, embedded deep within the ethos of 
foster care and adoption. Checks and balances, essential elements in 
tripartite governments, must be readily recognized as accountability 
and transparency.
No accountability
    If it has been determined that law and policy has been violated 
within the mechanical procedures of foster care and adoption, it is 
considered as an acceptable mistake, with a federally acceptable range 
of error of 0.10. This acceptable error is the destruction of a family.
    Nothing is publicly reported, not even for the purposes of 
ameliorating future material and provisional violations of law and 
policy, particularly those committed under the color of law. This 
phenomenon is largely due to an inherent conflict of interest breed 
within the philosophical edifice of the child welfare system. Under the 
doctrine of parens patriae, the states attorney general have been 
granted the powers of parental rights through statutory declarations of 
commerce.
    It thus becomes a contentious issue of intervention: ``Do the 
states attorney general advocate to further a compelling governmental 
interest in the representation of the state and its contractual arms of 
child welfare, or do the states attorney general advocate for the 
citizen individuals who have been granted the gift of custody and 
guardianship? The child welfare system, in whole, incorporating all 
facets of the industry, functions on the fallacy of affirming the 
disjunct, that is, the government operates in good faith and there is 
no need to advocate for the citizen individuals who allegedly violated 
the granted gift of custody and guardianship.
    Simply put, it is in the best interests of the child for government 
to invest in the profitable return of a future tax-paying, productive 
citizen, and not to advocate for the non-productive individual citizen, 
for that individual has violated the social compact in failing to 
contribute to the society as a whole, whether it be morally, 
intellectually, financially, or economically. Because of the belief 
government functions in good faith, there is no need to construct and 
implement a congruent system of checks and balances in child welfare. 
The crime of poverty has been justified.
Public disenfranchisement
    Where public access and voter participation into the mechanical 
process of this market are the checks, the general public is 
disenfranchised because child welfare law and policies are neither put 
up for public discussion nor full disclosure. Even more so, a targeted 
population is specifically disenfranchised because children are not 
allowed the right to vote.
    Child welfare protects and preserves itself by importing policies 
to obviate transparency and accountability, whereby, it has 
manufactured obfuscatory policies to terminate parental rights of the 
granted gift of custody and guardianship to ``cloak'' the industry of 
abuse and neglect.
    That ``cloak'', for which I reference, is laced with public 
policies to create the tapestry of public perceptions, to conceal the 
inner workings of the industry of child welfare. This cloak is 
impenetrable to empirical analysis, as it is hermetically sealed by the 
Freedom of Information Act, and the institutionalized belief that 
sealed information of child welfare policies furthers a compelling 
governmental interest. That compelling governmental interest is the 
general welfare of the public, now and in the future.
    When the 1974 Child Abuse Prevention Treatment Act[i] was designed, 
a fatal flaw was inculcated into 1997 Adoption Safe Families Act, and 
its subsequent legislative actions. I speak again of the lack of checks 
and balances. This philosophical tenet is embedded deep within core of 
public belief, woven into the historical fabric of society and 
engrained into the academic discipline of policy analysis, where 
nothing could be of the contrary. Initial funding streams from Social 
Security Title I, Title II, Title IV-A, B, D and E, Title V and 
Medicaid Targeted Case Management (TCM), as well as others, were 
created to flow down to the states to care for abused and neglected 
children who were qualified as impoverished under the means test of 
Title IV-A under the Temporary Aid to Needy Families (TANF). Simply 
put, poverty is codified as abuse and neglect and the discipline of 
Social Work has generated the only literature of analysis, which has 
been mostly qualitative.
No transparency
    Under the Eleventh Amendment of the United States Constitution, 
states possess sovereign immunity from prosecution of wrongdoing by the 
Federal Government. Immunity is then draped to circumvent 
accountability and transparency in non-reporting/non-disclosure through 
Freedom Of Information Act exceptions. Basically, anything dealing with 
errors in child welfare cases, more intuitively recognized as fraud, 
waste and abuse, is kept from the public for the protection of the 
child, justifying the lack of need for exclusionary databases and 
reporting protocol.
    Due to the lack of transparency, federal and state policies have 
been improperly formatted and implemented. We, as a nation have 
witnessed the residual effects of a system devoid of oversight, and 
that is our financial system. Now, we are experiencing the second wave 
of attack on our nation's economic security as our national leadership 
have been fast asleep at the helm of the ship named health care. The 
monster named Medicaid fraud has victoriously raised its ugly head, 
with no one to battle, until now.
Sunshine initiatives
    I take this time to honor a great man, former U.S. Attorney General 
Michael B. Mukasey, for personally inspiring me to continue my work to 
end Medicaid fraud in child welfare. He is the first leader to listen 
and speak out on the need for investigation on the levels of political 
corruption, fraud, waste and abuse in the U.S. Administration for 
Children and Families through the early initiatives of the Health Care 
Fraud Enforcement Task Force (H.E.A.T.)
    I take this time to thank the dedication of U.S. Attorney Eric H. 
Holder, Jr., U.S. DHHS Secretary Kathleen Sebelius, U.S. DHHS Inspector 
General Daniel R. Levinson for listening to the people and developing 
the Strike Forces to end Medicare fraud in child welfare.
    As it stands, there is no system of ``checks and balances'' to 
maintain the integrity of operations and best interests for all 
stakeholders involved in the implementation of this Act. The amount of 
power and money involved in child welfare is massive, involving 
multiple funding streams of Social Security and Medicaid, yet pails to 
the levels of fraud, waste and abuse of taxpayer dollars. Poverty is 
codified as the crime of abuse and neglect for eligibility of a child 
entering foster care is strictly based on being impoverished. Hence, as 
poverty increases so shall the number of child removals to foster care. 
Billions of dollars of federal fraud were found through only cursory 
audits conducted by the U.S. Department of Health and Human Services 
(DHHS) Office of Inspector General (OIG) and U.S. Department of 
Justice, but this shall be no longer for the people have been heard.
    The OIG has identified a number of state financing arrangements and 
other revenue-maximization tactics that inappropriately increase 
Federal Medicaid payments to States. Children are being double-billed, 
provided for unnecessary medical services and phantom programs are 
funded that bill fictitious children and services. This is what is 
called fraud, or more intuitively, federal false claims. Every year, 
lawyers across the nation are settling an increased number of lawsuits 
against states, child placing agencies and foster parents to the tune 
of tens of billions of taxpayer dollars, all because the nation has not 
had the opportunity to be exposed to the child welfare industry for 
what it is: a market.
    U.S. DHHS funded organization, Council On Accreditation, has 
nothing to do with children and families as they only lobby for their 
due-paying, state contracted, private agencies. An accreditation 
organization is not supposed to be established to advocate for 
transgressors of law, but it does.
    It is time to hold these privatized child placing agencies to the 
same standards they hold the guardians of children. If the agencies 
possess the empowering authority to remove children and advocate 
termination of parental rights, then, in the same wielding of justice, 
the state should possess the empowering authority to remove licenses 
and terminate contractual relationships, and effectuate contractual 
debarment with these child placing agencies. The regulatory mechanism 
of the OIG exclusion database is in place but is not utilized.
Implementation recommendations
Improve regulation
    As these child welfare programs function devoid of any 
accountability, the first instance of oversight would be to effectuate 
financial sanctions and contractual debarment with privatized agencies 
through the state licensing agencies. Privatized agencies operate as 
not-for-profit, therefore excluding them from external audits. 
Typically, child placing agencies self-report on an honor system 
because it is too costly for a state to retain the manpower and 
resources to properly ensure that each entity is in compliance with the 
requirements or receiving federal funds pursuant to the Office of 
Management and Budget Circular A-133. It becomes more cost-effective 
for a state to turn its head and allow fraudulent billing to occur than 
to enforce regulation.
    The largest federally funded component of child welfare is not the 
Social Security Title IV-E, as everyone would like to believe, it is 
Medicaid: Targeted Case Management and Optional Targeted Case 
Management. States need to decrease its percentage in the federal 
formula for Medicaid funding. Right now it is approximately 50%. It 
becomes more cost effective for a state to continue sinking money into 
a dysfunctional child welfare system than come into federal compliance 
with its operations, such as enforcing existing accountability statutes 
in dealing with fraud. Assumption may be formulated that some states 
use a portion of the Federal Funding Percentage to meet its State 
Funding Percentage. This can only be disproved with regulation.
Encourage State Medicaid Fraud Units to prosecute and recover
    State Medicaid Fraud Units need to finally step up to the plate and 
start aggressively going after Medicaid fraud in child welfare. If the 
Attorney General is ever able to release himself from the statutory 
constraint of only advocating for transgressors of law, the recovery 
percentage of the federal portions of the fraud would be situated at 
10%, bringing back in billions of lost funds from over the past few 
years and demonstrating exemplary standards to deter future fraudulent 
transgressions.
    These state units can be encouraged to work with its citizens, as 
they may be the eyes and ears of regulation through public awareness 
campaigns, whistleblower litigations, and state Medicaid False Claims 
statutes. As many abuse and neglect programs are riddled with 
fraudulent billing and poor or falsely generated performance reports, 
the only way of verifying this is to listen to the people.
Promote the funding of public legal defense and grievance databases
    Unfortunately, one of the few ways a family can access medical, 
social, psychological services for children today is through a court 
classification of abuse and neglect. Social welfare assistance programs 
have been cut, but the only federal funding streams that has opened up 
to provide for those who need help has been foster care. It has come to 
the point where there are no other options.
    A blueprint for accountability and transparency was never conceived 
in child welfare. When a social system has a zero error rating in 
decisions to remove children and/or terminate parental rights, no 
databases of grievances, sanctions, fines, contractual debarment, 
including violations of material provisions of law and policy, a red 
flag should immediately be raised. There is a greater possibility of 
being not found of murder than it is being not found guilty of child 
abuse and neglect, as the jurisprudence of dependency courts are 
unparallel to traditional courts, the adjudication standard being 
guilty, until proven innocent.
    It is my hope that this Congress will direct a portion of this 
funding to legal defense and for the construction of a grievance 
database, similar to what is called for in the U.N. Intercountry 
Adoption Treaty to foster connections between the people, the U.S. DHHS 
OIG and U.S. DOJ AG to stop Medicaid fraud in child welfare.
Reinstatement of parental rights
    If a system is to be viewed as balanced, there is always a counter-
balance. This would be the reinstatement of parental rights. Currently, 
there are four states, which have some form of limited exceptions to 
reinstatements. Technology has removed the barrier of contact and time. 
In light of the crux of my position on Medicaid fraud, there does exist 
improper and unnecessary removals of children and termination of 
parental rights, by what is considered as being legally kidnapped. 
There are times where it may take an individual more than 12 months to 
obtain the help needed to succeed in life. We must understand the 
severance of a legacy has not proven to be the best means in dealing 
with the hardships of others. Let us take the time to reunite these 
children with the degrees of consanguinity and affinity so they may 
have a chance to connect to a profitable and successful future for 
their own best interests.

With sincerity and serenity,

Beverly Tran

                                 <F-dash>

         Statement of Center for Law and Social Policy (CLASP)
    Thank you for the opportunity to submit a statement for the record 
regarding the September 15, 2009 Hearing on the Implementation of the 
Fostering Connections to Success and Increasing Adoptions Act. CLASP is 
a national nonprofit that works to improve the lives of low-income 
people. CLASP's mission is to develop and advocate for policies at the 
federal, state and local levels that improve the lives of low income 
people. We focus on policies that strengthen families and create 
pathways to education and work. To carry out this mission, CLASP 
conducts research, provides policy analysis, advocates at the federal 
and state levels, and offers information and technical assistance on a 
range of family policy and equal justice issues for our audience of 
federal, state, and local policymakers; advocates; researchers; and the 
media. CLASP does not receive any federal funding and is funded 
primarily by major national foundations.
    The bipartisan Fostering Connections to Success and Increasing 
Adoptions Act, signed into law last October, represents the most 
significant federal reforms for abused and neglected children in foster 
care in over a decade. CLASP applauds the work of this subcommittee 
that went into the developing and passing this critical piece of 
legislation. The Fostering Connections to Success and Increasing 
Adoptions Act would not have been possible without the tireless work of 
Chairman McDermott, key Members of this subcommittee including former 
Ranking Member Weller, the Senate Finance Committee and Congressional 
staff. As Chairman McDermott noted in his opening statement at the 
September 15, 2009 hearing on the implementation of Fostering 
Connections to Success and Increasing Adoptions Act, this law 
``represents the best of Congress. It shows what can be achieved when 
both sides come together to work in good faith to address a problem.''
    The Fostering Connections to Success and Increasing Adoptions Act 
will help hundreds of thousands of children and youth by promoting 
permanent families for children in foster care; improving outcomes for 
children and youth involved with the child welfare system; increasing 
support for American Indian and Alaska Native children; and improving 
the quality of staff working with children in the child welfare system. 
Below, we will look at the provisions of the act in each of these 
areas, highlighting some examples of implementation efforts that are 
underway.
Promoting Permanent Families for Children in Foster Care
Identify and Provide Notice to Relatives
    The Fostering Connections to Success and Increasing Adoptions Act 
helps ensure that relatives are notified, allowing grandparents and 
other relatives to get involved early in the child's case. The state 
child welfare agency must exercise due diligence to identify and 
provide notice to all adult grandparents and other relatives of each 
child within 30 days of the child's removal from his or her parent(s)' 
custody. Sometimes relatives can keep the child out of foster care. A 
relative who cannot provide a placement for a child may be able to 
participate in the child's care in other important ways, such as by 
maintaining a relationship with the child or taking the child to 
doctor's appointments, extracurricular activities or visits with birth 
parents.
    Prior to the Fostering Connections to Success and Increasing 
Adoptions Act, many states made, in practice, some attempt to locate 
and notify adult relatives of children being removed from their 
parent's custody, these attempts were often only cursory. We learned 
that in addition to depriving the child of the stability and continuity 
that placement with a relative could provide, bypassing the 
notification of relatives could prove quite tragic should someone later 
seek to adopt the child. All too often, a diligent search for relatives 
occurred only at the time parental rights were terminated and adoption 
was underway when the child had likely bonded with non-relative foster 
parents. Additionally, the sad reality was that relatives sometimes did 
not learn of a child's placement until after an adoption was finalized.
    Recognizing these concerns, a number of states had enacted laws 
prior to the Fostering Connections to Success and Increasing Adoptions 
Act requiring that adult relatives be notified when a child is removed 
from his or her parent's custody. Since the enactment of the act, 
additional states have introduced or enacted similar legislation.
Family Connection Grants
    Seven months after enactment, a Request for Proposals was issued 
allowing states, tribes and non-profit organizations to apply for 
Family Connection Grants.
    Family Connection Grants are competitive grants that will allow 
applicants to create or enhance programs that will connect children in 
or at risk of entering foster care to their families. State, local, and 
tribal child welfare agencies and non-profit agencies that have 
experience serving children in foster or kinship care can apply for the 
grants to establish or expand Kinship Navigators, Family Group Decision 
Making, Intensive Family Finding, or Residential Family-Based Substance 
Abuse Treatment programs. A portion of the funds are reserved each year 
for funding Kinship Navigator programs.
    A number of states and other entities have applied for grants for 
different activities, some to take action in more than one category. It 
is expected that the awards will be announced by the Department for 
Health and Human Services (HHS) by the end of the week.
Kinship Guardianship Assistance
    Consistent with a considerable body of research that indicates when 
children can't be raised by their parents they often do best with 
relatives, 37 states and the District of Columbia offer support to help 
children leave foster care to live permanently with relative guardians. 
The Fostering Connections to Success and Increasing Adoptions Act 
provides federal support to build on existing programs and to encourage 
additional states to implement similar programs.
    Under the new Kinship Guardianship Assistance Program, states have 
the option to use federal Title IV-E funds for kinship guardianship 
payments for children who have a strong attachment to and are cared for 
by prospective relative guardians who are committed to caring for these 
children permanently when they leave foster care. To be eligible for 
the kinship guardianship assistance payment, children must be eligible 
for federal foster care maintenance payments while living in the home 
of a relative for at least six consecutive months in foster care. There 
must also have been a determination by the state agency that return 
home and adoption are not appropriate permanency options for the child. 
Children 14 and older must be consulted about the kinship guardianship 
arrangement. Siblings may be placed in the same home and receive 
support even if they do not meet other eligibility requirements. 
Children eligible for these payments are also automatically eligible 
for Medicaid, as are children in foster care and those who receive 
adoption assistance payments.
    CLASP is happy to see that a number of states have introduced or 
enacted legislation that would allow them to operate a Kinship 
Guardianship Assistance Program. While fewer states have submitted the 
requisite state plan amendments that will allow them to draw down Title 
IV-E funds to operate such programs (and, as we understand it, only 
Rhode Island's plan amendment has been approved as of the date of the 
hearing), we view the state legislative activity as a positive 
indicator of states' interest in the option.
    CLASP and the Children's Defense Fund in collaboration with 18 
other national organizations developed a Question and Answer guide 
intended to assist with implementation of the provisions impacting 
children being raised by grandparents and other relatives. New Help for 
Children Raised by Grandparents and Other Relatives: Questions and 
Answers About the Fostering Connections to Success and Increasing 
Adoptions Act of 2008 is available on the CLASP website at: http://
www.clasp.org/issues/pages?type=child_welfare&id=0001.
Licensing Standards for Relatives
    The Fostering Connections to Success and Increasing Adoptions Act 
codifies existing U.S. Department of Health and Human Services (HHS) 
guidance stating that agencies may, on a case-by-case basis, waive non-
safety related licensing standards when licensing a relative's home. 
For example, this may include waiving the requirement that each child 
have a separate bedroom if the relative is taking in siblings or 
waiving the requirement that a home have a certain amount of square 
footage per person. The new law also requires HHS to report to Congress 
within two years on how states are using the ability to waive non-
safety standards and make recommendations as to how additional barriers 
to licensing relatives' homes can be eliminated. Guidance issued on 
June 3, 2009 (ACYF-CB-PI-09-06) requires that states provide to HHS by 
December 15, 2009 information related to licensing, to the extent 
practicable, that will inform the report to Congress.
    Information from this report may suggest additional opportunities 
for allowing more children in foster care to be safely placed in foster 
family homes with relatives and be eligible for federal support.
Adoption ``De-link''
    As of October 1, 2009, states with federal adoption assistance 
programs will be able to claim federal funds for more children with 
special needs by ``de-linking'' a child's eligibility for federal 
adoption assistance payments from outdated AFDC income requirements. 
Next month, states must begin phasing in an expansion of the program to 
reach more eligible children with special needs, beginning with older 
children and children who already have been in care for five years and 
their siblings, who often are the most difficult to place for adoption. 
Other children will be phased in by age over the next nine years so 
that all eligible children with special needs will be covered by 
October 1, 2017. Guidance issued on August 26, 2009 (ACYF-CB-PI-09-10) 
provides states and tribes with information pertaining to the changes 
in the Title IV-E adoption assistance eligibility requirements 
resulting from the Fostering Connections to Success and Increasing 
Adoptions Act.
Increased Incentives for Adoption
    The Fostering Connections to Success and Increasing Adoptions Act 
reauthorizes the Adoption Incentive Program for five years and enhances 
the incentives available to promote the adoption of children from 
foster care. The act updates to FY 2007 the adoption baseline above 
which incentive payments are made, doubles the incentive payments for 
adoptions of children with special needs and older children adoptions, 
and gives states 24 months to use the adoption incentive payments. The 
act also permits states to receive an additional payment if the state's 
adoption rate exceeds its highest recorded foster child adoption rate 
since 2002. On September 14, 2009 HHS announced that it had awarded $35 
million in adoption incentive payments to 38 states and Puerto Rico for 
the first year that the enhanced adoption incentives under the 
Fostering Connections to Success and Increasing Adoptions Act.
Sibling Connections
    Vital to the advocacy efforts that helped move the Fostering 
Connections to Success and Increasing Adoptions Act through Congress 
were the voices of youth who were in or had been a part of the child 
welfare system. They shared their stories and poignantly made the case 
for reforms. The request for support in maintaining connections with 
their siblings was voiced by many of the youth. The act takes important 
steps in response.
    State agencies must make reasonable efforts to place siblings 
together, whether in foster, kinship guardianship, or adoptive 
placements, unless placing them together would be contrary to their 
safety or well-being. If the siblings are not placed together, the 
agency must make reasonable efforts to ensure that the siblings 
maintain their connections to each other through frequent visitation or 
other ongoing interaction. An exception to maintaining connections is 
permissible only if such contact would be contrary to the safety or 
well-being of one or more of the children. Sibling connections are 
significant to a child in foster care's emotional and social 
development since siblings often provide the connection and stability 
that is no longer available from the child's parents.
    We know that, prior to the Fostering Connections to Success and 
Increasing Adoptions Act, many states had policies in place to help 
facilitate sibling connections. In response to the act states may have 
to update some of these policies to ensure that reasonable efforts are 
made and to incorporate the documentation requirements. Since the 
enactment of the Fostering Connections to Success and Increasing 
Adoptions Act, a number of states have also introduced or enacted 
legislation pertaining to sibling connections.
Improving Outcomes for Children and Youth Involved with the Child 
        Welfare System
Extension of Care Beyond Age 18
    Few 18 year olds in the general population are prepared to support 
themselves. Approximately half of all young people between the ages of 
18-24 still live with their parents. This is not an option for youth 
who are in foster care. A youth struggling with a history of 
maltreatment and who has no family to turn to for support is expected 
to make it on his own. Acknowledging this reality, the Fostering 
Connections to Success and Increasing Adoptions Act gives states the 
option to claim federal funds for Title IV-E eligible young adults in 
foster care, guardianship and adoptive homes beyond their 18th birthday 
to the age of 19, 20, or 21 beginning on October 1, 2010. With limited 
exceptions, states can currently only claim federal assistance for 
children and youth up to their 18th birthday. States will only be 
federally reimbursed for those young adults who are eligible for Title 
IV-E assistance payments and who are completing secondary education or 
in a program leading to an equivalent credential; enrolled in an 
institution that provides post-secondary or vocational education; 
participating in a program or activity designed to promote, or remove 
barriers to, employment; employed for at least 80 hours per month; or, 
if a child's medical condition makes him or her incapable of engaging 
in these activities, updated information on their condition must be 
maintained in the child's case plan.
    The National Foster Care Coalition along with a number of other 
organizations, including CLASP, developed a Frequently Asked Questions 
guide intended to aide states in implementing the extension of care 
beyond age 18 and other provisions that will most directly impact youth 
in foster care. The guide, Fostering Connections to Success and 
Increasing Adoptions Act: Frequently Asked Questions on the Provisions 
Designed to Impact Youth and Young Adults, can be accessed on the CLASP 
website at: http://www.clasp.org/issues/
pages?type=child_welfare&id=0001
    A number of the groups that helped develop the FAQ continue to work 
together to develop additional resources to assist with implementation 
efforts. The regulations required by the Fostering Connections to 
Success and Increasing Adoptions Act to define ``supervised setting in 
which the individual is living independently'' have not yet been issued 
but will be important for moving implementation efforts forward.
Helping Older Youth Successfully Transition from Care to Independence
    Like all young adults, those youth who have spent time in foster 
care, often need some assistance in preparing for adulthood. They may 
need help deciding between various educational and employment 
opportunities or setting up utilities in their first apartment. The 
Fostering Connections to Success and Increasing Adoptions Act helps 
ensure that youth in foster care have the assistance they need in 
planning for their futures. As part of the case review system, the act 
requires that, in the 90-day period immediately prior to when a youth 
turns 18 (or 19, 20 or 21 as the state may elect), a caseworker and any 
other appropriate representatives work with the child to develop a 
personalized transition plan that is as detailed as the child chooses. 
The plan must include specifics on housing, health insurance, 
education, local opportunities for mentors and continuing support 
services, and workforce supports and employment services. This 
transition plan is required for all youth for whom foster care 
maintenance payments are being made. Youth who have returned home or 
for whom kinship guardianship assistance or adoption assistance 
payments are being made must also have a transition plan if they are 
also receiving Chafee Program benefits or services.
    The act also clarifies that children who leave foster care at age 
16 or older for kinship guardianship are eligible under the John H. 
Chafee Foster Care Independence Program independent living services for 
educational and training vouchers (ETVs).
Educational Stability and Attendance
    The Fostering Connections to Success and Increasing Adoptions Act 
recognizes the importance of educational stability and continuity and 
takes important steps toward improving educational outcomes for 
children involved with the child welfare system. The law requires 
states to coordinate with local education agencies to ensure that 
children remain in the school they are enrolled in at the time of 
placement into foster care, unless that would not be in the child's 
best interests. If such placement is not in the child's best interests 
then the state must ensure that the child is immediately enrolled in a 
new school and that all of the child's educational records are 
transferred promptly.
    The act also requires that states provide assurances in their Title 
IV-E state plans that every school--age child in foster care, and every 
school--age child receiving an adoption assistance or subsidized 
guardianship payment, is attending elementary or secondary school or 
has completed secondary school. The Fostering Connections to Success 
and Increasing Adoptions Act also gives states the option to include 
school-related transportation costs as a cost related to the 
maintenance of a child in foster care, rather than as an administrative 
cost.
    Joint guidance may be needed from the Department of Education and 
HHS addressing how schools and child welfare agencies can best work 
together to serve the children and youth involved with the child 
welfare system.
Health Oversight and Coordination
    The Fostering Connections to Success and Increasing Adoptions Act 
requires each state work through its state child welfare agency and the 
state agency that administers Medicaid and in consultation with 
pediatricians, other health care experts, and experts in and recipients 
of child welfare services to create a plan to ensure oversight and 
coordination of health care for children in foster care. The plan must 
include a strategy to identify and respond to the health care needs of 
children in foster care, including mental and dental health needs. 
States were required to submit their state plans with the health 
oversight and coordination plan--unless they were permitted a delay for 
required state legislation--by June 30, 2009.
Increasing Support for American Indian and Alaska Native Children
Direct Access to Title IV-E for Indian Tribes
    As of October 1, 2009, Indian tribes and tribal consortia will be 
able, for the first time, to directly access Title IV-E funds to 
administer their own foster care, kinship guardianship and adoption 
assistance programs. Prior to the Fostering Connections to Success and 
Increasing Adoptions Act, Indian tribes could only access Title IV-E 
funds through an agreement with a state government but fewer than half 
of the federally recognized tribes had such an agreement. Direct access 
will help extend important Title IV-E services and protections--many of 
those provided by Fostering Connections to Success and Increasing 
Adoptions Act--to more American Indian children.
    73 tribal entities have indicated that they intend to directly 
operate their own programs. 15 have already applied for development 
grants in preparation for operating Title IV-E programs.
Improving the Quality of Staff Working with Children in the Child 
        Welfare System
Extending Federal Support for Training
    The child welfare workforce faces a number of challenges including 
excessive caseloads and high turnover. The Fostering Connections to 
Success and Increasing Adoptions Act took important steps toward 
enhancing the workforce by allowing states to claim, on a phased in 
basis, federal funding for short-term training of several groups who 
could not previously be trained with Title IV-E funds: relative 
guardians, staff of private agencies and courts, and attorneys for 
parents and children and guardians ad litem and court appointed special 
advocates working with children in the child welfare system. Providing 
federal support for the short-term training of these additional groups 
is more consistent with the realities of child welfare practice yet 
there is more that must be done to improve the child welfare workforce 
to ensure that staff working with all children in child welfare will 
have access to federally supported training.
Implementation Challenges Exist but There is Much to Build On
    There is evidence that important strides have been made and are 
being taken in implementing the provisions of the Fostering Connections 
to Success and Increasing Adoptions Act to ensure that children truly 
benefit from the new law. While some of the improvements made by the 
act will take effect and become options over time, it is important to 
note that the majority of the requirements and options created by the 
act took effect immediately upon enactment. As highlighted above, 
states have demonstrated that they are working to implement these 
provisions. Advocates have also acted to help facilitate prompt, 
effective implementation. Since the Fostering Connections to Success 
and Increasing Adoptions Act became law a number of resources including 
guides, fact sheets and power points have been developed. Several of 
these resources can be accessed on the CLASP website at: http://
www.clasp.org/issues/pages?type=child_welfare&id=0001
    States have reported experiencing some challenges in implementing 
various aspects of the Fostering Connections to Success and Increasing 
Adoptions Act. A number of these challenges are attributable to the 
economic crisis and others result from the need for guidance. In spite 
of these challenges, legislation to implement numerous provisions of 
the act has been introduced or enacted in many states. It is important 
to note that legislation may not be required in all states for all 
provisions. Instead some states may have already had in place, prior to 
enactment, laws that are in compliance with one or more of the 
requirements in or that would allow them to take the options available 
through the Fostering Connections to Success and Increasing Adoptions 
Act. Some states may have been able to modify existing policies that to 
ensure their full compliance with the act. It is hoped that HHS will 
actively consult with states, tribes, advocates and other stakeholders 
in order to continue moving implementation forward to help improve 
outcomes for children and families.
    There are important opportunities for Congress to help ensure that 
the promises of the Fostering Connections to Success and Increasing 
Adoptions Act are realized by children and families. First, 
Congressional Members can provide leadership in their states and 
encourage that implementation move swiftly and that options--
particularly the kinship guardianship assistance and extension of care 
beyond age 18 options--are taken advantage of as Congress intended.
    Equally important, this subcommittee should take the opportunity to 
build on and complement the Fostering Connections to Success and 
Increasing Adoptions Act by addressing additional changes needed at the 
federal level to improve outcomes for children and families. As so many 
of those who provided leadership for this legislation said as it was 
being developed, the Fostering Connections to Success and Increasing 
Adoptions Act makes critical strides on behalf of children in foster 
care, but there is more to be done to ensure the safety, permanence and 
well-being of children.
    The provisions in the Fostering Connections to Success and 
Increasing Adoptions Act will help achieve better outcomes for children 
who have spent time in foster care by helping to mitigate the trauma of 
foster care and by helping children move safely into permanent 
families. However, the Federal Government must do more to prevent child 
abuse and neglect and to avoid placement in foster care in the first 
place. Currently federal fiscal structures are not well-aligned with 
prevention--most federal funding is focused on intervening only after a 
child has been removed from his or her home not on providing sufficient 
resources to develop the front-end of the continuum of services and 
supports children and families need. We must build on the Fostering 
Connections to Success and Increasing Adoptions Act and create a child 
welfare system that offers a continuum of services that prevents abuse 
and neglect from occurring in the first place, as well as provide 
treatment and support for those, who despite our best efforts, 
experience maltreatment.
    Federal investment and leadership in child welfare must do the 
following:

        <bullet>  Increase prevention and early intervention services 
        that help keep children and families out of crisis;
        <bullet>  Increase specialized treatment services for those 
        children and families that do experience crisis;
        <bullet>  Increase services to support families after a crisis 
        has stabilized (including birth families, as well as kinship 
        and adoptive families created when parents cannot care for 
        their children);
        <bullet>  Enhance the quality of the workforce providing 
        services to children and families; and
        <bullet>  Improve accountability both for dollars spent and 
        outcomes achieved.

    The Fostering Connections to Success and Increasing Adoptions Act 
makes a down payment on our children's future. CLASP thanks you for 
your leadership and looks forward to continuing to work with you. 
Together we can create a child welfare system that offers a continuum 
of services that prevent abuse and neglect from occurring in the first 
place, as well as provide treatment and support for those, who despite 
our best efforts, experience maltreatment.

                                 <F-dash>
                  Statement of Children's Defense Fund
    The Children's Defense Fund (CDF) appreciates the opportunity to 
submit this written statement on implementation of the Fostering 
Connections to Success and Increasing Adoptions Act of 2009. We ask 
that it be added to the record of the September 15, 2009 Hearing on the 
Implementation of the Fostering Connections to Success and Increasing 
Adoptions Act held by the Ways and Means Subcommittee on Income 
Security and Family Support.
    The Children's Defense Fund's Leave No Child Behind mission is to 
ensure every child a Healthy Start, a Head Start, a Fair Start, a Safe 
Start and a Moral Start in life and successful passage to adulthood 
with the help of caring families and communities. The Children's 
Defense Fund provides a strong, effective and independent voice for all 
children of America who cannot vote, lobby or speak for themselves. CDF 
pays particular attention to the needs of poor and minority children 
and those with disabilities. CDF is a private non-profit organization 
and has never taken government funds.
    CDF's advocacy for improved outcomes for children who are abused or 
neglected or at risk of maltreatment predates the passage of the 
Adoption Assistance and Child Welfare Act of 1980. Important steps have 
been taken since that time to improve outcomes for these children and 
their families, but enormous challenges remain. Therefore, it is 
particularly exciting to be able to thank you for the important 
improvements for children in foster care that you passed last fall in 
the Fostering Connections to Success and Increasing Adoptions Act. They 
represent the most significant reforms for children who are abused and 
neglected and in foster care in more than a decade. These improvements, 
when fully implemented, will promote the safety, permanence and well-
being of hundreds of thousands of children in foster care across the 
country.
Improvements Made Through the Fostering Connections to Success and 
        Increasing Adoptions Act
    When the Children's Defense Fund testified before this Subcommittee 
in February 2008 on improving the child welfare system, at the time the 
Invest in KIDS Act and other legislation was being considered, we 
emphasized that improvements for children and families were needed in 
five key areas: prevention, specialized treatment and attention to 
basic needs, enhanced permanency options and post-permanency services, 
improvements in the quality of the child welfare workforce, and 
increased accountability for improved child outcomes and system 
improvements. While the job is not done, the Fostering Connections to 
Success and Increasing Adoptions Act holds promise for children to 
truly benefit from improvements in most of these areas. States, with 
support and sometimes prodding from private agencies, advocates, 
relative caregivers and youths who have been in foster care, have begun 
to issue guidance and proposed legislation to implement new programs, 
practices and policies that will help to improve outcomes for children.
    Groups of advocates and others have come together to develop guides 
and pool resources in several areas to assist with implementation of 
the Act's new provisions. See, for example, New Help for Children 
Raised by Grandparents and Other Relatives: Questions and Answers About 
the Fostering Connections to Success and Increasing Adoptions Act of 
2008, available at www.childrensdefense.org/FCSIAAguide and Frequently 
Asked Questions on the Provisions Designed to Impact Youth and Young 
Adults available at www.nationalfostercare.org/pdfs/NFCC-FAQ-
olderyouth-2009.pdf.
    As Ms. Jacqueline Johnson Pata, Executive Director of the National 
Congress of American Indians, testified at the Subcommittee's hearing 
on September 15, there has also been close collaboration among 
organizations representing Indian tribes, tribal consortia and other 
national organizations that has helped to promote the opportunity 
Indian tribes and tribal organizations and consortia have, effective 
October 1, 2009, to obtain direct access to the federal support 
provided by the Title IV-E Foster Care, Guardianship Assistance and 
Adoption Assistance Programs. This is a long overdue reform. It is 
encouraging that about 73 tribal entities from seven out of the ten 
federal regions have expressed their intent to directly operate Title 
IV-E programs and 15 actually have applied for development grants 
provided under the act to help support their Title IV-E readiness 
activities for two years. Many American Indian and Alaska Native 
children stand to benefit from the protections, services and assistance 
provided under the new Act and many of the initiatives we describe 
below.
    There also have been collaborative implementation efforts in the 
states, encouraged and supported in some cases by national and local 
foundations. Some have focused broadly on the Act and others on 
specific provisions. For example, the Commissioner of the New York 
State Office of Children and Family Services convened ``A Statewide 
Roundtable on Subsidized Guardianship in New York State'' earlier in 
the year, and similar forums have been held in other states. The new 
Act also has prompted new collaborative efforts among child welfare and 
other child-serving agencies that touch the lives of the children in 
the child welfare system, most notably the education and health care 
systems. In other states efforts are being made to get these 
conversations started. The Act has stimulated excitement about the 
opportunity for reform and helped to make the case, in these very tough 
economic times, that these new reforms to benefit children and youths 
cannot be ignored or postponed. These children and youths have waited 
long enough. As Subcommittee Chairman McDermott said in his opening 
statement at the hearing on September 15, ``Children in foster care 
cannot wait for a time when reform is convenient.''
    Below we highlight some of the changes in practice, program and 
policy that are being pursued as a result of the Fostering Connections 
to Success and Increasing Adoptions Act and that build on 
recommendations CDF has shared with you in the past, as well as 
references to some implementation activities that are underway.
Enhancing Prevention, Specialized Treatment and Supportive Services for 
        Children
    Although many of the provisions in the Fostering Connections to 
Success and Increasing Adoptions Act are focused on children and youth 
already in foster care, there are some that will help to keep children 
out of foster care and safely with their birth family or members of 
their extended families.
Family Connection Grants 
    The Family Connection Grants, authorized under the Fostering 
Connections to Success and Increasing Adoptions Act, should be awarded 
by the Children's Bureau in the Department of Health and Human Services 
(HHS) by the end of September. They will give states, tribes and non-
profit organizations the opportunity to engage in activities to prevent 
children from entering foster care and offer children and families some 
of the basic supports and specialized treatment they need. Even the 
prospect of applying for Family Connection grants has encouraged 
collaboration on behalf of this group of vulnerable children. We are 
familiar with several examples where university staff collaborated with 
agencies in the development of the grant applications and others where 
relative caregiver organizations joined with public agencies.
    Grants for Kinship Navigator Programs will help link relatives with 
support groups, respite care programs and other services. We have 
learned about a number of states and caregiver groups that have applied 
for such grants. Relative caregivers report that one of their greatest 
challenges in raising children and keeping them out of foster care is 
getting accurate information about the benefits and services that are 
available to the children. In some cases the caregivers have been away 
from parenting for a while and in others they have never had contact 
with some of the service systems they need to approach for the 
children, such as mental health and special education. The Kinship 
Navigator Programs will help them get their children what they need.
    Family Group Decision-Making meetings, which can also be supported 
under the Family Connection Grants, will bring family members and 
others familiar with the child and family together as decisions are 
being made and help them work together to prevent the need for children 
to enter foster care. These meetings also have been used effectively to 
help ensure that children return home more promptly from care and, when 
that is not possible, to help identify other permanency options for the 
child.
    Grants for comprehensive family-based substance abuse treatment 
will help families get the treatment they need without requiring young 
children to be separated from their families and can also be used 
effectively to facilitate reunification. There are examples already 
where these activities are being used to improve outcomes for children, 
and it is so important that we will have an opportunity to learn more 
about what works in these areas from the Family Connection Grants.
New Attention to Health and Education
    The steps taken in the Fostering Connections to Success and 
Increasing Adoptions Act to improve the basic health and education of 
children in foster care will help ensure that special needs of children 
in these areas will be identified. Improvements in children's health 
and education also will improve children's opportunities for success 
when they leave care.
    Education Stability and Attendance. The Act requires state child 
welfare agencies to improve educational stability for children in 
foster care and ensure that they are attending school. It requires the 
agencies to coordinate with local education agencies to ensure children 
remain in the school in which they are enrolled at the time of 
placement into foster care, unless that would not be in the child's 
best interests. If it is not, the state must ensure the child's 
immediate enrollment in a new school with all of the educational 
records of the child provided to that new school in a timely fashion. 
The Act provides some help with transportation costs to assist children 
in remaining in their original schools. States also must provide 
assurances in their Title IV-E state plans that every school-age child 
in foster care or who is receiving an adoption assistance or subsidized 
guardianship payment, with help from Title IV-E, is enrolled as a full-
time elementary or secondary school student or has completed secondary 
school. Greta Anderson, a former foster youth from Wisconsin, testified 
at the September 15 hearing that she attended nine different schools 
during her high school career, six of them in different treatment 
facilities, reminding us all of the importance of these provisions for 
youths in foster care.
    In Pennsylvania, education and child welfare advocacy organizations 
are working together on implementation of the new provisions, and in 
Connecticut, advocates and agency staff from both systems have come 
together to plan for implementation of these important improvements. 
Other states, including Iowa and Utah, have enacted implementing 
legislation. CDF and other advocates are working to explore ways that 
complementary federal obligations might be imposed on state and local 
education agencies so there would be increased receptivity to these 
improvements in the states. Just as children who are homeless have been 
afforded basic educational rights under the McKinney-Vento Homeless 
Assistance Act, attention also must be given in education law to the 
educational rights of children in foster care.
    Health Oversight and Coordination. The State Health Oversight and 
Coordination Plan required under the Act is intended to get child 
welfare and Medicaid agencies working together with pediatricians and 
other experts to look more carefully at the health and mental health 
challenges facing children in foster care. It must address how initial 
and follow-up health screenings will be provided, health needs 
identified will be monitored and treated, and medical information will 
be updated and appropriately shared with providers. The plan also must 
detail the steps that are or will be taken to ensure continuity of 
health care services, including the possibility of establishing a 
medical home for every child in care, and what will be done to ensure 
the oversight of prescription medications, including psychotropic 
drugs. This requirement has pushed action forward in states that had 
already begun such coordination work and has been used in other states 
to bring child welfare and health to the table together. For example, 
Florida child welfare, juvenile justice and health agencies have 
entered an interagency agreement to develop a coordination plan. The 
challenge in all the states will be to make this more than a plan that 
sits on the shelf but, instead, a game plan for changing practices, 
procedures and policies in states so that the health and mental health 
care needs of children in foster care will be addressed. Too often now 
children enter foster care after experiencing abuse and other trauma 
and, rather than getting help, face new problems that make them worse 
off instead of better off. Unfortunately, HHS has, to date, provided 
states little guidance as to either the process for developing or the 
contents of these plans. In late August, the President of the American 
Academy of Pediatrics made specific recommendations to the Acting 
Assistant Secretary for Children and Families for guidance in 
evaluating states' Health Oversight and Coordination Plans. It would be 
helpful for the Subcommittee to recommend to the Children's Bureau that 
it issue a letter jointly with the Center for Medicaid and State 
Operations in the Centers for Medicare & Medicaid Services about the 
importance of meaningful collaboration among child welfare and Medicaid 
agencies in strengthening and implementing these plans.
Promoting New Permanency Options and Post-Permanency Services for 
        Children
    The Fostering Connections to Success and Increasing Adoptions Act 
pushed forward a renewed focus on the importance of permanence for 
children in foster care and attention to what can be done to place 
children safely in permanent homes with relatives and with adoptive 
parents. Many of these are reforms that have been encouraged for years 
and are now finally getting important attention in the states.
New Attention to Permanence for Children in Care with Relatives
    The promoters of the Act took note of research that has found 
children often do better in placements with relatives when in care away 
from their parents and are often as safe, if not safer, than children 
placed in non-relative foster homes. Children and youths placed with 
relatives experience fewer placements than those in non-relative homes, 
giving them greater stability both at home and in school. They also are 
more likely to be placed with their siblings and more likely to say 
that they feel they are part of the family they are living with. Recent 
research also has found that children placed with relatives are less 
likely to exhibit behavior problems. New requirements and options for 
states in the Act can help support children being raised by 
grandparents and other relatives.
    Identification of and Notice to Relatives. The Fostering 
Connections to Success and Increasing Adoptions Act requires that 
states identify and give notice to all adult relatives within 30 days 
of a child being removed from his family and placed in foster care. CDF 
staff often hear that relatives didn't know a grandchild or niece or 
nephew had been removed from his or her home and placed in foster care. 
Providing notice to relatives immediately will allow them early on to 
decide whether and to what extent they can be involved in caring for 
the child. They will be more aware of the options they have. If they 
cannot provide a home for the child, their involvement still can help 
to maintain an important family connection and ease the child's sense 
of loss. These connections also can be helpful if it later turns out 
that reunification is not a possible permanency option for the child. 
Although a number of states already had notice requirements, many 
states have taken a second look to check the frequency and nature of 
the notice and who receives it. New York and Pennsylvania are two of 
the states that early on reissued guidance on their notice requirements 
with modifications. The National Conference of State Legislatures 
reports that at least eight states have enacted new relative notice 
requirements through legislation since the Act was passed (AR, CO, GA, 
IA, MN, MO, ND, OK). Other states are waiting until the Children's 
Bureau provides further details on the nature of the notice and 
documentation required. We have heard questions from states such as: 
What steps must be taken to identify relatives to fulfill due 
diligence? Must the notice be in writing? What specific information 
must the state give the relative?
    Intensive Family Finding.  Intensive Family Finding, another 
activity allowed under the Family Connection Grants mentioned above, 
can help identify relatives who may be a resource for children. It can 
be used early on as a strategy for exercising due diligence in 
identifying and notifying relatives, or it can be used to help children 
already in care connect permanently with family members. Intensive 
Family Finding uses search technology to find family members and, when 
they are identified, works to establish and build on relationships to 
promote permanency for the child. Encouraged by results in states that 
have used Intensive Family Finding and documented its impact on 
improved outcomes for children, Texas and Colorado have applied for a 
Family Connection Grant to use this strategy.
    Kinship Guardianship Assistance. The Fostering Connections to 
Success and Increasing Adoptions Act also provides federal support for 
the first time to states that opt to offer subsidized guardianship 
payments on behalf of children in federally-supported foster homes with 
relatives. These payments help enable children to leave foster care yet 
remain permanently with their relatives who become their legal 
guardians. In including the Kinship Guardianship Assistance Program in 
the Fostering Connections to Success and Increasing Adoptions Act, 
Congress recognized that 37 states and the District of Columbia already 
were offering such assistance and wanted to help these programs reach 
more children and encourage additional states to offer similar 
assistance. There is a lot of interest in the program, especially among 
states already supporting such assistance to children with only state 
dollars. To date, at least six of these states (CT, ME, MO, OR, PA, TN) 
and the District of Columbia have notified HHS of their plans to use 
the new federal dollars for Kinship Guardianship Assistance, and 
Director Erwin McEwen of the Illinois Department of Children and Family 
Services testified on September 15 that Illinois will do so when its 
Subsidized Guardianship waiver ends in October. Eight of the 13 states 
not previously offering such assistance already have passed new kinship 
guardianship assistance legislation (AR, CO, MI, TX, WA) or are working 
toward such legislation (NY, VT, VA). Although the enormous fiscal 
pressures on states make it challenging for them to make any new 
investments, increasing numbers of states have realized that if they 
don't take advantage of the new funding opportunity, they will continue 
to pay for the care of many of these children in foster care anyway. 
Before a child can receive Kinship Guardianship Assistance, both 
reunification and adoption must be determined to be not appropriate 
permanency options for the child, suggesting he or she will remain in 
foster care. There also is evidence from research in Illinois and 
Tennessee, two of the states that have used federal child welfare 
demonstration waivers to implement statewide subsidized guardianship 
programs, that these programs are cost-effective and can actually save 
states money. The Act took another step as well to support kinship 
families by offering independent living services and education and 
training vouchers to youths who leave foster care at age 16 or older 
and move in permanently with relatives or are adopted. Greta Anderson, 
the young woman who testified before the Subcommittee, was placed with 
a relative guardian at 16 and is a living example of how this provision 
in the Act already has helped a youth who had been in a kinship 
guardianship placement get additional assistance for college. As she 
said, ``The college experience is one every foster youth deserves.''
    Sibling Connections. The Act also gives special attention to the 
importance of sibling connections for children in foster care. Research 
has documented that the sibling bond is one of the most important and 
long-lasting bonds created in our lives, and it is especially important 
for children in foster care who often do not have connections to other 
family members. The Act requires agencies to make reasonable efforts to 
place siblings together in all placements unless it is contrary to the 
children's safety or well-being. This will help to provide a sense of 
stability for the children who are removed from the rest of their 
family. If siblings cannot be placed together, the state must make 
reasonable efforts to provide frequent visitation or other ongoing 
interaction between the siblings, unless this interaction would also be 
contrary to a sibling's safety or well-being. Although prior to the 
enactment of the new law, a survey by the National Resource Center for 
Family-Centered Practice and Permanency Planning found that more than 
half the states had policies in place requiring agencies to make 
efforts to ensure siblings are placed together and even more states 
promoted sibling visitation, there was also evidence from some of the 
larger states that more than half of the children with siblings in care 
were not placed together. The Act's sibling provisions have required 
agencies to update some of their policies and take steps to document 
that they are making reasonable efforts to ensure their rules are being 
implemented and that staff, caregivers and youths themselves actually 
know about them.
Promoting the Adoption of Children with Special Needs
    The Fostering Connections to Success and Increasing Adoptions Act 
takes specific steps to make adoption a permanency option for more 
children with special needs in foster care. Beginning this fall, on 
October 1, 2009, states will be eligible for federal reimbursement for 
more children with special needs who are adopted. The Children's Bureau 
just issued new guidance for the Adoption Assistance changes on August 
26, 2009 (ACYF-CB-PI-09-10). Over a nine-year period, children waiting 
for adoptive families will be eligible for federal support without 
regard to whether their birth family was eligible for Aid to Families 
with Dependent Children. This is a change that had been sought for 
decades. It makes no sense to tie a child's eligibility for adoption 
assistance payments with a new family to the income of his or her birth 
family whose parental rights have been terminated. This fall states 
must extend the new adoption assistance payments to all eligible youths 
16 and over with special needs who are waiting for adoption and to 
children with special needs who have been in care for 60 or more 
continuous months, as well as the siblings of both groups of children 
and youths if they are adopted by the same family. Again, this is 
another provision that will benefit individual children but has also 
already encouraged state agencies to take a careful look at the large 
number of children sitting in foster care waiting to be adopted. The 
North American Council on Adoptable Children has been doing commendable 
work with states to help them prepare for this new assistance and 
commit to redirecting state dollars currently used for adoption 
assistance payments to post-permanency and other services. The 
redirection of these services can help ensure that children get 
referred appropriately for adoption and, once placed with adoptive 
families, get the supports and services they need to remain there.
Expanding the Adoption Incentive Program
    The Act reauthorized the Adoption Incentive Program and expanded 
the incentives available to states that increase the number of older 
children and other children with special needs being adopted. The 
additional incentive payments should help states reduce the number of 
children waiting for permanent families. On September 14, 2009, HHS 
announced incentive awards totaling $35 million for 38 states and 
Puerto Rico, including eight of the states represented on the 
Subcommittee (AL, CA, FL, GA, IL, MD, MI and NV). These were the first 
awards made under the new rules in the Act. The awards are to be used 
for child welfare services and activities, including post-adoption 
services, authorized under Titles IV-B and IV-E of the Social Security 
Act.
Support for Youths Aging Out of Care
    The Fostering Connections to Success and Increasing Adoptions Act 
also promises new federal support to states to help older youths who 
are not adopted or returned home remain in care to age 19, 20 or 21 to 
finish their education, find work, and explore new permanent family 
connections. While federal support for youths in care beyond their 18th 
birthday will not go into effect for another year, states, as you heard 
from both Illinois and Maryland at the hearing, are working hard to 
determine how youths can benefit from this increased support. States 
like these that already are using state dollars to provide support may 
be able to free up some state dollars to reach more children. For those 
states that now end support for youths at age 18, there is strong 
evidence to show that continued time in care to help with education and 
work opportunities can improve outcomes for youths. Research by the 
Chapin Hall Center for Children at the University of Chicago has 
documented increased benefits to young people who stay in care longer. 
They are more likely to graduate from high school, pursue higher 
education, graduate from college, have higher incomes and delay 
pregnancy. Recognizing these benefits, at least three states have 
already enacted legislation that would allow them to provide such 
support to youths (IL, TX and WA). Others have legislation pending (AL, 
CA, DE and MA). In order to assist older youths, states also are paying 
attention to the Act's new requirement for transition plans for youths 
before they leave care and exploring how to ensure that youths play a 
major role in planning for the housing, health coverage, education, 
workforce support, employment services and other help they will need.
Improving the Child Welfare Workforce
    The Fostering Connections to Success and Increasing Adoptions Act 
also took a first step to improve the child welfare workforce by 
extending federal Title IV-E training funds to reach more agency and 
court staff working with children in the system. Federal support for 
training is also extended to attorneys representing parents and 
children, guardians ad litem and other court appointed special 
advocates. While much more needs to be done, states and advocates are 
beginning to pay more attention to how Title IV-E training funds are 
being used and can be expanded for the benefit of children. The fact 
that the new funds are phased in over five years has been a 
disincentive so far for states to use the new funding. At the same 
time, however, states are eager to get Congress's attention about other 
changes needed to improve the child welfare workforce.
Taking the Next Step and Finishing the Job
    The Fostering Connections to Success and Increasing Adoptions Act 
has provided new attention to problems facing children and families and 
child welfare systems across the country, focused new energy on reforms 
to improve outcomes for children, and promoted important new 
collaborations that recognize children will only truly benefit if 
agencies serving children work together and with the broader community 
on their behalf. CDF looks forward to continuing to work with Members 
of the Subcommittee and others to ensure that children truly benefit 
from the new services and supports offered in the Fostering Connections 
to Success and Increasing Adoptions Act. At the same time, we are eager 
to build on the momentum that has been gained and ``finish the job'' as 
Chairman McDermott said on the House floor last year. As we work to 
improve outcomes for children in foster care, we must ratchet up 
efforts to improve outcomes for all children by implementing 
improvements in federal child welfare financing that will help:

        <bullet>  Offer children and families the supports they need to 
        prevent child abuse and neglect, prevent crises from 
        intensifying, and prevent children from entering foster care 
        unnecessarily;
        <bullet>  Improve the child protection response in states, as 
        it is often the child protection agency that controls the front 
        door to the child welfare system;
        <bullet>  Promote improvements to establish permanency, 
        permanency incentives and post-permanency services for children 
        in foster care, including Kinship Guardianship Assistance for 
        all children in foster care with relatives, and special help to 
        relatives who are preventing children from entering foster 
        care;
        <bullet>  Establish permanency for the tens of thousands of 
        children, often older children, who remain in expensive group 
        care settings and seem not to be helped by most efforts 
        underway in states to safely reduce foster care caseloads;
        <bullet>  Make continuing improvements in the child welfare 
        workforce to help states address gaps in supports for the 
        workforce and extend training for all staff assisting children 
        in the child welfare system--not just those directly 
        responsible for IV-E eligible children--to promote safety, 
        permanence and well-being for children; and
        <bullet>  Promote increased accountability in states for 
        improved outcomes for children by encouraging more frequent 
        tracking and reporting on child-specific outcomes and on the 
        movement of children in and out of care and agencies' 
        performance over time, assisting in the development of 
        evidence-based practices and programs and developing incentives 
        for continuous improvement on behalf of children and families.

    There is growing consensus in the field about the need for 
improvements in these areas. The remaining challenges relate to the 
best ways to make progress in all of them.
    Thank you for the hope you have given to hundreds of thousands of 
children and youths across the country. The Children's Defense Fund 
looks forward to continuing to work with the Subcommittee to ensure 
that this hope is realized for these children and to take the next 
steps so we can get the job done for children.

                                 <F-dash>
            Statement of Donna M. Butts, Generations United
    Generations United is the only national membership organization 
focused solely on promoting intergenerational strategies, public 
policies, and programs. Founded in 1986 by the National Council on the 
Aging, Child Welfare League of America, AARP, and Children's Defense 
Fund, GU has grown tremendously over the last twenty years and now 
represents over 100 national, state, and local organizational members 
that represent more than 70 million Americans. GU serves as a resource 
for educating policymakers and the public about the economic, social, 
and personal imperatives of intergenerational cooperation. One of GU's 
core initiatives is its National Center on Grandfamilies, which 
provides resources, materials, and information to groups serving 
children being raised by grandparents and other relatives.
    This testimony will focus on the implications of implementation of 
the Fostering Connections and Increasing Adoption Act of 2008 (The 
Fostering Connections Act) on ``grandfamilies,'' families in which 
grandparents or other relatives are primarily responsible for caring 
for children who live with them. These families are also referred to as 
kinship families and exist both in and outside the formal foster care 
system. Congress recognized the importance of relative caregivers in 
helping to raise our country's children throughout the Fostering 
Connections to Success and Increasing Adoptions Act of 2008.
The Numbers
    Children who enter the foster care system fare better when placed 
with relatives. They experience fewer placements and less disruption 
while staying connected to their familial roots and culture. They are 
also more likely to report that they feel loved. Currently about 
530,000 children in the U.S. are in foster care. Of these, more than 
125,000 live with relatives. All told almost six million children 
across the country are living in households headed by grandparents or 
other relatives, according to the 2000 U.S. Census. About 4.4 million 
of these children are in grandparent-headed households, and another 1.5 
million live in households headed by other relatives, such as aunts, 
uncles, or siblings. Almost 2.5 million of these children have no 
parent present in the home.
Making Subsidized Guardianship Available for All Children Who Need It
    For the first time, Congress guaranteed federal support for all 
states (at their option) to provide permanent relative guardians a 
subsidy. The Kinship Guardianship Assistance Program is an innovative 
approach to expand permanency to children languishing in foster care 
with relatives for whom adoption is not appropriate and return-to-home 
is not an option. The Guardianship Assistance Program provides the 
sense of ``forever'' that is so important to a child's future. While 
providing the option for states to receive federal support for 
subsidized guardianship for children who are eligible for Title IV-E 
was a major step forward for children, however thousands of children 
who have been abused or neglected still do not qualify for federal 
support because they are not IV-E eligible.
    Eliminating the Title IV-E eligibility link to the July 1996 Aid to 
Families with Dependent Children income requirement would help make 
subsidized guardianship available to all children who need it. By 
making subsidized guardianships a reimbursable expense for IV-E 
eligible children, the Fostering Connections Act took a monumental step 
toward helping states move more children to permanent homes with 
relatives. However, because federal reimbursement is limited to 
children who are IV-E eligible, thousands of children for whom 
subsidized guardianship is the best option will continue to have it 
unavailable to them. A 2008 report from the Child Welfare League of 
America on the decline of federal support for children in foster care 
demonstrated a 23% decline from 1998 to 2006 in the number foster 
children who are eligible for Title IV-E. As a result of these 
eligibility rules, tens of thousands of children who have experienced 
abuse and neglect do not qualify for federal assistance and thousands 
of children are left without the full array of permanency options that 
may be best for them.
    Generations United urges Congress to address an additional 
eligibility limitation presented in a U.S. Department of Health and 
Human Services Program Instruction (CB-PI--08-007) issued on December 
24, 2008 which incorrectly interpreted the new Fostering Connections 
law and federal kinship guardianship assistance program reimbursement 
as applying only to those children entering a new kinship guardianship 
arrangements after exiting from a IV-E foster care placement. The 
interpretation penalizes states such as California that took the 
initiative to create their own programs. Generations United urges the 
Subcommittee to work with the Administration on Children and Families 
to urge them to rescind this provision in the December 24, 2008 Program 
Instruction. Families they serve should be denied federal support based 
solely on the timing of the guardianship placement.
Providing Guidance to States
    States are taking steps to implement the required provisions of the 
law, however many questions remain. Many states are seeking federal 
guidance on certain provisions in order to most effectively serve the 
needs of families. We urge Congress to encourage the Administration to 
provide guidance to the states on a number of provisions that affect 
children being raised by grandparents or other relatives. For example 
several states have raised questions related to waiving non-safety 
licensing requirements for relative families and would benefit from 
guidance directing them to establish a written policy for the process 
by which a non-safety licensing waiver can be requested. While the law 
makes clear that such waivers may be granted on a case-by-case basis, 
without a clear process for initiating a request for a waiver, an 
overworked child welfare worker may opt not to pursue a waiver despite 
indications that the particular home may be the best placement for a 
child.
    As states implement the requirement to notify adult relatives of a 
child within 30 days of removal from the custody of his/her parents, 
guidance could direct states to develop clear policies which would 
define what type of notice should be given, detail which state agency 
or department in the agency is responsible for providing notice, and 
consider what type of documentation should go into the case file.
Investing in Prevention Supports for Children and Families at Risk
    By the time a child enters the formal foster care system, they have 
often already been the victim of abuse or neglect. Preventing child 
abuse and neglect is always preferable to emergency intervention and 
placement in foster care. However, the child welfare system focuses 
very few resources on preventing child abuse and neglect. High-quality 
home visiting has proven to be a cost-effective preventive program 
model. Research has shown that home visiting can produce greater school 
readiness, enhanced child health and development, improved parenting 
practices, and reduction in child maltreatment and later criminality. 
If Congress were to make a greater investment in preventative services, 
our country's children will be more prepared to become productive and 
healthy adults.
    Children being raised by grandparents or other relatives are one of 
the primary groups that can benefit substantially from preventative 
resources. Grandparents and other relatives raising children save 
taxpayers more than $6.5 billion each year by stepping forward to take 
care of children and keep them out of the formal foster care system.\1\ 
Many take custody of children with little warning or planning. They 
often find that raising children a second time presents new challenges.
---------------------------------------------------------------------------
    \1\ This figure was calculated based on the federal share of the 
2000 average monthly foster care maintenance payment, which was 
estimated at $545 in the Green Book, Committee on Ways and Means, U.S. 
House of Representatives. Half the children are used for our 
calculation, due to a conservative estimate that the other half already 
received some type of governmental financial assistance, such as a 
Temporary Assistance for Needy Families (TANF) child-only grant. 
Consequently, the cost of one million children entering the system 
would represent all new financial outlays for taxpayers.
---------------------------------------------------------------------------
    The caregivers may be living on a fixed income and were not 
planning financially to raise another child. The relative children they 
are caring for who have been removed from the parents' home are more 
likely to have behavioral and mental health issues than other children 
and often need therapeutic treatment. Yet, because these caregivers 
stepped forward to prevent the children from becoming involved with the 
child welfare system, they often do not qualify for supportive services 
that could help the children and family thrive. Helpful preventative 
and supportive services may include: support groups, therapeutic 
treatment, mental health services, housing supports, mobile health 
services, home visiting, and respite care. According to a recent report 
from Prevent Child Abuse America, preventatives services to address 
some of the challenges these families face are critical: ``to minimize 
the long-term effects of abuse, age-appropriate treatment services 
should be available to all maltreated children.'' Congress should 
support greater investment in preventative services including those 
that would support children being raised by grandparents and other 
relatives.
Post Permanency Services
    The Fostering Connections Act includes a number of provisions that 
build on the goals of the Adoption and Safe Families Act to help 
children leave foster care for permanent homes. The meaning of 
permanency suggests that our responsibility does not end with providing 
a permanent plan for children. While the importance of post permanency 
services has been emphasized in the area of adoption, additional 
supports are needed especially for those families in other permanency 
arrangements. In particular the Fostering Connections Act expands 
access to the subsidized guardianship permanency option. Therefore, the 
availability of post permanency services should be expanded to address 
the needs of all families who take on permanent care for children 
leaving foster care including relatives who assume permanent 
responsibility for their relative children.
    While adoption and subsidized guardianship disruption rates are 
low, any disruption has devastating consequences for a child, 
particularly one who has already experienced multiple placements. Post 
permanency services promise greater stability for families guaranteeing 
improved outcomes for children. In addition to providing subsidies and 
health insurance through Medicaid which is now available to IV-E 
eligible children in states that elect to provide subsidized 
guardianship, examples of post-permanency services could include: 
support and treatment services for families caring for children with 
special needs, educational and information services, clinical and 
treatment services, supportive networks and other forms of informal and 
formal support for children and families. Furthermore, some families 
who secure subsidized guardianship of the children in their care may, 
at a later date, decide to seek adoption for the children and find that 
the child welfare agency no longer offers support through the adoption 
process. In addition to providing Adoption Assistance funds to 
qualifying families, post-permanency services could include services to 
help guide and assist relatives through the adoption process.
Conclusion:
    We appreciate the work of this committee to review the 
implementation of the Fostering Connections and Increasing Adoptions 
Act of 2008 and your continued interest in providing permanent homes 
for all children.

                                 <F-dash>
                     Statement of Frank J. Mecca, 
           County Welfare Directors Association of California
    The County Welfare Directors Association of California (CWDA) 
appreciates the opportunity to submit testimony for the record on the 
Implementation of the Fostering Connections and Increasing Adoptions 
Act (P.L. 110-351). CWDA and its members actively supported the 
adoption of the legislation. The new law contains important provisions 
to assist states and counties in serving at-risk children and youth. We 
welcome the Subcommittee's continued interest in the subject through 
holding this oversight hearing and will work with you to continue to 
make other necessary child welfare financing reforms.
    Each of California's 58 counties operates a child welfare program, 
under state oversight and in accordance with federal and state rules 
and regulations. Not only do those programs depend upon revenues 
generated by each county, but a large share of child welfare financing 
depends upon state and federal funding streams.
    Our statement addresses concerns in two key areas: the ability of 
states and counties to use their funds as match for the new federal 
resources under the kinship guardianship assistance payments program 
and implementation issues concerning youth between the ages of 18 and 
21.
Financial Support for Kinship Guardianship
    Our state's child welfare system is the largest in the nation, with 
nearly 72,000 children in out of home foster care. In addition to that 
group are approximately 15,000 children in our state- and county-funded 
Kinship Guardianship Assistance Payment (Kin-GAP) program. California's 
counties have partnered with the state to operate the program since 
2000. This program enables children who would otherwise be in foster 
care to be cared for by relatives. Kin-GAP has furthered the shared 
federal and state goal of securing stable and permanent placements with 
relatives who have assumed legal guardianship of an at-risk child. In 
addition to providing permanent homes to children in foster care, the 
Kin-GAP program has avoided millions of dollars in federal foster care 
costs.
    Unfortunately, a U.S. Department of Health and Human Services 
Program Instruction (CB-PI-08-007) issued on December 24, 2008 
interpreted the new Fostering Connections law and accompanying federal 
kinship reimbursement as applying only to those children entering a new 
kinship arrangement after exiting from a IV-E foster care placement. 
The Instruction penalizes states such as California that took the 
initiative to create their own programs. The current interpretation 
that federal kinship guardian payments apply only prospectively places 
the state and its counties in the untenable position of having to 
disrupt stable guardianship families by converting them to federally 
funded cases by creating a `new' kinship arrangement through the court 
system--a system these families thought they had left behind in 
entering Kin-GAP. Not only would such a process needlessly direct 
resources away from serving families and cause potential distress for 
guardians and the children in their care, retaining the current Program 
Instruction violates a key tenet of new law--that states be given 
incentives to establish subsidized guardianships for relatives so that 
they have the financial means to provide stable, loving homes for their 
relative children who would otherwise be placed in foster care.
    CWDA urges the Subcommittee to work with the Administration on 
Children and Families to convince them to rescind this provision in the 
December 24, 2008 Program Instruction. Governmental agencies and the 
families they serve should not be penalized based solely on the timing 
of the guardianship placement.
    The state legislature is considering a bill, AB 12, which would 
implement a number of the Fostering Connections Act provisions. CWDA 
has been very active in that legislative process. We support greater 
flexibility in the use of federal IV-E funding so that more of it could 
be used to maintain or reunify families when children are abused or at 
risk of abuse and neglect. Our staff and human services directors await 
further guidance from ACF and urge the Administration to provide ample 
flexibility in that guidance so that we may address appropriately the 
unique circumstances of the families we serve.
Support for Young Adults Reaching the Age of 18
    CWDA supports the law's provision to extend IV-E payments to youth 
up to the age to 21. California's pending AB 12 contains such a 
provision. Given California's unprecedented budget problems, however, 
it will not likely be able in the near future to provide the necessary 
financial match to take advantage of the extension.
    For youth who have attained the age of 18, CWDA believes that there 
needs to be federal recognition that by extending the definition of 
`foster child' to include a foster young adult up to age 21, additional 
flexibility is needed in defining the purpose of the IV-E case plan for 
a legal adult. Legal permanency that applies to a child no longer 
applies to a person over age 18. The goals of the case plan may have to 
be modified to focus on the youth's transitional plan, such as 
education and employment goals.
    Further, the new Act allows federal reimbursement for `a supervised 
setting in which the individual lives independently.' CWDA would 
support guidance on how to define supervised independent living in a 
manner that allows a range of housing options for youth to ensure their 
progress toward stable and productive lives. Since they are legally 
adults, however, federal guidance and/or regulations on living 
situations and court oversight must account for and respect that fact. 
Consequently, a separate licensing standard for those over age 18 is 
necessary, including, but not limited to: shared homes, individual 
scatter-site apartments, collegiate housing and boarding homes.
    CWDA believes that California's Transitional Housing Placement 
Program (THP-Plus) for youth over 18 years of age is a model that fits 
within the intent of the Fostering Connections Act. THP encourages 
private nonprofits to provide case management to youth who live in 
supervised independent living settings, either in apartments or with 
host families (often former foster parents or relative caregivers). 
Youth have an individualized case plan that requires participation in 
either employment or education while gradually assuming more 
responsibility for payment of living expenses. California and its 
county human services agencies are working to develop IV-E licensing 
standards that meet core health and safety concerns, while recognizing 
the youths' status as legal adults. The program does not currently draw 
down IV-E funds, but CWDA believes it can be readily adapted to the 
`supervised independent living settings' envisioned in the Act.
    Finally, establishing permanency (return to parent's home, adoption 
or guardianship) for a legal adult over age 18 is different than 
compared to a minor. As such, the federal requirement that government 
agencies seek to terminate parental rights no longer applies to foster 
youth who are legal adults. Under California law, an adult can consent 
to be adopted, but it is not at all clear that such consent should fall 
under the jurisdiction of the state dependency court. In addition, 
legal guardianship over a minor terminates when the minor attains age 
18, and parents no longer have custodial rights over children over age 
18. Federal IV-E requirements for permanency need to be modified for 
these legal adults still in care.
    As Subcommittee Members have acknowledged, much more needs to be 
done to reform the child welfare system. CWDA supports efforts to 
provide greater flexibility in the use of federal funds to provide up-
front investments in the lives of families and children at risk. And, 
as you prepare for the upcoming reauthorization of the Temporary 
Assistance to Needy Families (TANF) program in 2010, we will work with 
the Subcommittee to identify ways in which child welfare and TANF may 
be better coordinated and leveraged when serving families who are 
clients of our agencies' programs.
    Thank you for the opportunity to submit this statement for the 
record. If you have any questions, please contact Tom Joseph, Director 
of CWDA's Washington Office at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="384c52784f595e5d5c165b575516">[email&#160;protected]</a>

                                 <F-dash>

                   Statement of Jane Burstain, Ph.D.
    To be effective, any legislation must have consistent policies and 
incentives. Before the Fostering Connections to Success and Increasing 
Adoptions Act, for children who could not return home, federal law 
consistently preferred adoption. The Federal Government subsidized 
financial support the state provided to adoptive parents and also 
provided payments directly to the state for increasing adoptions over a 
baseline level. The Federal Government did not provide any support or 
incentive for other permanency options such as legal guardianship.
    With Fostering Connections, however, federal policies and 
incentives regarding permanency are no longer consistent. On the one 
hand, the new law still encourages adoption over legal guardianship. 
Federal law requires states to in essence rule out adoption before 
considering legal guardianship, and incentive payments to states remain 
solely based on increases in adoptions. On the other hand, as a 
practical matter, the new law puts both adoption and legal guardianship 
on an equal footing. It now subsidizes financial support for relatives 
who either adopt or who take legal guardianship. This policy conflict 
has practical consequences for states and more importantly for 
children.
    The Federal Government rewards states only when a relative chooses 
adoption. But states opting into the federal kinship guardianship 
assistance program effectively lose the ability to affect that choice. 
States must inform relatives of the kinship guardianship assistance 
program in the initial notice after the child has been 
removed.<SUP>i</SUP> All relatives are told upfront that there is a 
choice between adoption and guardianship. But states have no ``carrot'' 
to encourage relatives to pick adoption over guardianship because 
relatives will get paid no matter what choice they make.<SUP>ii</SUP> 
States have no ``stick'' either. While Fostering Connections does 
require that the state find adoption not appropriate before a relative 
becomes eligible for a kinship guardianship payment,<SUP>iii</SUP> if a 
relative decides against adoption in favor of legal guardianship, the 
state's only recourse is to remove the child from the relative's 
otherwise appropriate home--hardly something child welfare 
professionals would do or that would be in the child's best interest. 
As a result, as a practical matter, whether relatives adopt or become 
guardians is solely a matter of relative preference.
---------------------------------------------------------------------------
    \i\ 42 U.S.C. Sec. 671(a).
    \ii\ Although the law allows states to set a lower rate for legal 
guardians, in practice, it does not work. Maryland and North Carolina 
each had a guardianship assistance demonstration project that set a 
lower rate for legal guardians. Experience in both states was that 
doing so made it difficult, if not impossible, to attract anyone into 
the program because of the attendant financial loss. Synthesis of 
Findings from State Assisted Guardianship Title IV-E Demonstration 
Projects (September 2005).  Administration of Children and Families. 
(Available at: http://www.acf.hhs.gov/programs/cb/programs_fund/
cwwaiver/agissue/evaluation.htm#process Accessed on September 28, 
2009).
    \iii\ 42 U.S.C. Sec. 673(d)(3)(A)(ii).
---------------------------------------------------------------------------
    Research shows that providing relatives with legal guardianship as 
a financially viable alternative can increase overall exits to 
permanency.<SUP>iv</SUP> Relatives who are opposed to adoption now can 
become a child's legal guardian, taking the child out of foster care. 
But research also shows that with subsidized legal guardianship, 
adoptions will decline. At least some and perhaps many relatives who 
would have exited to adoption because it was the only financially 
viable alternative will now choose to exit through legal guardianship 
instead.<SUP>v</SUP>
---------------------------------------------------------------------------
    \iv\ Testa MF. Subsidized Guardianship: Testing the Effectiveness 
of an Idea Whose Time Has Finally Come. Children and Family Research 
Center. May 2008.
    \v\ Testa MF. Subsidized Guardianship: Testing the Effectiveness of 
an Idea Whose Time Has Finally Come. Children and Family Research 
Center. May 2008. In Illinois, an evaluation of the legal guardianship 
payment demonstration project found that two-thirds of completed 
guardianships might have been adoptions in the absence of the legal 
guardianship payment option. A similar substitution effect was found in 
Tennessee. There was no substitution effect found in a similar program 
adopted in Milwaukee, Wisconsin. But researchers attributed the lack of 
an effect to Milwaukee's decision not to offer the guardianship program 
to families who were already on the track to adoption, a strategy that 
is not available under Fostering Connections.
---------------------------------------------------------------------------
    Fewer adoptions mean reduced adoption incentive payments for 
states.<SUP>vi</SUP> As a result, the sixteen states such as Texas, New 
York and Ohio <SUP>vii</SUP> who do not currently provide financial 
support to relative legal guardians face a conundrum. Opting into the 
federal kinship guardianship assistance program may increase the number 
children exiting foster care into a permanent home with a relative. But 
in doing so, states may be sacrificing federal adoption incentive 
funds, leaving less money overall for states to invest in improving 
their child welfare system.
---------------------------------------------------------------------------
    \vi\ A relative legal guardian can later decide to adopt. But there 
is no incentive to do so and there is no evidence of this happening in 
the assisted guardianship demonstration projects in other states.
    \vii\ Allen T, DeVooght K, Geen R. State Kinship Care Policies for 
Children that Come to the Attention of Child Welfare Agencies; Finding 
from the 2007 Casey Kinship Foster Care Policy Survey. Child Trends. 
December 2008.
---------------------------------------------------------------------------
    In practice, Fostering Connections seems to evidence an intent to 
promote a policy of permanency for relatives, regardless of its legal 
form. If so, the Federal Government should change its incentive payment 
structure to reflect this policy choice and reward states for an 
increase in permanency not just adoption.

Respectfully submitted,

Jane Burstain, Ph.D.
Senior Policy Analyst

                                 <F-dash>

                    Statement of Jodie Lee Klaassen
    Changing the foster care system to increase adoptions is wrong. The 
chaos and abuses in the current foster care system are well documented 
in the state of Michigan. Having been involved in a terrible divorce in 
the 44th Circuit court in Howell, Michigan, I have often said that my 
minor sons' could be the poster children for what a court system and 
the ignorance of attorneys can do to children. Those types of 
statements do not win me must empathy in a system hell bent on making 
this woman pay for any illegal activity that a family or system has 
created. Often I have heard from the father of my sons' that if I don't 
take medications, comply with some outrageous court order, pay him 
child support, and work full time that our sons will just go into 
foster care. That court has allowed case workers in the Friend of the 
court to investigate me and the family history, allowed people related 
only through marriage to provide information to the courts, favored 
attorneys who clean up the paperwork or provide testimony about me and 
my sons to create further legal issues, and report alleged 
``delusional'' behavior from me or my sons which leads to further 
monitoring and money paid to them for their inconveniences.
    Before the divorce was initiated, by the father of my children in 
2001, I was the primary caregiver of our sons, often being informed by 
this man that they were my kids and I had to take care of them. I 
participated in their day care and school activities, was an employee 
at my son's parochial school, balanced a work schedule as an emergency 
room nurse, and provided for our sons activities of daily living 
without incident.
    Then we moved to Howell and a divorce. In Howell there was more 
immediate family and extended family present and my home was frequented 
by neighbors' children and nephews with care giving/parenting 
responsibilities extended to me by these people. When it was discovered 
that the sister-in-law was using Tabasco sauce on her sons' tongues, 
one of which has special needs, it was discussed at length, although 
court documents and the guardian ad litem heavily relied on this woman 
for her input on diagnosing my parenting abilities and 
responsibilities. This woman's relation with my spouse is documented in 
court records along with other issues which she participated in to 
hinder my time with my sons.
    It has been 2 years since I have spent any amount of time with my 
sons. Lawsuits have been initiated by me, in pro per, against the state 
of Michigan and the people who continue to provide the false and 
misleading information about me and my sons without relief. If I was 
the only ``Klaassen'' that the 44th Circuit court and the state of 
Michigan had inflicted such outrageous demands on due to an alleged 
``mental illness'' or ``substance abuse'' problem due to a divorce, 
brought forth by an attorney or abusive spouse, then I would continue 
to endure the pain and torment of not seeing or speaking to my sons in 
silence, but I am not the only one.
    I would hope that Mr. McDermott would afford us parents the 
opportunity to defend ourselves and our children against the abuses 
that even our own family members have and will continue to inflict upon 
us and our children either to obtain money or to justify the abuses 
which they were never held accountable for when we were children. 
Breaking the cycle of abuse is difficult and when the courts are being 
used by our abusers to further exploit those family issues which have 
never been appropriately handled then our children get put into a 
system which could possibly cause them more harm then being raised by a 
biological parent with an alleged ``mental illness'' or ``substance 
abuse'' history.
    Please examine the abuses that already exist in the system and 
don't allow our children to suffer needlessly. Thank you for your 
consideration in matters which affect many families and children.

Jodie Lee Klaassen, PN, RN, BGS

                                 <F-dash>

   Statement of John R. Vaughn, National Council on Disability (NCD)
    I am pleased to write to you on behalf of the National Council on 
Disability (NCD), an independent federal agency, to provide policy 
recommendations regarding youth with disabilities who are involved in 
the foster care system in order to be considered part of the record for 
the September 15, 2009 hearing of the Subcommittee on Income Security 
and Family Support regarding the implementation of the Fostering 
Connections to Success and Increasing Adoptions Act. Our comments are 
based upon NCD's 2008 report entitled Youth with Disabilities in the 
Foster Care System: Barriers to Success and Proposed Policy Solutions. 
The findings in that report lend support to the goals of the Fostering 
Connections to Success and Increasing Adoptions Act--that additional 
supports will assist youth with disabilities in the foster care system 
in reaching a healthy adulthood.
    The purpose of NCD is to promote policies, programs, practices, and 
procedures that guarantee equal opportunity for all individuals with 
disabilities, and that empower individuals with disabilities to achieve 
economic self-sufficiency, independent living, and integration into all 
aspects of society. To accomplish this, we gather stakeholder input, 
review federal programs and legislation, and provide advice to the 
President, Congress and government agencies. Much of this advice comes 
in the form of timely reports and papers NCD releases throughout each 
year. NCD is composed of 15 members, appointed by the President with 
the consent of the U.S. Senate.
    NCD undertook its ``Youth with Disabilities in the Foster Care 
System'' report because foster care is clearly both a child welfare 
issue as well as a disability issue, given the alarmingly high numbers 
of foster youth with mental, developmental, emotional, learning, and 
physical disabilities. NCD reported statistics that illustrate the 
disproportional numbers of youth in foster care who have disabilities. 
More than 50 percent of foster youth alumni had mental health issues 
compared to 22 percent of the general population. Across educational 
systems, an estimated 10 to 12 percent of the general population is 
eligible for special education and related services compared to a 30 to 
40 percent estimate for foster care youth.
    Data also indicate that far too many children and youth with 
disabilities in foster care are not transitioning into healthy 
adulthood as productive members of society. These findings reflect the 
insufficiencies of the temporal systems, programs, and in some cases 
unprepared people tasked to provide the necessary, cross-cutting, and 
interdependent health, education, and family services.
    After supporting the Fostering Connections Act as legislation, NCD 
was heartened to see the bill signed into law last year, and we believe 
this law will provide additional assistance that will help many young 
people with disabilities become contributing members of society. In 
light of the focus of Tuesday's hearing, we respectfully submit the 
following germane Congressional recommendations from our Youth with 
Disabilities in the Foster Care System report for your ongoing 
consideration:

        <bullet>  Provide increased flexibility to states and 
        communities so programs and services can be most effectively 
        structured to meet the needs of youth with disabilities in 
        foster care. More flexibility awarded to state child welfare 
        agencies can lead to more help where it is needed for 
        preventative services, alternative care models, transition 
        services, and school-based mental health programs, among many 
        other appropriate services for youth with disabilities in 
        foster care. Allowing a percentage of funds from one program to 
        be shifted to meet the purposes of another is one possible 
        approach; allowing waivers and block granting of funds is 
        another.
        <bullet>  Increase federal support in the departments of Health 
        and Human Services, Education, Justice, and Labor for research 
        and demonstrations to identify effective policies and practices 
        that lead to positive outcomes for youth with disabilities in 
        foster care. High-quality research and program evaluations 
        should be supported at the federal level to demonstrate which 
        programs and policies are truly effective for youth with 
        disabilities in foster care.
        <bullet>  Fund the Federal Youth Development Council, 
        authorized by the Federal Youth Coordination Act (FYCA), as 
        well as similar federal coordinating efforts. This council is 
        charged with developing an interagency plan to implement 
        federal youth policy more strategically for disadvantaged 
        youth, such as youth with disabilities in foster care. Federal 
        support of FYCA and its council would greatly facilitate a 
        stronger federal role in serving these youth, as well as more 
        cross-systems collaboration efforts involving the many systems 
        that interact with these youth.
        <bullet>  Strategically increase collaboration among the 
        education, juvenile justice, child welfare, labor, dependency 
        court, health, and mental health systems. Efforts should be 
        made to increase collaboration among all of these systems so 
        that youth with disabilities in foster care can achieve greater 
        well-being in their adolescence and into adulthood. State 
        dependency court systems can serve as leaders in many of these 
        collaboration efforts, and cross-system accountability measures 
        should be developed.

    If you have any questions about this submission or any matter 
related to disability policy, please contact NCD Executive Director 
Michael Collins by email at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="b1dcd2deddddd8dfc2f1dfd2d59fd6dec79f">[email&#160;protected]</a> On behalf of NCD, thank 
you for your leadership in focusing attention on this important topic. 
I also thank you for the opportunity to submit this statement for the 
record.

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
